<html>
<title> - NOMINATIONS OF MARCIA L. FUDGE AND CECILIA E. ROUSE</title>
<body><pre>[Senate Hearing 117-3]
[From the U.S. Government Publishing Office]



                                                           S. Hrg. 117-3

 
                   NOMINATIONS OF MARCIA L. FUDGE AND
                            CECILIA E. ROUSE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                            NOMINATIONS OF:

 MARCIA L. FUDGE, OF OHIO, TO BE SECRETARY, DEPARTMENT OF HOUSING AND 
                           URBAN DEVELOPMENT

                               __________

   CECILIA E. ROUSE, OF NEW JERSEY, TO BE CHAIR, COUNCIL OF ECONOMIC 
                                ADVISERS

                               __________

                            JANUARY 28, 2021

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban Affairs
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
                                


                Available at: https: //www.govinfo.gov /
                
                
                
                            ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
 43-929               WASHINGTON : 2021                
                


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      JACK REED, Rhode Island
TIM SCOTT, South Carolina            ROBERT MENENDEZ, New Jersey
BEN SASSE, Nebraska                  JON TESTER, Montana
TOM COTTON, Arkansas                 MARK R. WARNER, Virginia
MIKE ROUNDS, South Dakota            ELIZABETH WARREN, Massachusetts
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              DOUG JONES, Alabama
JERRY MORAN, Kansas                  TINA SMITH, Minnesota
KEVIN CRAMER, North Dakota           KYRSTEN SINEMA, Arizona

                     Gregg Richard, Staff Director

                Laura Swanson, Democratic Staff Director

                          Matt Jones, Counsel

                 Elisha Tuku, Democratic Chief Counsel

           Beth Cooper, Democratic Professional Staff Member

           Megan Cheney, Democratic Professional Staff Member

                      Cameron Ricker, Chief Clerk

                      Shelvin Simmons, IT Director

                    Charles J. Moffat, Hearing Clerk

                          Jim Crowell, Editor

                                  (ii)


                            C O N T E N T S

                              ----------                              

                       THURSDAY, JANUARY 28, 2021

                                                                   Page

Opening statement of Senator Toomey..............................     1

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     4
        Prepared statement.......................................    42

                               WITNESSES

Senator Sherrod Brown of Ohio....................................     7
Senator Rob Portman of Ohio......................................     8
Senator Robert Menendez of New Jersey............................    10
Senator Cory A. Booker of New Jersey.............................    11

                                NOMINEES

Marcia L. Fudge, of Ohio, to be Secretary, Department of Housing 
  and Urban Development..........................................    13
    Prepared statement...........................................    43
    Biographical sketch of nominee...............................    45
    Responses to written questions of:
        Chairman Crapo...........................................    96
        Senator Brown............................................    96
        Senator Toomey...........................................   102
        Senator Cotton...........................................   115
        Senator Kennedy..........................................   115
        Senator Menendez.........................................   116
        Senator Warren...........................................   118
        Senator Smith............................................   120
        Senator Sinema...........................................   121
Cecilia E. Rouse, of New Jersey, to be Chair, Council of Economic 
  Advisers.......................................................    15
    Prepared statement...........................................    83
    Biographical sketch of nominee...............................    84
    Responses to written questions of:
        Senator Brown............................................   123
        Senator Toomey...........................................   126
        Senator Warren...........................................   127
        Senator Van Hollen.......................................   129

              Additional Material Supplied for the Record

Letters submitted in support of Nominee Marcia L. Fudge..........   130
Letters submitted in support of Nominee Cecilia E. Rouse.........   146

                                 (iii)


          NOMINATIONS OF MARCIA L. FUDGE AND CECILIA E. ROUSE

                              ----------                              


                       THURSDAY, JANUARY 28, 2021

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10 a.m., via Webex, Hon. Patrick J. 
Toomey, presiding.

         OPENING STATEMENT OF SENATOR PATRICK J. TOOMEY

    Senator Toomey. Good morning. This hearing on the 
nominations of Congresswoman Marcia Fudge for HUD Secretary and 
Dean Cecilia Rouse for Chair of the Council of Economic 
Advisers will come to order.
    Before I begin with an opening statement, there are a few 
housekeeping items I would like to go through.
    First, this hearing is, of course, being held remotely. A 
few videoconference reminders: Once you start speaking, there 
will be a slight delay before you are displayed on the screen. 
To minimize background noise, please click the mute button 
until it is your turn to speak or ask questions. If there is a 
technology issue, we will move to the next Senator until that 
issue is resolved.
    I would like to remind all Senators and our witnesses that 
the 5-minute clock still applies. You should all have one box 
on your screens labeled ``Clock'' that will show you how much 
time is remaining. At 30 seconds remaining, you should hear a 
bell that will remind Senators that their time has almost 
expired.
    To simplify the speaking order process, Senator Brown and I 
have again agreed to go by seniority for this hearing. After 
Senator Brown and I give opening statements, we will hear brief 
introductions of our witnesses from Senators Brown and Portman 
and Senators Menendez and Booker. We will then proceed to 
testimony.
    I will recognize myself for my opening comments and observe 
that it appears that I am Chairman for the morning or so. Maybe 
it will be for a full day. That is to be seen. But I want to 
thank Chairman Crapo for his service. I think he is not with us 
at the moment, but I want to thank him for his leadership of 
this Committee. In my view, Senator Crapo set a terrific 
example for all of us, an example of how to engage in civil 
debate and treat each other with respect. I think Senator Crapo 
has a lot of work that he can be proud of during his tenure as 
Chairman, the work he did on the CARES Act in particular, as 
the economy was in dire straits last March, to the bipartisan 
S. 2155, the Economic Growth, Regulatory Relief, and Consumer 
Protection Act. And I want to thank Chairman Crapo, and I think 
I speak for many Members of the Committee in saying that we are 
looking forward to his work as the Ranking Member of the 
Finance Committee.
    I also want to say a quick word expressing my appreciation 
to Senator Brown. We find ourselves, of course, in this 
somewhat awkward position where we have an even split in the 
Senate, and we at the moment have this split on the Committee 
itself. As I mentioned, I am fully aware that very, very soon 
Senator Brown will be the Chairman of the Committee.
    I would like to point out I feel like we have made the best 
of the circumstances we are in. We have made progress on the 
process by which we vet nominees. We have made progress on 
processing the nominations themselves. We have made progress on 
the budgeting for the Committee and how we will allocate 
resources. So I appreciate that.
    And I appreciate the fact that in the past Senator Brown 
and I have had a constructive working relationship, whether it 
is working on things like the opioid crisis, the threat of 
Asian carps to the Great Lakes that we share, and a number of 
national security threats as well. So I am looking forward to 
continuing to work with Senator Brown in what will soon be his 
new role.
    And as for my opening statement, let me first begin by 
thanking both nominees for their appearance today, more 
importantly for their willingness to serve. Dean Cecilia Rouse 
has had a distinguished career in academia and Government. She 
is very well qualified for the post to which she has been 
nominated. She has a wealth of expertise in economic research 
and policy and previous experience on the Council of Economic 
Advisers. She has multiple degrees from Harvard University and 
is the current dean at the Princeton School of Public 
International Affairs and many, many awards and achievements 
throughout her distinguished career.
    I will say I am particularly pleased and I admire her 
advocacy for freedom of speech and diversity of points of view. 
I think that is an important principle. In 2017, Dr. Rouse 
wrote, and I quote, ``I strongly believe, however, that 
diversity cannot be viewed solely along demographic lines. 
While we do not always think of diversity in terms of thought 
or political orientation, we should. It is critical that in our 
classrooms, boardrooms, and halls of Government people who have 
different ideological viewpoints interact and work together to 
debate the important issues of our day.''
    I think that is a very constructive and much needed 
sentiment, especially on college campuses.
    Now, in the spirit of that quote, I want to recognize that 
I think I am going to disagree with Dr. Rouse far more often 
than I agree with respect to individual policy prescriptions. 
But I think she is someone that I can work with. I hope that if 
she is confirmed, she will bring a thoughtful, reasoned 
perspective and, in particular, a willingness to underscore 
that most policies have intended and unintended consequences. 
There are costs as well as benefits, and the entirety of the 
likely outcome should be evaluated.
    Congresswoman Fudge, I want to thank you for your long 
career in public service and your commitment to community. I 
appreciated and enjoyed our conversation on Tuesday. But in 
light of President Biden's repeated calls for unity and pledges 
to keep ad hominem personal attacks out of political discourse, 
I do think it is important we look at some of your past 
rhetoric, just as we should for all nominees before this 
Committee, to understand whether your rhetoric matches 
President Biden's call for ``bringing Americans together.''
    I will say I am particularly troubled by a number of 
statements that you have made, Representative Fudge, attacking 
and disparaging the integrity and motives of Republican 
officials with whom you have policy disagreements. A few short 
months ago, in September of 2020, you slammed Senate Republican 
efforts to fill the late Justice Ginsburg's seat, and you said, 
and I quote, ``Those who are bent on choosing her successor 
have no decency, they have no honor, they have no integrity.'' 
And you went to say, and I quote, ``They are a disgrace to this 
Nation.''
    So, Congresswoman, it is one thing to have strongly held 
views and disagreements, but I am troubled by this and several 
other statements, because in my mind they raise questions about 
your willingness and ability to work with Republicans if this 
is your opinion of Republicans.
    Now, one such category of areas where we need to be able to 
work together is how you as HUD Secretary will implement 
housing policies that affect millions of Americans. I hope to 
learn this morning more about how you will address HUD's 
regulations on affirmatively furthering fair housing, or AFFH. 
I hope you will avoid returning to the costly Obama era rule 
that forced cities to hire expensive consultants and complete 
lengthy plans that could stretch as long as 800 pages. In my 
view, now is not the time to impose new, unfunded mandates on 
these communities which will inevitably drain resources that 
could be used to support affordable housing and other 
priorities.
    I also believe that it is local communities that should be 
in the driver's seat making decisions for their communities 
rather than Washington. I also want to learn how you will 
address HUD's disparate impact regulations. Under the Obama era 
disparate impact rule, it seemed that often defendants were 
guilty until proven innocent, and this turned some housing 
providers away from providing affordable housing because of the 
risk of protracted litigation.
    I hope that any new rule that comes from HUD allows claims 
of discrimination to proceed when they are legitimate and frees 
housing providers to focus on their mission. It is also 
important that any such new rule be consistent with the Supreme 
Court decision in Inclusive Communities.
    Finally, let me just make clear how I think about an 
important issue that we are going to be wrestling with in 
Congress--and it is the jurisdiction of this Committee--and 
that is the question of whether there should be a longer 
eviction moratorium in light of and in the context of the 
assistance that has already been provided.
    As a brief reminder, last year we were in a full-blown 
financial crisis, a full-blown economic crisis, and we 
appropriated several trillion--everybody on this Committee 
voted in favor, everyone, I think, in the Senate, voted in 
favor of several trillion dollars to replace lost income for 
millions of individuals and businesses. In March, Congress 
authorized literally hundreds of billions of dollars in direct 
assistance to individuals in the form of stimulus checks, 
increased food stamps, extending unemployment eligibility, 
enhanced unemployment benefits. We all voted for that. And just 
last month, we did it all over again. Signs are now pointing 
toward a robust recovery that is underway. It is not complete, 
but it is underway. The economy grew at 33 percent in the third 
quarter. Household balance sheets are extremely strong, the 
personal savings rate it at an all-time record high, and 
unemployment has dramatically improved from a peak of almost 15 
percent to below 7 percent now.
    Just a few weeks ago, we passed another $900 billion bill, 
and included in that, Congress made $25 billion available 
exclusively for emergency rental assistance, and that money has 
not yet been fully distributed yet. And now we are being told 
that we need to do even more right away. My view is if after 
all of this historic spending there are people who have fallen 
through the cracks, people who have not gotten the assistance 
they need, then by all means let us have a conversation about 
those folks who are in those circumstances. But I think 
anything we do now should be narrowly targeted to the people 
who actually need the help rather than universal spending 
programs that inevitably will spend a huge amount of money on 
people who never experienced any economic hardship.
    I look forward to the testimony of each of our witnesses, 
and at this time I recognize Senator Brown for his opening 
statement.

           OPENING STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman. It is an honor to 
be here and it is a thrill to be here with my friend 
Congresswoman Marcia Fudge. And, Dr. Rouse, thank you for 
joining us, too. Dr. Rouse and I have talked numerous times 
but, as is the case with so many, now have not yet talked face 
to face, and I look forward to that.
    Thank you, Mr. Chairman, for your words about the work on 
this Committee. I would echo your comments about Mike Crapo, 
working with him on a number of issues. While I, of course, 
disagree with him on most major issues, we were able to work 
together in this Committee and did make a number of good things 
happen. So thank you, and our discussions and relationship 
during this transition, the work that you and I did, Mr. 
Chairman, on the CARES Act that essentially kept 12 million 
people out of poverty until the unemployment benefits and 
others began to fall away in the summer--and we should have 
moved faster. That was a point of disagreement, obviously, with 
the Chairman and me, but working together on that made a huge 
difference. So thank you, and we will continue that in our new 
relationship in the next couple of years.
    We consider the nominations today of two distinguished 
public servants, my Congresswoman, Marcia Fudge--Connie and I 
live in the city of Cleveland in her district--to lead the 
Department of Housing and Urban Development, and Dr. Cecilia 
Rouse to lead the Council of Economic Advisers.
    Most of us have met with them, remotely in most cases. We 
are impressed with their knowledge, we are impressed with their 
commitment, and we are impressed with their passion to serve, 
especially during the current public health and economic 
crisis. Thank you, Congresswoman Fudge and Dr. Rouse, for that.
    Our economy is at a crossroads. COVID-19 infections are up. 
New unemployment claims continue to rise. Millions of families 
are behind on their bills--on rent, on utilities, on mortgage 
payments.
    The Chairman is right that there was good economic growth 
in the third quarter, but the fourth quarter does not look so 
good. This recovery is clearly off track. Much more needs to be 
done. The new Secretary of the Treasury--former Chair of the 
Federal Reserve--and the sitting Chair of the Federal Reserve, 
who was known, not particularly now, but known as a Republican 
when he was nominated, both believe that we need to do more 
and, pardon the cliche, not put our foot on the brake.
    We face a choice: Will we finally marshal all of our 
country's vast resources and talent to meet this moment? Will 
we help the families that desperately need it? There are so 
many of them in every one of our States. Will we help our 
struggling small businesses survive? Will we work together to 
get Americans vaccinated, back to school, back to work, and 
back to seeing their grandparents and grandchildren?
    Or will we sit back and watch as millions of Americans face 
the ever-growing threat of eviction in the middle of a 
pandemic, in the middle of winter, as people drain meager 
savings accounts or head to payday lenders, as job losses 
become permanent, and as racial and economic inequality get 
worse?
    President Biden nominated Congresswoman Fudge and Dr. Rouse 
to positions that will be essential to determining which path 
we take, during this pandemic and in the years ahead.
    I can think of no one better to lead us out of this 
pandemic and into the future than the two women before us 
today.
    After a year when Black Americans have endured so many 
painful reminders of the yawning gap between the promise of our 
founding ideals and our failure to make that promise real for 
everyone, two Black women will take leading roles in our 
economic recovery.
    This matters on so many levels. It matters for our future 
that little girls, including Black and Brown girls, see 
themselves in our leaders, from the Vice President to our two 
economic leaders sitting in front of this Committee.
    It matters because of the perspectives and the life 
experiences these two women--these two Black women--bring to 
these jobs.
    They both have ties to Ohio: one a daughter of Cleveland--I 
would add her mother is sitting with her; Marcia is 
broadcasting, or whatever verb we use, from Cuyahoga Community 
College with her family behind her. She will, of course, get 
the honor of introducing her, but I have seen her mother, an 
activist herself, who brought up Marcia to be the activist. I 
have seen her around the community. Marcia will, of course, 
introduce all of them in a moment. The other, Dr. Rouse, with 
roots deep into the Mahoning Valley and Youngstown, Ohio.
    Congresswoman Fudge and Dr. Rouse bring a real 
understanding of the people who make this country work--all 
people who make this country work--to these jobs.
    If confirmed, Congresswoman Fudge will lead an agency that 
supports families and communities, that provides housing and 
safety to people experiencing homelessness from this pandemic--
we were just talking offline at the beginning about how 
important this is, especially for homeless veterans. It will 
help communities rebuild.
    Today HUD is grappling with a housing market where millions 
of families find it harder and harder to afford a decent home. 
The cost of housing is up, wages are flat, and so many workers 
have trouble making rent every month without crippling stress, 
or they turn to predatory loans. And the dream of home 
ownership is increasingly out of reach and, with increasing 
vigor, racial divides.
    None of this started with COVID-19. The affordable housing 
crisis is the product of decades of conscious policy 
decisions--by both Government and corporations. This pandemic 
has exposed what millions of families in this country already 
knew: that too many people are struggling to get by.
    Before the United States had our first case of COVID-19, 
before that, a quarter of all renters in this country were 
already paying more than half their income for housing. The 
Black home ownership rate was nearly as low as it was in 1968 
when housing discrimination was legal, and when our colleague 
Senator Romney's father was appointed Secretary, was nominated 
Secretary of HUD. HUD should play an essential role in fixing 
that--in expanding opportunity for every Zip code, and allowing 
more families to have the peace of mind and the economic 
security of a safe home they can afford.
    Congresswoman Fudge will work to help protect our kids from 
lead poisoning--still a problem in Cleveland and in Appalachia, 
Ohio--to restore the promise of fair housing, and to give 
communities the help and resources they need.
    All of this is a tall order. It is one she is poised to 
meet. She brings to the job the unique and critical experiences 
of serving as mayor for the kind of community that is either 
overlooked or outright preyed upon by Wall Street and big 
investors.
    We cannot write off entire swaths of the country--whether 
it is a coal town or a historic industrial city, whether it is 
farm country or whether it is an urban neighborhood. This 
champion of Cleveland understands that.
    The Council of Economic Advisers will also play an integral 
role both in helping our economy recover and in building a 
better system out of this pandemic. Dr. Rouse is exactly who we 
need at the helm. If confirmed, she will help direct our 
Nation's economic policy to put Americans back to work, 
fighting for better jobs with higher wages.
    Millions of Americans are still out of work. Those job 
losses have disproportionately fallen on low-income workers, 
Black and Brown workers, and women. At the same time, essential 
workers are risking their health to go to work. Corporations 
still refuse to pay so many of them a living wage.
    It is all part of the corporate business model that treats 
American workers as expendable instead of essential, as we call 
them, to this country's success. For decades, workers' wages 
have remained stagnant while CEO pay has skyrocketed.
    ``Building Back Better'' means taking on that system and 
creating an economy with a growing, thriving middle class.
    It will not be the first time Dr. Rouse has helped us 
weather a crisis. She served on the Council of Economic 
Advisers a dozen years ago, during the Great Recession.
    Dr. Rouse has spent her career focusing on workers and 
ensuring that this economy works for everyone. Her experience 
and leadership will guide this Administration and Congress in 
formulating the policies that help revive our economy so that 
it works for all Americans.
    And Dr. Rouse and Congresswoman Fudge will look at how we 
can protect families from climate change while seizing 
opportunities to create new jobs, to advance environmental 
justice, and to grow new industries. Making our homes and 
communities more energy efficient is not just necessary for our 
future; it is the kind of investment that will put people back 
to work at jobs that cannot be outsourced.
    We face great challenges. These are extraordinary times.
    I look forward to hearing how each of you will help chart 
the course out of this pandemic and build a brighter future in 
the years ahead.
    Mr. Chair, I ask unanimous consent to submit a number of 
letters to the record in support of these two nominees.
    Senator Toomey. Without objection.
    Senator Brown. Thank you, Mr. Chairman.
    Senator Toomey. Thank you.
    So at this time, our colleagues from Ohio and New Jersey 
have indicated they would like to introduce the nominees from 
their home States. Senator Brown, as the senior Senator from 
Ohio, did you have anything you wanted to add by way of 
introduction to Congresswoman Fudge?

           STATEMENT OF SENATOR SHERROD BROWN OF OHIO

    Senator Brown. Yes, just a couple of words. Then I will 
turn to my colleague Senator Portman for sure.
    I have said much about Marcia already. I mentioned her 
mother here, and she is calling in. She is with us from our 
great community college, I believe the downtown campus, 
although I do not know which campus she is on, of Tri-C. She is 
a proud daughter of Ohio. She was born in Cleveland. She grew 
up in our State. She graduated from the Ohio State University 
in Cleveland, Marshall College of Law, a long and distinguished 
career in public service. She was in the Cuyahoga County 
Prosecutor's Office, chief of staff to our trailblazing friend 
Stephanie Tubbs Jones, mayor of Warrensville Heights. I 
remember still the long meeting I had in her office back in, I 
believe, 2005. She served as national president of the Delta 
Sigma Theta sorority. Senator Portman and I have been to a 
number of Delta reunions with the redcoats in the basement of 
Rayburn. Thank you for that.
    She has been a leader in Congress. As past Chair of the 
Congressional Black Caucus, we know her outspokenness on civil 
rights, on women's rights, on human rights. She saw up close 
how lenders preyed on families. Everyone in this Committee has 
heard me talk about my Zip code, 44105, more foreclosures there 
in the first half of 2007 than anywhere in the country. She was 
serving as mayor then, probably 7 or 8 miles from there in 
Warrensville Heights. She represents my Zip code and those 
communities in the Congress now. She has dedicated her career 
fighting for these families and the communities they live in. I 
am excited to work with her as the future Chair of the Banking 
and Housing
    Committee on housing issues.
    It is my pleasure to introduce Marcia Fudge and turn it to 
my friend Senator Portman.
    Senator Toomey. Senator Portman, you are recognized to make 
your comments.

            STATEMENT OF SENATOR ROB PORTMAN OF OHIO

    Senator Portman. Thank you, Chairman Toomey and Chairman-
to-be Brown and Senator Crapo and others who might be here from 
the Committee. I appreciate the opportunity to introduce a 
friend of mine. Before I do, I want to tell her that I think it 
is great she is at an amazing community college, Tri-C. I hope 
Dr. Johnson is taking good care of you. And I understand that 
Mrs. Miriam Safford is with you, who is a distinguished public 
servant in her own way, although not in elected office, and 
happens to be the 89-year-old mother of yours. Is that correct? 
Yes, well, congratulations to you and to your family for this 
nomination.
    I am here just to say that I am proud that you are choosing 
to step up. You are a friend of mine. We have worked together. 
You do have a distinguished career, and you have worked on 
housing policy issues throughout your entire public policy 
career. You graduated from Ohio State, earned a law degree from 
Cleveland State. You were Cuyahoga County prosecutor, assistant 
prosecutor. You were the first African-American and first 
female mayor of Warrensville Heights, and there you worked on 
housing issues. I am told that affordable housing was one of 
your policy objectives there, and you were successful in 
expanding that.
    Since being elected to the House of Representatives in 
2008, succeeding another friend of mine who was, you know, a 
very successful Member of Congress who was able to work on both 
sides of the aisle, Stephanie Tubbs Jones, you have gone on to 
serve the people of Cleveland in the 11th District with a 
substantial and impressive work ethic, as I have seen certainly 
compassion for your constituents, many of whom live in 
communities where there is not good access to housing or jobs 
and where poverty is an issue.
    My experience and that of respected members of the 
Cleveland community who I know well is that you have worked 
collaboratively to tackle these challenges, working across 
party lines, including even with your Republican Senator now 
and again and with the business community, to help your 
constituents.
    Of course, you also chaired the Congressional Black Caucus, 
and they made you Chair because they recognized your leadership 
capabilities.
    In our time in Congress together, we have worked on a 
number of things that are bicameral and bipartisan, including 
teaming up to increase college access for low-income students 
through our Go to High School, Go to College Act, which 
incentivizes students to earn college credits in high school 
through the Pell grant program.
    In 2014, after a HUD rule that I thought was a bureaucratic 
rule that did not make much sense, cutoff some Cleveland area 
families from critical housing and social services, your office 
and my office and you and I worked together to ensure that HUD 
worked with Cuyahoga County, and with City Mission in 
particular in Cleveland, so that struggling residents could 
continue to have access to those vital services. And we were 
successful in working with HUD on that, so I know you have had 
experiences working with the HUD bureaucracy.
    During this health care and economic crisis, she has 
continued to be a leader in fighting for housing security by 
cosponsoring amendments to the bipartisan CARES Act that 
ensured those affected by the pandemic were not unfairly 
evicted from their homes or foreclosed on due to missed rent or 
mortgage payments.
    Just as important as her experience, in my view, is who she 
is as a person. I do not always agree with Marcia on policy; 
she certainly does not always agree with me. But I can speak to 
her integrity, her commitment to justice, and the strength of 
her character. I think she has got a public servant's heart. I 
think she is in it for the right reasons. And, again, I am 
encouraged that she is willing to step up to take on this new 
responsibility, which is not always easy in these times.
    As head of the Department of Housing and Urban Development, 
she will have an important job of leading efforts to ensure 
affordable quality housing is within reach of all Americans. 
This is something we all hope for. It is critical as our Nation 
continues to face the housing crisis, compounded by the health 
care and economic crises caused by COVID-19.
    I noticed this morning there was a new report on economic 
growth. Fourth quarter growth was substantial, over 4 percent. 
That does not mean that housing became any more affordable. In 
a way, I think, as we begin to come out of this pandemic, we 
are going to get back, as we start to grow the economy again, 
which all of us hope for and I believe will happen, into the 
same issue we have been in, which is a lack of affordable 
housing in my State of Ohio and around the country. So I know 
Representative Fudge shares that concern and will be focused on 
that.
    I know she also shares this Committee's commitment to 
addressing the eviction crisis we have got right now and how do 
you deal with that in the middle of a pandemic. It is a tough 
issue, and, you know, you want to be sure that landlords, 
particularly our small landlords around the State of Ohio and 
elsewhere, are not left without the resources that they need to 
be able to be successful, but also we need to be sure we are 
dealing with the reality of people not being able to pay rent 
in some cases and avoiding those evictions, which cause so much 
pain and inefficiency in our system.
    So, Mr. Chairman, thank you for allowing me the privilege 
of introducing Representative Fudge. I look forward to hearing 
from her this morning and then the opportunity to vote for her 
on the U.S. Senate floor.
    Thank you.
    Senator Toomey. Thank you, Senator Portman.
    Senator Menendez, you are recognized to introduce Dean 
Rouse.

            STATEMENT OF SENATOR ROBERT MENENDEZ OF
                           NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman, and as a 
senior Member of the Committee, I look forward to working with 
you and incoming Chairman Brown on an important set of agendas 
that I know the Committee will be pursuing.
    Today it is a sincere honor to introduce Dr. Cecilia Elena 
Rouse as President Biden's nominee for the Chair of the 
Presidential Council of Economic Advisers.
    Now, this is not the first time I have introduced Dr. Rouse 
to this Committee. I had the same honor back in 2009 when 
President Bush nominated her to the Council of Economic 
Advisers during the height of the Great Recession. And as a 
member of the Council, Dr. Rouse helped devise strategies to 
strengthen our labor market and steer our country out of what 
at the time was known as and we realized was the worst economic 
crisis since the Great Depression.
    Now she is once again being called on by a President to 
serve our Nation in an hour of even greater peril and 
uncertainty, this time as Chair. When she is confirmed, Dr. 
Rouse will be the first African-American woman to chair the 
President's Council of Economic Advisers.
    Yet, aside from the historic nature of her nomination, Dr. 
Rouse's experience in both the Obama and Clinton 
administrations, as well as her academic expertise, make her 
eminently qualified for this role.
    As you pointed out, she currently serves as the dean of the 
Princeton School of Public and International Affairs at 
Princeton University, one of New Jersey's most prestigious and 
nationally renowned institutions. Her primary research and 
teaching interests are in labor economics, with a particular 
focus on the economics of education. Indeed, Dr. Rouse has 
often said that she first became interested in economics as a 
tool to expand opportunity and create positive social change.
    She has studied the economic benefits of community college 
attendance, the effect of financial aid on college 
matriculation, and the impact of student loan debt on graduates 
entering the job market. She is also a strong advocate for 
reducing racial wealth inequality, an important priority as we 
grapple with a pandemic that has disproportionately devastated 
minority communities.
    Dr. Rouse is also a senior editor of The Future of Children 
and has served as an editor of the Journal of Labor Economics. 
Additionally, she is the founding director of the Princeton 
University Education Research Section and former director of 
the Industrial Relations Section.
    I believe Dr. Rouse has the right experience and insight to 
help chart a path for our country out of this crisis and toward 
a brighter, more equitable, and more prosperous future for all 
Americans. And I certainly will be urging my colleagues, both 
on the Committee and in the Senate, to support her swift 
confirmation as Chair of the Council of Economic Advisers, and 
I look forward to working with her to get our economy back on 
track and bring much needed change and equity to our Nation.
    Thank you, Mr. Chairman.
    Senator Toomey. Thank you, Senator Menendez.
    Senator Booker, you are recognized to introduce Dean Rouse.

       STATEMENT OF SENATOR CORY A. BOOKER OF NEW JERSEY

    Senator Booker. Chairman, I am grateful to you and Senator 
Brown as well for your leadership and for allowing me these 
moments of introduction for Dr. Rouse.
    If I may tread upon your grace, it is very hard for me to 
see Martha Fudge sitting before you without putting on the 
record just a touch of truth about her. I have been in the 
Senate for 7 years, and it is not an overstatement to say that 
one of my most invaluable colleagues and friends in that 7 
years is Martha Fudge. She is an extraordinary woman who has a 
deep kindness in her soul, and many of us who know her, she has 
been a big sister, she has been a mentor, and that is most 
certainly true in my life. I know she, like me, is a former 
mayor. As a mayor, you get the skill of finding ways to bring 
people together to create common ground. I saw those skills on 
display when she was the Chairwoman of the Congressional Black 
Caucus, which is a very diverse group, but also her ability 
from that position to work across the aisle, find common 
ground, and get things done.
    And so I know this Committee will deal a lot with her 
should she be confirmed, and I think as was said by Senator 
Portman, you will find in her a goodness, a decency, and, God 
willing, a friendship that I hope this Committee on both sides 
of the aisle will recognize that it could be for you, as it has 
been for me, one of the most valuable relationships I have.
    The only warning I will give about her is do not try to 
serve her vegan food like I did. That is the only time I have 
seen her have harsh language to me.
    And now I would like to have the honor of just saying 
quickly some remarks about Dr. Rouse, who is President Biden's 
nominee for the Chair of the Council of Economic Advisers. What 
a privilege it is to be able to affirm what has already been 
said by my senior Senator, Senator Menendez. If confirmed, Dr. 
Rouse will be tasked with an enormous challenge of helping to 
craft and guide our Nation's economic policy at a time of 
unprecedented economic crisis.
    Across this country, this Committee knows, tens of millions 
of Americans have lost their jobs. Millions of our countrymen 
and women in this wealthy Nation have been pushed into poverty, 
food insecurity, with women especially suffering and challenges 
being seen among people of color and women of color in 
particular. The impact of this economic crisis has been savage 
and unequal and has compounded a lot of the realities that were 
already grievous in our country--systemic inequality, historic 
disinvestment in Black and Brown communities like the one I 
live in.
    The Washington Post reported it most succinctly, and they 
said that the COVID-19 recession is the most unequal in modern 
U.S. history. The economic crisis and the resultant attendant 
health crisis created by this pandemic have made clear how 
interconnected the challenges are that we face. These crises 
have also made clear how necessary it is for bold action and 
bold leadership. We must have people with the kind of 
competency, qualifications, and commitment that Dr. Rouse has.
    If confirmed, I strongly believe that Dr. Rouse will offer 
the kind of leadership, vision, and action needed to enact an 
economic agenda that really prioritizes working families, that 
rebuilds our economy in an inclusive way, and addresses 
systemic barriers that have driven what is a real threat to our 
society as we know it, which is the wealth and economic 
inequalities that have grown worse over my lifetime. I do not 
just say this because Senator Menendez, as he noted, that Dr. 
Rouse is a proud New Jerseyan, dean of the School of Public and 
International Affairs at Princeton University; but Dr. Rouse is 
just renowned in her field. She is a well-known and celebrated 
labor economist, a leader in academia and in the study of the 
economic impact of diversity and inclusion, and knowing that 
these are elements that are not nice to talk about but actually 
add to the economic strength of organizations in our country, 
public and private alike.
    She is a public servant who has served as a member of the 
Council of Economic Advisers in the Obama-Biden administration 
and on the National Economic Council in the Clinton 
administration as Special Assistant to President Clinton. If 
confirmed, Dr. Rouse will serve as the first African-American 
and fourth woman to lead the Council of Economic Advisers since 
its establishment 74 years ago. If the Committee moves her 
forward, it will be historic in that sense. She will not just 
make history if confirmed, though. I am confident she will help 
to shape a future that is more resonant with our common values 
as a people, that she will be a force to making our Nation bend 
the arc of that moral universe more toward liberty and justice 
for all.
    I urge my colleagues to swiftly confirm Dr. Rouse's 
nomination. Thank you for this time.
    Senator Toomey. Thank you, Senator Booker.
    I will now swear in the nominees. Because of the remote 
format of today's hearing, I will swear in each nominee 
individually.
    Congresswoman Fudge, will you please rise and raise your 
right hand? Do you swear or affirm that the testimony that you 
are about to give is the truth, the whole truth, and nothing 
but the truth, so help you God?
    Ms. Fudge. I do.
    Senator Toomey. Do you agree to appear and testify before 
any duly constituted committee of the Senate? Congresswoman 
Fudge, can you hear me? We are having a little trouble with 
your audio.
    OK. Why don't we work on that technical challenge here, and 
I will move on and ask Dr. Rouse if you will please rise and 
raise your right hand. Dr. Rouse, do you swear or affirm that 
the testimony that you are about to give is the truth, the 
whole truth, and nothing but the truth, so help you God?
    Ms. Rouse. I do.
    Senator Toomey. And do you agree to appear and testify 
before any duly constituted committee of the Senate?
    Ms. Rouse. I do.
    Senator Toomey. You may sit down.
    Congresswoman Fudge, are you able to hear me? We cannot 
hear your audio. OK. So I was going to recognize you first, 
Congresswoman Fudge, but because we have this technical 
difficulty, I am going to go to Dr. Rouse for her opening 
statement, and then hopefully we will have gotten the problem 
solved in the meantime. But we are not able to hear you.
    Ms. Fudge. Can you hear me now, sir?
    Senator Toomey. Now I can hear you, yes. So I am sorry to 
impose on your again, but we could not hear your response to 
the second question in the oath. So if you do not mind please 
standing and raise your right hand again, the question is: Do 
you agree to appear and testify before any duly constituted 
committee of the Senate?
    Ms. Fudge. Yes, I do.
    Senator Toomey. Thank you very much. You may sit down.
    Each of your written statements will be made a part of the 
record in their entirety. Congresswoman Fudge, please proceed 
with your statement.

         STATEMENT OF MARCIA L. FUDGE, NOMINATED TO BE
           SECRETARY, DEPARTMENT OF HOUSING AND URBAN
                          DEVELOPMENT

    Ms. Fudge. Thank you very much, Mr. Chairman. If I may, Mr. 
Chairman, may I introduce my family that is with me today?
    Senator Toomey. Absolutely, you may.
    Ms. Fudge. Thank you. You have heard much about my mother 
today, but I am going to have her wave at you, if they could 
see her. And this is the rest, all of my family: my aunts, my 
stepfather, all of my cousins, and dear friends. So I just 
wanted you to be aware that we are all here together. I am 
very, very close to my family, and I am pleased that they could 
be with me today.
    And to my Senators, thank you for your kind words and 
certainly for your friendship.
    Mr. Chairman, Mr. Ranking Member, I thank President Biden 
for nominating me to serve as the 18th Secretary of Housing and 
Urban Development and will do everything possible to ensure 
that every American has a roof over their head.
    The housing issues our Nation faces are real, varied, and 
touch all of us. I am a strong believer in the Department's 
programs and its mission--especially with regard to serving 
those who face the greatest need.
    Senators, I have dedicated my entire life to public service 
and to working to help low-income families, seniors, and 
communities. I believe I am up to the challenge that is before 
me.
    As mayor of Warrensville Heights, Ohio, I saw firsthand the 
need for economic development and affordable housing. We 
improved the city's tax base and expanded affordable housing 
opportunities. As a Member of Congress, I tackled the unique 
challenges of my district, working with my delegation and 
across the aisle.
    Our housing issues do not fit into a cookie-cutter mold, 
and I know that the same is true in each of your States. We 
need policies and programs that can adapt to meet your unique 
housing challenges, and I would very much like to work with 
each of you to find the right answers for your States.
    It bears mentioning, particularly in this moment of crisis, 
that HUD--perhaps more than any other department--exists to 
serve the most vulnerable people in America. That mandate 
matters a great deal to me. It is consistent with my own 
values, and it is precisely what has always motivated me to 
service.
    It is estimated that, on any given night in 2019, more than 
500,000 people experienced homelessness in America. That is a 
devastating statistic--even before you consider the reality of 
what COVID-19 has done to exacerbate this crisis.
    According to one study, 21 million Americans currently pay 
more than 30 percent of their income on housing. Because of 
lost income and unemployment due to COVID, one in five renters 
and one in ten homeowners with a mortgage are behind on their 
housing payments.
    Native housing is also in a crisis, with far too many 
families living in substandard and crowded housing conditions 
on reservations.
    Although Congress provided $25 billion in rental assistance 
and the CDC extended the eviction moratorium, this is not 
enough at a time when tens of millions of Americans are behind 
on rent, almost 3 million homeowners are currently in 
forbearance, and another 800,000 borrowers are delinquent.
    Much like COVID-19, the housing crisis is not isolated by 
geography. It is the daily reality for tens of millions of our 
fellow Americans--people in blue States and red States, in 
cities and small towns.
    My first priority as Secretary would be to alleviate that 
crisis and get people the support they need to come back from 
the edge.
    We need to expand resources for HUD's programs to people 
who are eligible. Today, according to a 2017 study, only one 
out of five eligible households receive housing assistance.
    We need to deliver on the Administration's commitments on 
improving the quality, safety, and accessibility of affordable 
housing and building 1.5 million new affordable homes.
    We need to make the dream of home ownership a reality--and 
the security and wealth creation that comes with it. It needs 
to be a reality for all Americans. That will require us to end 
discriminatory practices in the housing market and ensure that 
our fair housing rules are doing what they are intended to do: 
opening the door for families, especially families of color who 
have been systematically kept out in the cold across 
generations, to buy homes and punch their ticket to the middle 
class.
    There are so many issues we need to come together to 
address--everything from bringing capital back to disinvested 
communities, to increasing energy efficiency in housing, to 
dealing with the dangers of lead-based paint, to taking on our 
crisis of homelessness with compassion and resolve.
    These are only some of the challenges, and I know that many 
of you have additional priorities as well. These problems are 
urgent, but they are not beyond our capacity to solve.
    The only way we will meet them is by working together. And 
to that end, I pledge this: If I have the honor of being 
confirmed, I will be accessible to you, I will listen to you, 
and I will be a partner to you to solve the housing challenges 
our constituents are facing back home.
    I expect you to hold me accountable. I welcome the 
accountability. And I will always strive to be a transparent 
and good-faith partner as we work together to do the vitally 
important work we are all here to do: helping families in need.
    I thank you, and I yield back.
    Senator Toomey. Thank you, Congresswoman Fudge.
    Dean Rouse, please proceed.

 STATEMENT OF CECILIA E. ROUSE, NOMINATED TO BE CHAIR, COUNCIL 
                      OF ECONOMIC ADVISERS

    Ms. Rouse. Thank you, and thank you, Senator Menendez and 
Senator Booker, for the generous introductions.
    Chair Toomey, incoming Chairman Brown, and Members of the 
Committee, it is an honor to appear before you today. The last 
time I was before this Committee was in 2009 for my 
confirmation hearing to become a member of President Obama's 
Council of Economic Advisers. I was accompanied by many members 
of my family. This is a very different time, and while they are 
not here today, they are with me in spirit. I thank them for 
the love and support they have provided in helping me on the 
path that has led me before you today.
    That path began in the early 1980s during what was--at the 
time--one of the worst spikes in unemployment our country had 
experienced since the 1930s.
    I was a freshman in college, taking my first economics 
class. I was there because my wise mother had told me to take 
an econ class. But what really piqued my interest was 
unemployment, when I could see how classroom material could be 
applied to the world outside and the millions who were 
experiencing in real time the effects of a struggling economy.
    I was drawn to the discipline because I wanted to know why 
this was happening. Why had jobs disappeared? And what could be 
done to bring them back? I focused my work on the labor market, 
and in particular on the impact of education on people's job 
prospects, ways to tear down barriers to job growth, and 
policies to make it possible for more people to achieve long-
lasting economic security. Since then, I have had the honor of 
working on these important issues in academia and the public 
sector.
    Today our country is living through the worst economic 
crisis since the Great Depression. Millions of families have 
had their lives turned upside down, the economic security they 
have worked so hard to build eroded almost overnight by the 
economic impact of the pandemic. Far too many have slipped 
through our frayed safety net into hardship and hopelessness. 
And structural inequities that have always existed within our 
economy have not just been exposed, but exacerbated, their 
impact more devastating than ever before.
    We must take action to shepherd our Nation's economy back 
onto solid footing. But as deeply distressing as this pandemic 
and economic fallout have been, it is also an opportunity to 
rebuild the economy better than it was before--making it work 
for everyone by increasing the availability of fulfilling jobs 
and leaving no one vulnerable to falling through the cracks.
    President Biden and Vice President Harris have made these 
the core values of their Build Back Better agenda. If 
confirmed, my job will be to provide them with objective 
economic guidance--recommendations rooted in fact and 
evidence--to help them achieve those important goals.
    As important as it is for the CEA to interpret and 
translate data and academic research, it is also vital that we 
utilize the right data. Too often economists focus on average 
outcomes, instead of examining a range of outcomes. As a 
result, our analyses tell us about average economic growth and 
the middle of the distribution; but as our economy grows more 
and more unequal, that analysis fails to capture the experience 
of the many people who are left behind, particularly people of 
color. Therefore, one of my priorities as Chair will be to try 
to understand how policies will impact all in our country as we 
strive to ensure the economy works for everyone.
    Equally important is having analysis conducted by 
economists who specialize in a variety of fields. If confirmed, 
I will staff the CEA with a well-rounded team ready to address 
the incredible breadth of challenges we face.
    To close, I am honored to be nominated for this position. 
It would allow me to work on issues close to my heart and so 
critical in this current crisis. A good-paying, fulfilling job 
has always been the key to building economic security. Today we 
are seeing the immense pain caused when our economy fails to 
fulfill that promise. But I believe there is much we can do to 
strengthen the position of everyone across this incredible 
country of ours.
    If confirmed I will work closely with you on these 
important priorities. I will do so regardless of your party 
affiliation, your approach to various policies, or your opinion 
of the Administration's efforts. Economists are trained to 
gather and analyze information and consider innovative 
perspectives. That is how I will approach this job, and my door 
will always be open.
    And with that, I am happy to take your questions.
    Senator Toomey. Thank you, Dr. Rouse.
    I will now recognize myself for 5 minutes of questioning 
and remind my colleagues that we have a lot of Members on this 
Committee and we really need to try to stick to this clock.
    Congresswoman Fudge, to go back to your quote from 
September of 2020, you referred to Republicans who wanted to 
fill Justice Ginsburg's seat, which is to say every single 
Republican Senator, as ``having no decency, no honor, no 
integrity, and as a disgrace to the Nation.'' Those are quotes. 
Do you stand by that statement?
    Ms. Fudge. Let me first say, Senator, that I think there 
are more to those quotes, but let me just suggest that I have 
always been able to work across the aisle. I have a reputation 
that shows my bipartisanship. Yes, I do listen to my 
constituents, and sometimes I am a little passionate about 
things. Is my tone pitch perfect all the time? It is not. But I 
do know this: that I have the ability and the capacity to work 
with Republicans. And I intend to do just that, and that is my 
commitment to you.
    Senator Toomey. In June of last year, while discussing 
Republican policing reform efforts, you said in part that if 
Republicans ``want to save face and let this country know that 
they care even a little bit about people of color, which I do 
not believe they do, but if they want to try, I want to 
listen.'' Do you really believe that Republicans do not care 
even a little bit about people of color?
    Ms. Fudge. I think the latter part of my statement is my 
true feeling. If they do, I do want to listen. I listen. I have 
always listened. I am one of the most bipartisan Members in the 
House of Representatives, and I think that if you would check 
that, my record would reflect that.
    Senator Toomey. Let me ask you about the issue of deploying 
the APA and complying with it. Congresswoman Fudge, President 
Biden, as you probably know, has directed the HUD Secretary to 
examine the effects of the HUD's 2020 disparate impact rule. If 
you are confirmed and you carry out that examination, if you 
conclude that revisions to the rule are, in fact, needed, will 
you comply with the APA and go through a robust notice-and-
comment rulemaking rather than merely trying to revert 
automatically back to the previous rule?
    Ms. Fudge. That is a great question, Senator. I am going to 
follow the law and follow the rules. You do not ever have to 
worry about that. That is my commitment to you.
    Senator Toomey. So there is some flexibility within the 
APA, as you probably know. What I am specifically interested in 
is whether you are willing to go through the notice-and-comment 
period so that you can get as much input as possible and make 
the most informed judgment going forward. Is that something you 
are willing to do?
    Ms. Fudge. It is something I am certainly willing to 
consider, sir, yes.
    Senator Toomey. OK. And I assume that you would ensure that 
any revisions that you would make would be consistent with the 
Supreme Court ruling in the Inclusive Communities decision?
    Ms. Fudge. No question about it. I, again, will support the 
law. But if I may, Senator?
    Senator Toomey. Yes.
    Ms. Fudge. I listened to your opening statement, and you 
were talking about unintended consequences. I kind of look at 
the disparate impact rule the same way. You know, we do things 
oftentimes not intending to be discriminatory, but our effect 
is discriminatory.
    Senator Toomey. I understand that, and that is worthy of a 
whole lengthy conversation. But in the interest of keeping to 
my 5-minute limit, I just want to touch on another issue, if I 
could, and that is the Mutual Mortgage Insurance Fund. Again, 
this is a fund that protects taxpayers from losses. If you 
decide to make changes, specifically any lowering of the 
premiums for that fund, will you commit to making sure that you 
do that in a collaborative fashion with Members of Congress?
    Ms. Fudge. You have my commitment, not only will--if I am 
fortunate enough to be confirmed, I will talk to the staff at 
HUD. We will figure out what the status is right now and come 
back to you to have discussions about where we should go from 
there. You have my commitment.
    Senator Toomey. Thank you.
    Dr. Rouse, I appreciated our conversation the other day. I 
enjoyed the discussion. I just want to stress--well, maybe I 
would just ask, is it your view that when the Government 
mandates a certain economic policy, it is often the case that 
there are unintended consequences and costs to policies that 
might also have benefits?
    Ms. Rouse. Well, thank you, Senator. What is important is 
that when the Government imposes mandates, that it does so 
completely understanding the potential benefits of such 
mandates as well as the costs, and to undertake those mandates 
where the benefits would outweigh the costs. So if there is 
[inaudible], the most important thing is to understand both 
costs and benefits.
    Senator Toomey. Thank you.
    Senator Brown.
    Senator Brown. First of all, I think the fact that Senator 
Portman called Congresswoman Fudge and offered to cointroduce 
her or introduce her tells you a lot about her bipartisan work. 
And, you know, we all are outspoken about our views. Marcia is, 
I am, Pat Toomey is, Rob Portman is. And I have just always 
found Congresswoman Fudge to work with me, to work with most of 
our House delegation in Ohio. It overwhelmingly is Republican, 
and she works with them, and she represents her constituents 
with fervor and passion through all of that.
    Let me start with Congresswoman Fudge. As you know, before 
this pandemic, as you pointed out, Dr. Rouse, borne out in both 
your testimonies, families in our country were struggling to 
make rent prior to the pandemic. There were nearly a million 
evictions every year prior to this. We know the pandemic, as 
you both have said, has pushed so many millions of families 
over the edge. That is one of the reasons I am so proud of what 
we did with the CARES Act, especially if we had kept it going, 
because we kept 12 million people out of poverty.
    Congresswoman Fudge, the emergency funds Congress voted to 
provide in December were just a downpayment. As President Biden 
and many of us in Congress have said, we have to do more to 
prevent waves of foreclosures and evictions to stop millions of 
people from taking a permanent financial hit because of the 
crisis. Just give us a short version of what you will do 
through HUD to ensure that families do not lose their homes?
    Ms. Fudge. Thank you so much, Senator. You know, one of the 
things we must do is stabilize the market. We cannot afford to 
have people, millions of people, evicted from their homes or 
their apartments, because the problem then just gets worse. It 
does not get better. And I understand that there are some who 
believe that we are doing more than we should, but I believe we 
are not doing enough.
    On any given day, we have 8 million people who need 
housing. So not only do we need to protect those who are 
currently in housing, but we need to ensure that those who are 
without housing get it.
    And so one of the things that we have to talk about is 
finding ways to expand our inventory of low- and moderate-
income housing. We have to keep people in public housing who 
are already there. We need to expand housing choice vouchers so 
that we can at least start to reduce the numbers of people who 
are paying exorbitant amounts of money for rent.
    We also need to find ways to assist people who want to 
build low-income and affordable housing, and we do that through 
many things. But, last, and most importantly, we want to be 
sure that FHA is available for people who want to take the next 
step. So that may be helping with downpayment assistance; it 
may mean reducing rent. Whatever it takes, we cannot afford to 
allow people in the midst of a pandemic to be put in the 
streets. I just believe that extraordinary times take 
extraordinary action, and we are in extraordinary times, 
Senator.
    Senator Brown. Thank you, Congresswoman. Let me ask you a 
quick up-or-down question. In the past 4 years, the Trump 
administration--I mean a yes-or-no question. The Trump 
administration tried to undo HUD's mission to enforce fair 
housing laws. You and I have talked about that a lot. Earlier 
this week, the President announced several Executive orders and 
plans to begin to reverse these policies and finally work to 
fulfill the promises of the Fair Housing Act.
    My question: If confirmed, will you commit to fully enforce 
fair housing laws?
    Ms. Fudge. Yes.
    Senator Brown. Good. Thank you.
    I will close with a statement both to Dr. Rouse and to 
Congresswoman Fudge. Cities like Cleveland still have far too 
many homes that expose children to dangerous lead paint. In 
2019, researchers found there were elementary schools in Marcia 
Fudge's and my hometown of Cleveland where more than a third of 
kindergartners had elevated lead levels in their blood, 5- and 
6-year-olds, disproportionately, of course, as we know, 
children of color. We start them out in life with such a 
disadvantage.
    Dr. Rouse, you are a researcher who studies education and 
its connection to work. You know the cost, both moral and 
economic, that occurs when our fellow citizens are unable to 
achieve their full potential, especially when it starts 
[inaudible]. We know how to keep kids safe from lead poisoning. 
We are seeing some promising steps in Cleveland and elsewhere. 
My colleague Senator Reed, the most senior Member of this 
Committee, has worked on this in his appropriations role also. 
We just have not had the public collective political will to do 
it.
    I hope that that is going to change. I look forward to 
working with both of you, Dr. Rouse and Congresswoman Fudge, to 
fully protect our kids from lead and other threats to their 
health. It is hard to imagine anything so important.
    Thank you, Mr. Chairman.
    Senator Toomey. Thank you, Senator Brown.
    Senator Scott.
    Senator Scott. Thank you, Mr. Chairman. To Congresswoman 
Fudge as well as Dr. Rouse, thank you for your willingness to 
serve our country, and I look forward to having a meaningful 
dialogue about some of the issues that will be very important 
to the Nation. And, frankly, Congresswoman Fudge, I have 
respect for you and appreciation for your willingness to serve. 
And I think you and I are philosophically disjointed on a 
number of issues, but your willingness to serve is strong.
    I do want to talk a little bit about some of the previous 
comments that you have made about the Republican Party as it 
relates to race that I think--I cannot say that your comments 
were taken out of context. I would simply say that I would love 
to have a longer conversation about how effective the 
Republican Party has been on meeting some of the needs of the 
most vulnerable people in this country, specifically 
minorities, over the last several years. I have certainly 
played a role in making sure that some of the priorities that 
impact our community have been brought to the surface, to the 
top, and have been prioritized by the Republican Party. And 
just to name a few, and then I am going to get to the questions 
that I have, highest level of funding for HBCUs in the history 
of this country; permanent funding for the first time in the 
history of the country; the lowest unemployment rate ever 
recorded prepandemic in the history of the country for African-
Americans, Hispanics, Asians; 60-year low for women as well; 
research on rare blood diseases to include sickle cell anemia; 
criminal justice reform that actually, frankly, made up for 
some of the challenges of President Biden's 1994 law; increases 
in the labor force participation rate. I believe in 2016 home 
ownership for African-Americans was around 41 percent; today it 
is around 46 percent. And that is even after the dip of the 
pandemic.
    Poverty at the lowest rate recorded since 1959; aid to 
Black farmers that I have worked on through heirs' property, 
focusing on heirs' property as a real issue. Coming from the 
South, I know and understand and appreciate the value of 
allowing African-American farmers to use heirs' property in a 
way to obtain a farm number so that they can participate fully 
in the USDA. It is really important. And, finally, opportunity 
zones that are having a positive, strong impact throughout this 
country, and, frankly, the TCJA certainly was passed on a 
partisan level only, but the opportunity zone legislation is 
legislation that was cosponsored by Cory Booker and House 
Members that are Democrats and Republicans.
    To that end, I hope and my question for you is can I count 
on you to take serious the opportunity to use opportunity zones 
as a way of meeting some of the challenging needs that we have 
from our housing stock around the country?
    Ms. Fudge. Thank you so much, Senator Scott. It is nice to 
see you, actually.
    Senator Scott. Yes, ma'am, thank you.
    Ms. Fudge. And it is my pleasure to have a conversation 
with you about what you have done as it relates to minority 
communities and communities that are hurting. It would indeed 
be something that I would like to discuss with you.
    As it relates to opportunity zones, I will take seriously, 
of course, opportunity zones. Certainly I would like, if 
confirmed, to get into the office and look at how many jobs 
have been created, how many sustainable jobs have been created, 
what the cost has been. I mean, I think that you have to be 
driven by data, and I will absolutely take it seriously. I know 
it is something important to you, and I would be happy to have 
those conversations with you going forward.
    Senator Scott. Thank you. I will note that in opportunity 
zones they are responsible for helping, even in Columbus, Ohio, 
50 incarcerated individuals in Columbus find housing, 95 units 
of workforce housing, 100 new jobs in Cleveland; in my State, 
Hampton County, a very poor rural community, 1,500 jobs in the 
community, only has 5,000 jobs brought to them by opportunity 
zones, and that continues throughout major cities, from 
Birmingham to Rock Hill, South Carolina, where we are using 
opportunity zones to really challenge the playing field for 
those folks who have been left out and who are desperate for 
housing.
    Speaking of being desperate for housing, about 22 million 
Americans live in manufactured housing throughout this country, 
one in five in South Carolina. The definition of ``manufactured 
housing'' is no longer the trailers that people have in mind. 
Manufactured housing has the diversity within its construct, 
and I would love to hear that you have an interest and perhaps 
even a passion for making sure that we continue to prioritize 
manufactured housing as one of the ways for us to lower the 
cost and make more homeowners--make home ownership more 
possible for more Americans. Have you done any homework on the 
manufactured housing? And I would love to hear your thoughts on 
using that to meet some of the needs that we have throughout 
the community.
    Ms. Fudge. Yes, I have as a matter of fact. Thank you for 
the question. I have done research. I have actually had 
conversations with those who build manufactured housing. I 
think it is an outstanding option. The cost is about $78,000 to 
$100,000 a home. It is affordable. It is something we can do 
rapidly. I am 100 percent supportive of looking more into how 
we incorporate manufactured housing.
    Senator Scott. Thank you, ma'am.
    Thank you, Chairman.
    Senator Toomey. Thank you, Senator Scott.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. And I want 
to welcome Congresswoman Fudge and Dr. Rouse to the hearing. 
Dr. Rouse, thank you for your service to Rhode Island as a 
member of the board of trustees of URI, so, go Rhody. And I 
want to say to the Congresswoman thank you for your great work 
in the Congress.
    We have all touched upon affordable housing, and sometimes 
we see it simply as the human cost, which is tremendous. But 
there is a definite economic cost, too, which should be an 
incentive to build more affordable housing.
    In Rhode Island, for example, 90 percent of our homeless 
individuals are on Medicaid, and their cost per annum is about 
$14,000. That is 80 percent more than the overall average 
Medicaid recipient. So when you address the affordable housing 
issue, I hope you will point out consistently the economic 
benefits of affordable housing as well as the human cost. Any 
comments, I would appreciate it, Congresswoman.
    Ms. Fudge. Yes, and thank you, Senator, for the 
conversation we have had to discuss some of the issues that I 
know are important to you.
    The economic costs are in the trillions. I mean, if you 
look at the data, the data shows that it is an economic 
deterrent to not have people in housing. When you look at the 
lost jobs, the lost income, and the lost development 
opportunities, it is more difficult for people to get to work, 
so we lose so much when we do not have decent, affordable 
public housing. And the cost of homelessness is just 
skyrocketing. It was bad before we ever addressed COVID. Now 
what we have found out is that the cost of care for homeless 
people is skyrocketing as a result of COVID, because homeless 
people tend to be sicker. Homeless people tend to contract the 
disease more often. Poorer people or people who live in public 
housing tend to contract the disease more often. And so it is a 
very costly proposition just physically as well as 
economically.
    Senator Reed. Thank you very much, Congresswoman, and let 
me associate myself also with Senator Brown's comments on lead. 
We have had the same problem in Rhode Island as you have had in 
Cleveland because we probably have about the same age of 
housing. I have worked very closely with Chairman Collins on 
the Appropriations Committee to get funding for lead. But one 
of the things I would just like to point out, as you recognized 
very clearly, with the pandemic more particularly low-income 
people are spending time crowded in a home which might have 
lead problems. So the problem is even more acute today because 
of the pandemic, and we have to apply the resources to that. I 
know you agree, but I just want to get that on the record.
    Ms. Fudge. Yes, thank you. I agree 100 percent.
    Senator Reed. Thank you.
    Again, Dr. Rouse, thank you for your help to Rhode Island. 
As I said before, go Rhody. Senator Toomey and I both have 
certain ties to the State, so we appreciate your help to the 
university.
    One issue I want to raise in my brief time remaining is 
automatic stabilizers for unemployment insurance. In Rhode 
Island, at the last recession, you noticed, because you were 
working in the Administration, that some States came out first 
so that the overall national picture looked pretty good, but 
Rhode Island and Nevada were going head to head every week as 
to who would have the highest unemployment rate at about 12 
percent.
    So as we go forward, I would hope you would consider 
automatic stabilizers so that certain parts of the country--and 
it is not one region, perhaps; it is based on lots of factors--
would not be left behind when the overall economy starts 
growing. Your comments, Doctor?
    Ms. Rouse. Thank you, Senator Reed, and, yes, go Rhody. So 
I think automatic stabilizers are an important tool in our 
toolkit as we think about how we deal with our economic 
slowdowns and help families and our economy recover. We already 
have them in terms of SNAP and Medicaid and taxes, and so, you 
know, they should be part of it.
    I think URI is a natural place for us to also have 
automatic stabilizers. Obviously, incorporating the differences 
across the country by geography would be an important part of 
any design. There are challenges there, but I do think that 
that is an important place for us [inaudible].
    Senator Reed. Well, thank you very much, both of you. Good 
luck. Thank you.
    Thank you, Mr. Chairman.
    Senator Toomey. Thank you, Senator Reed.
    I just want to remind Senators to please turn on your 
camera if you are present and intending to speak so that we 
know that you are there. And I think next up is Senator Cotton.
    Senator Cotton. Thank you, Mr. Chairman.
    Congresswoman Fudge, President Biden and his senior 
advisers have said that one of his top housing priorities is 
racial equity, not racial equality. In fact, earlier this week, 
President Biden used the phrase ``racial equity'' at a press 
availability but immediately corrected himself to say ``racial 
equity.'' [sic]
    What is the difference between racial equity and racial 
equality?
    Ms. Fudge. Thank you for the question, Senator. From my own 
perspective, the difference is that one just means that you 
treat everybody the same. Sometimes the same is not equitable. 
You know, if you say to me that ``I am going to give you $5'' 
and you are going to give my friend $5, my $5 is not going to 
necessarily go as far because my friend already has a mother 
and father who are wealthy and they are giving them--let us do 
it this way: home ownership. Let us take it that way. They say 
let us make everything equal. But it is not equal because even 
though I meet all of the qualifications to qualify for a loan--
you know, I have got the right credit scores, et cetera, but I 
do not have downpayment money because my parents cannot afford 
to give me a downpayment, there is no wealth coming to me, 
where most people who are not--that do not look like me have 
options that I do not have.
    So just to say to treat us all the same is not the same. 
Equity means making the playing field level. Sometimes it is 
not level if you just say, ``Let us just treat everybody the 
same.''
    Senator Cotton. All right. So racial equality means 
treating everyone the same, correct?
    Ms. Fudge. Yeah, the same, though it is not always fair. 
That is correct.
    Senator Cotton. So just to be clear, then, it sounds like 
racial equity means treating people differently based on their 
race. Is that correct?
    Ms. Fudge. Not based on race, but it could be based on 
economics; it could be based on the history of discrimination 
that has existed for a long time. It could be based on 
educational levels. It could be based on many things, not 
necessarily just race.
    Senator Cotton. Is it ever appropriate for the Government 
to treat people differently based on their race?
    Ms. Fudge. No.
    Senator Cotton. Thank you.
    I want to return to something that came up with Senator 
Toomey. You had said last year, September 2020, during the 
debate about Justice Ruth Bader Ginsburg's vacancy on the 
Supreme Court in a floor speech, ``Those who are bent on 
choosing her successor have no decency, they have no honor, 
they have no integrity.'' You later said, ``They are a disgrace 
to this Nation.''
    If I recall correctly, Pat Toomey wanted to replace Justice 
Ginsburg on the bench. Do you believe that Pat Toomey has no 
decency, has no honor, has no integrity, and is a disgrace to 
this Nation?
    Ms. Fudge. Sir, first off, I do not really know Senator 
Toomey. I am certain that he is not. He seems like a fine man 
to me.
    Senator Cotton. Your audio cut out there for a moment. I 
will just say----
    Ms. Fudge. Can you hear me now?
    Senator Cotton. Yes, ma'am. I will say for the record that 
I believe that Senator Toomey has decency, honor, and 
integrity.
    I want to turn to another moment last year. In June 2020, 
around the debate about policing reform, you said that, ``We 
have them''--``them'' being Republicans--``on the run, quite 
frankly. Right now the President has Tim Scott trying to come 
up with a bill, and so they know they must do something, and 
they know they cannot do it without us. So if they want to save 
face and let this country know that they care even a little bit 
about people of color, which I do not believe they do, but if 
they want to try, I want to listen.''
    Congresswoman Fudge, do you believe that Tim Scott does not 
care even a little bit about people of color?
    Ms. Fudge. Tim Scott happens to be a friend. I support and 
trust Tim Scott.
    Senator Cotton. Could you answer my question, please? You 
have said that, `` . . . if they care even a little bit about 
people of color, which I do not believe they do''--referring to 
Republicans, of which Tim Scott is one--do you believe he cares 
even a little bit about people of color?
    Ms. Fudge. He is one, but he is not--I was not talking 
about all Republicans. Tim Scott clearly is a fine, upstanding 
Senator, and I do believe he cares.
    Senator Cotton. OK. Thank you, Congresswoman Fudge.
    I could go on. There is a long history of intemperate 
comments such as this. Obviously, all of us in public life 
sometimes say things that we hope we could take back. But if 
you are confirmed, you are going to be serving the needs of 
many, many Republicans as well as Democrats and nonpartisan 
people as well, and I hope that in the future you can serve 
them in a way that reflects your best moments in Congress and 
not some of these comments.
    Thank you.
    Ms. Fudge. Well, certainly I thank you, and I do serve 
people now, Republicans and Democrats, quite well. Thank you.
    Senator Toomey. Thank you, Senator Cotton.
    Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman. I will 
just make a comment. You know, if intemperate comments or harsh 
comments are the standard, I presided as the Ranking Member of 
the Senate Foreign Relations Committee over an enormous number 
of individuals who would have never gotten through the 
Committee, and certainly Republicans overwhelmingly voted for 
them, and their comments might have been seen in the same 
context. I understand the nature of political comments at the 
end of the day, and I believe from everything I have seen of 
Congresswoman Fudge that she will work for all people--
Democrats, Republicans, Independents, White, Black, Brown, 
Native Americans, and others.
    Let me just turn to the question of eviction and housing 
crisis that displaces millions of American families and further 
destabilizes our country. As of this month, 2.7 million 
homeowners are in forbearance plans. As of last month, nearly 
one in five adult renters were not caught up on rent. And as 
with any American crisis, the situation is particularly dire 
for minority communities. Talk about equity and those issues.
    As of last month, 28 percent of Black renters and 24 
percent of Latino renters said they were not caught up on their 
rent compared to only 12 percent of White renters. So in 
previous crises, housing counseling has helped families stay in 
their homes.
    Congresswoman Fudge, do you believe providing additional 
funding for housing counseling would help prevent evictions and 
foreclosures in this crisis as well?
    Ms. Fudge. Thank you so much for the question, Senator. I 
absolutely do believe that counseling is a major part of 
assisting people, whether it is staying in their homes or 
continuing to pay their rent. We have programs that are 
available to people that they are not aware of because we do 
not provide the resources to make them aware. So counseling 
should be at the top of our list, especially as we try to work 
our way out of this crisis.
    Senator Menendez. Well, I agree with you very much. As a 
matter of fact, according to the National Community 
Reinvestment Coalition, for example, loans to homebuyers that 
receive counseling perform better, and in 2017, 74 percent of 
housing counseling clients were people of color. That is why I 
hope you will work with me in helping me pass my Coronavirus 
Housing Counseling Investment Act, something I think that would 
help all of our families.
    Under the last Administration, HUD relocated key 
multifamily housing staff from its office in Newark to the New 
York Regional Office. As former mayors, we both understand that 
represents a significant challenge for the over 750 multifamily 
properties that exist in New Jersey. Can you commit to me that 
you will ensure that the Newark office has the staff it needs 
and that New Jersey and its interests remain a priority with 
HUD?
    Ms. Fudge. Yes, I can commit that to you, sir.
    Senator Menendez. Thank you.
    Dr. Rouse, last week I asked Secretary Yellen about the 
importance of providing fiscal relief to our State and local 
governments so they can continue to fight the pandemic and keep 
our essential workers on the job and off the unemployment line. 
She agreed that now would not be the time to withhold fiscal 
support from State and local governments. Do you agree with 
that?
    Ms. Rouse. Yes, Senator, I do share Janet Yellen's view, 
which is that our prime focus right now has to be on getting us 
through this pandemic, to provide aid to our households, to our 
businesses, especially small businesses. But, also we need to 
ensure that our State and local governments can be providing 
for the firefighters, the transit workers, the first 
responders, and our educators as they are stepping up in ways 
that they would not have budgeted for last year.
    I would also highlight that in the Great Recession not 
providing relief to--well, we provided relief to State and 
local governments, but it was the job losses there that 
provided a drag on the recovery. And so, again, to ensure that 
we have a swift return back to economic health, providing aid 
to State and local governments is part of that package.
    Senator Menendez. Thank you.
    And, finally, Congresswoman Fudge, I appreciated the visit 
that we had. Eight years ago, New Jersey faced the worst 
natural disaster in our State's history, Superstorm Sandy, 
causing havoc throughout the State. And New Jersey families are 
now finding themselves, after having traveled the convoluted 
procedures, where they got some assistance from FEMA and from 
HUD to rebuild their lives, get them back in, but now finding 
themselves being caught in a maze in which there is an effort 
to claw back some of those monies. I hope that you can work 
with us to provide flexibility [inaudible] these survivors in 
New Jersey.
    Ms. Fudge. Absolutely, Senator, and I appreciate your 
informing me and getting me up to speed on the situation, and 
if confirmed, it will be one of the early things that I take a 
look at.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Toomey. Thank you, Senator Menendez.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Congresswoman Fudge, first of all, thank you very much for 
the opportunity yesterday to visit with you. I appreciated our 
conversation. As I discussed with you at that time, I had 
suspected that a number of my colleagues, before I had the 
opportunity to speak, would address the issues of some of the 
statements that you made in the past, and I would like to move 
on to another particular area of concerns that I have got that 
we may very well find some agreement on, and that has to do 
with our Native Americans and the housing shortages on the 
reservations.
    I represent a State, South Dakota, that has nine tribes, 
all of whom are sovereign and who have a lot of their land in 
what we call ``trust'' or ``treaty trust tribes.'' I would like 
to draw your attention to a provision of the last omnibus 
funding bill that I championed that would streamline HUD's 
Section 184 lending program.
    As I mentioned in our conversation, lending tribal trust 
land is a rather difficult process, and the HUD 184 loans that 
are meant to provide mortgage credit where it is scarce can be 
delayed by a slow exchange of vital information between the BIA 
and HUD. The provision that I led would allow HUD to issue the 
certificates of guarantee per a 184 loan without waiting for 
the BIA if the lender originating the loan agrees to indemnify 
HUD for any losses. This would significantly streamline the 
program, but HUD will still have to proactively work with the 
individual lenders and housing organizations that serve Native 
Americans in order for the Section 184 program to be 
successful. A lot of them are very local lenders, and they know 
how to handle a lot of the individuals that are there and the 
challenges they have on a personal basis in order to get that 
loan approved.
    But if confirmed, will you commit to work with me and our 
Native American stakeholders in South Dakota to making the HUD 
Section 184 lending program a success?
    Ms. Fudge. Thank you again, Senator, for meeting with me. 
Yes, you have my commitment to work with you. I have had the 
opportunity to reach out to a number of Native American 
stakeholders. We have had conversations about some of the 
issues that you have addressed. And I know firsthand from 
having been on a reservation how difficult that situation is. I 
am totally supportive of working with you to see what we can do 
to make things better.
    Senator Rounds. Thank you.
    Dr. Rouse, I would like to thank you also for your 
willingness to have a phone call with us and also for your 
willingness to serve. As I mentioned in our phone conversation, 
there have been significant economic disparities between States 
like South Dakota, where social distancing comes naturally, and 
larger, more populated States that have experienced a 
significant spread of COVID-19. I also understand that your 
role will involve providing counsel to the President on 
economic matters.
    How do you believe future COVID-19 assistance can be 
targeted for those who need it most while being mindful of the 
fact that we are long into the territory of spending money that 
basically we are going to be borrowing? And by that, I mean, I 
know that we talk about State and local governments, but the 
need and the demand varies a lot from State to State, and 
trying to target the assistance seems to be a really sensitive 
issue right now.
    Can you talk a little bit about how you are planning on 
balancing your recommendations to the President, recognizing 
that we still have needs, but also recognizing that every 
single dollar that we intend to offer is money that we will be 
borrowing and probably the next two generations will have to 
pay back?
    Ms. Rouse. Yes, Senator, thank you, and I appreciated our 
conversation yesterday. So if we take a step back and think 
about the purpose of the Federal assistance right now, it is 
that we want to both provide assistance to people today while 
ensuring that our economy grows so that future generations are 
better off. So I [inaudible] is to get us to the other side of 
this pandemic and help ensure that our economy----
    Senator Rounds. Dr. Rouse, I apologize. You are cutting 
out, and so what I would do, with the permission of the Chair, 
is I will put this in as a question for the record, and I will 
just simply ask if you could get back with me on that 
particular one. Thank you, Dr. Rouse.
    Let me move back to Congresswoman Fudge for just a second. 
We did not have the opportunity to address this in our 
conversation yesterday, but one of the major outstanding issues 
from the 2008 financial crisis is housing finance reform. HUD 
does not have a primary jurisdiction over this matter, but, 
nonetheless, your work on housing will be important in deciding 
what to do with the GSEs.
    Are there any thoughts you would like to share with us as 
to what should happen with Fannie and Freddie or what an exit 
from conservatorship should look like?
    Ms. Fudge. Thank you, Senator. You know, the one thing I 
would say is that one of the things we have not done as a 
Nation is have a holistic approach to housing. At some point we 
need to have a collaborative discussion between FHA, between 
FHFA, Treasury, HUD, and I would say that this is such a huge 
issue and has such big implications for the market. We are 
talking about a $5 trillion business.
    I believe that just as Congress has chartered these GSEs, 
it is Congress' ultimate decision as to how they should be 
handled. I believe that the Congress--that this is such a big 
issue that Congress should make that decision.
    Senator Rounds. Thank you. I look forward to working with 
you on that issue in the future.
    Thank you, Mr. Chairman.
    Ms. Fudge. Thank you.
    Senator Toomey. Thank you, Senator Rounds.
    Senator Tester.
    Senator Tester. Well, thank you, Mr. Chairman, and I want 
to start by thanking both Congresswoman Fudge and Cecilia Rouse 
for being here today, and I appreciate your willingness to 
serve.
    I just want to spin off of Senator Rounds' last point, and 
it is a point you made, Congresswoman Fudge. There are so many 
times in Government--I mean, we were justice talking about 
broadband yesterday. There are four or five agencies that deal 
with broadband. You just talked about the number of agencies 
that are dealing with housing.
    You know very well, being a Congressperson, that Congress 
is not really renowned for getting things done. That is why we 
have the number of Executive orders that have gone out over the 
last few Administrations. And I would appreciate--I think you 
are right. Congress does need to act. But in the meantime, I 
would appreciate it if you can break down the silos in the 
housing arena in particular, because I think that is one of the 
boat anchors on our economy.
    In that regard, I wanted to visit with you a little bit 
about in your position at HUD, what will you do to support 
affordable workforce housing and rehabilitation?
    Ms. Fudge. Thank you very much, and thank you for our 
visit. Certainly HUD's mission is to provide housing, low-
income and affordable housing. So I support that mission by 
saying that we need to expand, as we talked about, expand 
housing choice vouchers. It is something that we must do. We 
need to find resources to assist with paying rents, with 
downpayments.
    We all know that when we come out of this crisis, whenever 
that is, people are not going to just be able to say, you know, 
``I am 14 months behind in rent, and I can just pay it all back 
right now.'' We know that is not going to happen. And so we 
have to come up with a cohesive policy to allow people to know 
that the Government is going to be assisting them, and we have 
many ways to do it.
    Certainly FHFA comes within the control, under the 
jurisdiction, but the others do not. But I again believe that 
the only way that we solve any of these problems is to do it 
through interagencies, to talk about what that policy should 
be, and that is the only way we solve these issues, is to come 
together and agree.
    Senator Tester. OK. Thank you. Also spinning off of Senator 
Rounds' comment on Indian country, I would hope that you have 
somebody in HUD, if you are confirmed, have somebody in HUD 
that is able to deal with the myriad of programs that impact 
Indian housing, because it is incredibly deficient.
    Senator Booker was on earlier today, and we have had a 
conversation about poverty in inner cities and poverty with 
large land-based Indian tribes. They are both significant 
problems, and I hope that you have somebody in your agency that 
is willing to work with the BIA to make sure that we get some 
housing built in Indian country because, quite frankly, it is 
massively deficient. You do not need to respond to that. Just 
do that, if you could, if you are confirmed.
    My last question is for Cecilia Rouse. Cecilia--and I 
should have said this with Congresswoman Fudge--thank you for 
meeting with us. I appreciate the conversation we had. We are 
in the middle of a pandemic which has caused the economy to go 
into recession, depression some will say. It depends on what 
area of business you are in.
    I want to know your perspective as we are talking about 
borrowed money, and it has been talked about a lot and is 
certainly a concern to me. But I want to know your perspective 
on how we spend money right now, especially if it is borrowed, 
as you said, to move the country out of a potential decline and 
into economic growth again.
    Ms. Rouse. Thank you, Senator, and I apologize for my 
connection. I am trying with an earpiece now. So I do believe 
that the best way for us to get back on solid economic footing 
is by getting through this pandemic, and that means supporting 
households, supporting businesses, especially small businesses, 
supporting our State and local governments.
    If we do not, we run the risk of actually finding ourselves 
in a downward spiral, because the capacity to deal with our 
debt is not only the amount that we spend but the size of our 
economy. And if we want to keep our economy going, we need to 
be spending some money.
    So I believe we have to be doing smart investments as we 
come out of this that have economic returns such as those on 
investments in infrastructure, R&D, education, so that we again 
put our economy on a strong footing so that it is growing and 
there for future generations.
    Senator Tester. And I assume when you say ``smart 
investments,'' you are saying that monies that are appropriated 
by Congress need to be targeted.
    Ms. Rouse. They need to be targeted. They need to be smart. 
They need to be in those areas where we know that the economic 
benefit outweighs the cost.
    Senator Tester. Thank you both for your willingness to 
serve.
    Thank you, Mr. Chairman.
    Senator Toomey. Thank you, Senator Tester.
    Senator Tillis.
    Senator Tillis. Thank you, Chairman Toomey and incoming 
Chairman Brown. And thanks to Congresswoman Fudge and Dean 
Rouse for being here. And congratulations to your family, 
Congresswoman. I loved seeing my mom in the background. I am 
glad yours is there, too.
    A real quick question for you, Congresswoman Fudge. Do you 
recognize the backlog of the pending HUD code changes passed by 
the Manufactured Housing Consensus Committee? Do you recognize 
those as things that need to be fixed?
    Ms. Fudge. Yes, sir, I do.
    Senator Tillis. And on a related note, Congresswoman, I 
remember when I was Speaker of the House down in North 
Carolina, I met with a town that was in my district, and it was 
on affordable housing, which I supported significantly in North 
Carolina. About 45 minutes went on things that we could do 
produce affordable housing. Then they requested that I support 
a bill that would mandate a sprinkler in single-family housing 
for fire suppression, which for a $100,000 home would increase 
the cost of the home by about $15,000. It really made me start 
thinking about barriers to affordable housing that could 
potentially be an overreach in certain communities. I had this 
discussion with Dr. Carson about when we have to prioritize 
limited funds for affordable housing.
    What are your thoughts on potentially looking at 
jurisdictions that have a need for affordable housing but may 
have overreached on the barriers to that purely through 
regulatory overreach as a means for kind of prioritizing where 
we put these limited dollars to address affordable housing 
problems?
    Ms. Rouse. Well, thank you for the question, Senator. I 
think everything is on the table. I mean, we have to look at 
regulations. We also have to look at safety. We have to be sure 
that if we want to put people in housing, we have to do it in 
the most efficient, effective, and safe way.
    So I believe all of those things are on the table and would 
be something that I would be happy to discuss with you and take 
a good look at.
    Senator Tillis. Well, thank you. If confirmed, I would like 
to talk about things that we absolutely have to regulate to 
make sure that people have a safe home, but maybe let the 
regulatory burden in certain jurisdictions be instructive 
toward grants and other things that they may be eligible for.
    So, again, Congresswoman Fudge and family, congratulations 
on your nomination. And, Congresswoman, thank you for your 
service, long-time service to your community.
    Dean Rouse, I have got a question. Before COVID hit, we had 
an economy that I think by most measures was moving in the 
right direction, and I believe that part of that were some of 
the Tax Cuts and Jobs Act--not all of it. There are other 
factors, but were a significant contributing factor to the 
economic growth. We understand that President Biden is going to 
propose tax increases, and particularly corporate tax 
increases. What is your position on how we move forward and 
best position our economy to grow as we continue to make 
progress on the vaccine and reopen the economy? Do you think 
that increasing corporate taxes is called for?
    Ms. Rouse. Senator Tillis, thank you for that question. You 
have really landed on an important question, which is that we 
understand that now in order to get to the other side of the 
pandemic, we need to--the Federal Government needs to step in. 
But as we get to the other side and get back on the path for 
economic growth, I think it is important that we look at the 
Federal budget in totality and think about the important 
investments that we need to make in order to improve economic 
growth, but also understand how are we going to pay for those 
investments now.
    So I believe we should be taking a comprehensive look at 
that. The President has committed in saying that he wants to 
look at an array of tax options, but that he believes that 
individuals and corporations should pay their fair share. So 
this is not to say that there is just an automatic repeal of 
the tax credits that were passed before, but we need to look at 
the most important ways that we can both raise revenue in the 
most economically efficient way possible, but that ensuring 
that everybody is paying their fair share.
    Senator Tillis. Thank you. I will be submitting questions 
for the record to both of you. Thank you very much and, again, 
congratulations on your nominations.
    Ms. Rouse. Thank you.
    Ms. Fudge. Thank you very much.
    Senator Toomey. Thank you, Senator Tillis.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Thank you, 
incoming Chair Brown. Congratulations to both the nominees. I 
enjoyed our conversations together.
    I am going to direct most of my comments this morning to 
Dr. Rouse, but as Congresswoman Fudge knows, particularly on 
housing finance reform, this is an issue that is 
extraordinarily important to me, and I look forward to 
revisiting it with you once you are confirmed.
    Dr. Rouse, one of the things that came out of the first 
CARES package that I think was extraordinarily significant long 
term was that when we did the expansion of unemployment, there 
were two component parts, as we all know: one part, the $600-a-
week plus-up, which was relatively controversial; the other 
part that I think there was broad-based support for was the 
expansion to cover the self-employed, gig workers, independent 
contractors, a whole host of folks. We have discussed that 
universe of workers, and that type of work is not going away.
    I think it is terribly important that we have a social 
contract that includes all forms of work. I hope there will be 
a further expansion of benefits to those workers, including a 
component of portability, something that I have worked with 
Members of the Committee on for a long time.
    Can you speak to how we continue--sticking with 
unemployment to start, how we continue this commitment to 
unemployment in this expanded basis? Obviously, it was 
continued in the December COVID package. I was proud of that. 
But at some point, it cannot be an entirely Federal Government 
obligation. We have got to have those payers kicking in as 
well. But can you speak to your goal for how we make sure 
unemployment covers all forms of work?
    Ms. Rouse. Senator, I share your interest and commitment to 
this issue, and, in fact, I will say it is part of what draws 
me to this potential opportunity, and I think it is part of the 
better part of Build Back Better, and that is to recognize that 
much of our social contract, as you describe it, was designed 
in the 1930s. It was designed for a labor contract or 
relationship between workers and their employers, which is 
quite different than what we have today.
    So if we take our UI system, for example, today the system 
is not providing the kind of safety net that it used to do. 
Many workers are not covered. I think it is less than half of 
workers are actually covered. The replacement rate has been 
falling. It was designed for short-term unemployment spells, 
and what we are observing in our most recent recessions is that 
unemployment spells are becoming longer and our UI system was 
not designed to help there. And yet we know that for both to 
help workers get through and for economic stability, UI plays 
an important part of that role.
    So I share your view. I look forward to working with you 
and others. I think broadening the base of workers that are 
covered is important. Whether that is with portable benefits, 
whether that is how we classify workers, there are many options 
that are on the table. And if confirmed, I would want to work 
with my team and work with all of you to find ways to what I 
will call modernize our UI system and modernize other parts of 
our safety net so that it reflects and honors the changing 
nature of work in our economy.
    Senator Warner. Well, thank you. Let me quickly get in my 
next question, which is: We want to make sure this economic 
recovery is equitable. Again, I think we took a major step 
forward. I want to thank so many of my colleagues on both sides 
of the aisle, particularly folks like Tim Scott and Mike Crapo. 
When we included the Jobs and Neighborhood Investment Act in 
the last COVID package, which puts $12 billion into CDFIs and 
MDIs--Senator Brown has been an big advocate of this, 
Congresswoman Fudge on the House side, making sure there was 
equitable actual to capital. We have got to make sure we 
implement that program right because we clearly saw Black and 
Brown businesses get disproportionately hurt by COVID, and 
implementing that program correctly is going to be really 
important.
    Another component is the fact that, you know, in the Great 
Recession we saw three-quarters of the jobs that were lost were 
jobs that only required a high school education. Coming 
forward, we are seeing that, you know, three-quarters of the 
jobs that are being created require a college-based education. 
We can attack that at the student debt level, but we can also 
attack it on incentives to have businesses start investing in 
human capital. You and I have talked about the idea of changing 
our tax and accounting treatment of businesses that invest in 
human capital, and you may want to take this for the record 
because my question--I have used up all my time, and I will not 
ask you give full remarks here. I think John Kennedy is waiting 
anxiously. But I hope you--you know, I know we have talked 
about this before, but I hope we can really continue this 
conversation on an equitable economic recovery.
    Ms. Rouse. I would be happy to do so. Thank you.
    Senator Toomey. Thank you, Senator Warner, for respecting 
the clock.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Congresswoman, can you hear me OK?
    Ms. Fudge. Yes, I can hear you fine.
    Senator Kennedy. OK. First, it is an honor to meet you. I 
do not want to put too fine a point on this, but it is 
important to me personally to clear up the confusion that I 
have from your answer to one of Chairman Toomey's questions. I 
think it is accurate that you did say at one point that 
Republicans do not care about people of color, even a little 
bit. And I would like to know if you truly believe that.
    Ms. Fudge. Senator, thank you. I also said that if they do, 
I would be happy to listen. And I am certainly always willing 
to listen to not only my constituents but my colleagues. And I 
would suggest to you very, very strongly that there has never 
been a time in my entire public service career that I have not 
supported and worked with all people. And I commit to you I 
will do just that if I am fortunate enough to be confirmed to 
this position.
    Senator Kennedy. Yes, ma'am, but, again, not to put too 
fine a point on this, but I need a little more precise answer, 
so let me ask it a little more directly. Do you think 
Republicans care about people of color?
    Ms. Fudge. I do, some, yes.
    Senator Kennedy. Do you think most Republicans care about 
people of color?
    Ms. Fudge. Yes, I do.
    Senator Kennedy. OK. Thank you for that.
    Dean, can you hear me?
    Ms. Rouse. Yes, I can hear you. Thank you.
    Senator Kennedy. OK. It is an honor to meet you, too. I 
want to take you back to the month before the pandemic started, 
before we even knew about the coronavirus. What tax changes, if 
any, would you have made at that point in time given the fact 
that we know taxes impact the economy? Generally speaking, if 
you tax something, you get less of it.
    Ms. Rouse. Senator, I believe what you are referring to is 
the fact that before the pandemic struck or we identified the 
virus, the economy overall was doing relatively well. We were 
in an expansion. Unemployment rates were----
    Senator Kennedy. I am running out of time. What tax changes 
at that point would you have made to the economy?
    Ms. Rouse. So, Senator, well, one of the problems, though, 
with our economy at that time is we still had inequality that 
was--I would say ``record levels'' except for the fact that it 
has been exacerbated now. So I----
    Senator Kennedy. What tax changes would you--I am sorry I 
have to do this, because I have only got a minute and 30 
seconds. What tax changes at that time would you have made to 
the economy?
    Ms. Rouse. So, Senator, I would have been looking for ways 
and strategies for us to be addressing income inequality and 
wealth inequality which existed at that time.
    Senator Kennedy. How would you have done that?
    Ms. Rouse. Well, so I am an economist, and I study things. 
You know, I would want to look at a broad array of potential 
options, and if President Biden, when President Biden is ready 
to consider the options for paying for his investments, which 
we know will help improve and grow the economy, we will study 
and try to impose taxes in the most efficient way. But where 
individuals and corporations are paying their fair----
    Senator Kennedy. But what would be your--sorry for 
interrupting. I hate doing that. But we are limited by time. 
What are the options that you are talking about?
    Ms. Rouse. So we can look at our income tax rates. We can 
look at our corporate tax rate. We can look at ways to deal 
with wealth income tax----
    Senator Kennedy. Capital gains? Is capital gains on your 
list?
    Ms. Rouse. So capital gains are tricky because we know that 
the way that we currently treat capital gains also generates 
some inefficiencies. And so, you know, there are tricky ways 
that we can deal with capital gains. But I think that we should 
look at all of the options, absolutely, because we have wealth 
inequality in this country----
    Senator Kennedy. How about the death tax?
    Ms. Rouse. ----which is wide and getting wider.
    Senator Kennedy. In my last 9 seconds, how about the death 
tax?
    Ms. Rouse. So, Senator, I believe that we should be 
studying and considering all of these different options and to 
put together a portfolio which is most effective for addressing 
wealth and income inequality in this country.
    Senator Kennedy. Thank you, Mr. Chairman.
    Senator Toomey. Thank you, Senator Kennedy.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman. And 
congratulations to both of you on your nominations. Thank you 
for being here with us.
    We live in an America today where a typical White family 
has eight times the wealth of a typical Black family and five 
times the wealth of a typical Latinx family gaps that have not 
budged in decades.
    Now, Dr. Rouse, you have done important research on racial 
and economic equity throughout your career. Could you tell us 
what it would mean for American families and for our economy if 
we pursued policies that closed the racial wealth gap 
substantially?
    Ms. Rouse. Senator Warren, I think we share a concern about 
the increasing wealth gap, and I think if we step back and 
first consider why wealth is important and why the racial 
wealth gap or any wealth gap is important, first wealth 
represents a cumulative impact of inherited resources, right? 
It is income over one's lifetime and expenses incurred. It is a 
reflection of family circumstances. It can be luck. But it also 
reflects obstacles in labor and financial markets.
    And so the Black-White wealth gap in particular can be 
attributed to a history of discriminatory policies such as 
redlining. And, importantly, this legacy continues to replicate 
itself generation to generation as those without accumulated 
wealth cannot pass it on to their children.
    The second part of why I believe it is important is that 
these differences are consequential, so wealth is protective 
and is important for well-being. So increased wealth has been 
associated with better health outcomes and better financial 
resilience. And during this pandemic, what we have seen is that 
those with greater wealth have more resources to fall upon when 
the economy slowed. So it provides a kind of self-insurance 
against economic adversity. It also provides access to housing 
in safe neighborhoods with good schools, which confers 
additional advantages on those who can afford such 
opportunities.
    And so closing the wealth gap is not about trying to 
literally take away, but it is try to ensure that everybody can 
participate in this economy.
    Senator Warren. Well, that is powerfully important. Thank 
you. And, you know, one big contributor to the wealth gap is 
student loan debt. Black and Latinx students borrow more money 
to go to college, and they have a harder time paying it off. If 
the President canceled up to $50,000 in student loan debt, as 
Leader Schumer and I have called for, it would close the racial 
wealth gap among people with student loan debt by about 25 
points. Canceling $50,000 in Federal student loan debt is the 
single biggest thing the Administration could do on its own to 
narrow the racial wealth gap. So I hope we will get a chance to 
work together to make this happen.
    I want to turn to another piece of the racial wealth gap, 
and that is home ownership. Owning a home is the number one way 
that middle-class families build wealth. But here is the ugly 
truth: The racial home ownership gap is now wider than it was 
when Congress outlawed housing discrimination back in the mid-
1960s, and this difference can be traced directly to decades of 
racist Federal policies, including redlining that denied Black 
families the same path to home ownership that was available to 
White families. Since the Government created this problem, it 
seems only right that the Government should help fix it.
    So, Congresswoman Fudge, you have spent your career working 
to improve the lives of people in communities of color. If the 
Federal Government provided help with downpayment for families 
living in formerly redlined neighborhoods, would that make a 
difference in narrowing the racial home ownership gap and the 
racial wealth gap?
    Ms. Fudge. Thank you very much, Senator. It would make a 
huge difference because that is the biggest impediment to home 
ownership for communities of color, is the downpayment. We meet 
all of the other qualifications, and so it is like us being in 
a race with people who have already had a head start, because 
we do not have a mother or father to give us a downpayment. We 
do not have the wherewithal, the same kind of income, the same 
kind of access. And so it is like we are starting out of the 
box with somebody who was out ahead of us by 100 yards.
    Downpayment assistance is a major, major impediment, and if 
we can fix that, you would see a tremendous growth, because no 
matter what they say, home ownership amongst Blacks right now 
is the same as it was in 1968.
    Senator Warren. Thank you, Congresswoman. Very powerful on 
this. We need to take action before the pandemic widens the 
home ownership gap even more.
    It is time for an all-hands-on-deck approach to tackling 
the shameful racial disparities in our economy. Providing 
downpayment assistance is one powerful way to do that. 
Administratively canceling billions of dollars of student loan 
debt is another. I know you both care deeply about these 
issues, and I am looking forward to working with you in your 
new roles.
    Ms. Fudge. Thank you.
    Senator Toomey. Thank you, Senator Warren.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman. Thank you, Ranking 
Member. Thank you to our nominees.
    I want to start with Congresswoman Fudge. We had a great 
conversation the other day, and I wanted to follow up on 
something I feel very passionately about. A straight line can 
be drawn from the racist local, State, and Federal segregation 
policies of the past to our zoning codes today. And so in 
addition to recommitting to fair housing enforcement, what 
should HUD do to encourage communities to abandon exclusionary 
zoning and implement policies that build accessible, equitable, 
and affordable housing?
    Ms. Fudge. Thank you, Senator, and I did very much enjoy 
our conversation. We have to get rid of this notion of ``not in 
my back yard.'' We are going to have to find ways for two 
reasons. One is housing has increased by 10 percent or more a 
year, and the average person that we are talking about that HUD 
serves are people who are not--their incomes are not rising at 
that level. So we are going to have to find some incentives for 
home builders, especially those that build multifamily housing, 
to assist us in these communities to change the zoning laws. I 
mean, some of these are very, very discriminatory, and I think 
that there are some legal options. But I also think we need to 
convince them that it is to their advantage economically, it is 
to their advantage to make sure that their communities know 
that it is important to them to get people off the street and 
to house people properly in safe, affordable neighborhoods.
    So I think it is a tough issue. Being a mayor, I understand 
it. But it is an educational issue, and we need to make sure 
that we educate them on what they are doing to their 
communities.
    Senator Schatz. Well, thank you for that, and I am looking 
forward to working with you on this. I would just add that part 
of this is the politics of cities and towns, and people who 
otherwise consider themselves rather progressive get rather 
regressive and are not reminded by people such as you and many 
of the people on the Banking Committee and in the Congress that 
exclusionary zoning, restrictive covenants, all of that is the 
great-grandson of Jim Crow. And we need to remember that legacy 
even as all these progressives were fighting for progressive 
causes except for housing next to their block. And that is 
something that we have to wrap our minds around not just from a 
policy perspective but from a community and communications 
perspective. And I am hoping that we can work together on that.
    Ms. Fudge. If I am confirmed, I will be talking with you 
about it all the time, Senator.
    Senator Schatz. Great. Last Congress, I introduced a CDBG-
DR reform bill that would permanently authorize the program and 
get funding to communities faster, to help communities develop 
housing-focused community resilience plans. Do you support the 
permanent authorization of CDBG-DR?
    Ms. Fudge. Yes, very, very much, and I will be happy, if 
confirmed, to work with you on it. That is the only way we can 
get it out without jumping through a million hoops.
    Senator Schatz. Thank you very much. Hawaii has one of the 
worst housing shortages in the United States. We have San 
Francisco-New York prices and Midwestern salaries. And so do I 
have your commitment to work generally speaking on the housing 
shortage in Hawaii and specifically on the Native Hawaiian 
housing challenge and the Native Hawaiian housing block grant?
    Ms. Fudge. Very much. I am looking forward to working with 
you.
    Senator Schatz. OK. Dr. Rouse, there is a real sort of 
shift in thinking around the economics of climate action, and I 
think that this thinking is happening in academia. It is 
certainly happening in markets, as we see, and it is happening 
in the Congress. And I am wondering how you see your role in 
developing the data sets that sort of flesh out the case that 
climate action is not just not in conflict with an economic 
strategy but it is, in fact, our economic energy. And I am 
wondering how you are going to develop the data sets to clarify 
that so we do not have to have this sort of 1970's argument 
about whether we are going to protect the environment or 
develop the economy?
    Ms. Rouse. Senator, I can assure you that addressing our 
climate challenge is front and center of the Administration's 
agenda and of the CEA. First and foremost, we will have an 
economist, one of our members, and we are hiring another 
economist, should I be confirmed at least, that will focus on 
climate. And understanding the true costs of climate inaction, 
understanding the benefits of addressing climate and how we can 
do so efficiently are key to what I would like to accomplish at 
the CEA, should I be confirmed.
    Senator Schatz. Thank you.
    Senator Toomey. Thank you, Senator Schatz.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Congratulations on the 
nominations, both to you, Congresswoman Fudge, and Dr. Rouse.
    Dr. Rouse, let me start with you, and I appreciate both of 
you having conversations with me. But, Dr. Rouse, let me start 
with you, and as you can imagine, it is surrounding the 
hospitality industry and tourism industry because Nevada has 
been so hard hit. Our resort operators support our whole 
community. But as you and I discussed, when people are 
unwilling to travel during a pandemic, it has a devastating 
impact on our economy, both on the businesses and the workers 
that directly and indirectly support it.
    Let me just throw out some numbers here because I think it 
is important for us to understand. Before the pandemic, the 
travel and tourism industry was one of the largest sectors of 
the economy. In 2019, travel generated $1.1 trillion in 
spending and supported 15.8 million American jobs. But we know 
because of the COVID pandemic it has devastated this industry, 
and according to Oxford Economics, the U.S. lost $510 billion 
in travel spending and 4.5 million travel jobs in 2020.
    So my question to you is: Do you think that the industry, 
the hospitality, the travel/leisure industry is one area where 
Congress and the Administration should focus when crafting a 
stimulus bill?
    Ms. Rouse. Senator, I appreciated our conversation, and I 
share your concern about the travel and leisure industries. We 
know from the most recent job report that that is an area where 
we are seeing our most significant job losses and where we have 
been hardest hit by this pandemic. And as I have said before, 
getting through this pandemic as safely as possible, where we 
are helping individuals, helping the businesses that are viable 
get to the other side so that they can participate in the 
growth is very important. And I believe we should be targeting 
our assistance at those hardest-hit areas. I believe the 
President shares that priority.
    I would say that in the rescue plan there is additional aid 
for businesses, but I would look forward to talking with you 
and understanding what from your perspective and your 
constituents' perspective would be the most effective ways to 
ensure that we get the assistance to those businesses and those 
sectors that are the most heavily impacted by the pandemic.
    Senator Cortez Masto. Thank you, Dr. Rouse, because I do 
look forward to working with you. Senator Cramer and I both 
introduced this bipartisan bill, the Hospitality and Commerce 
Job Recovery Act, and we have ideas after working with our 
industry locally and nationally about what can be done. That 
includes tax credits to be effective tools to incentivize 
spending and help certain sectors recover from an economic 
crisis. So I look forward to talking with you on that subject. 
Thank you.
    Congresswoman Fudge, let me associate myself with some of 
the comments that Senator Scott brought forward with respect to 
manufactured housing. He and I both cochaired a bill, the 
Manufactured Housing Modernization Act. It was passed into law. 
It was passed into law a year ago and to my understanding has 
still not been implemented by HUD. As a result of that, he and 
I sent a letter to then-Secretary Carson February 4th asking 
for the quick implementation of the new law, and really what it 
does is it issues guidance for the inclusion of manufactured 
housing in States and local governments' consolidated plan. So 
I would look forward to working with you on the implementation 
of that particular law, but I only have so much. Let me talk 
about one other area that we all have been addressing, which is 
the affordable housing crisis.
    In Nevada and across the country, it is so prevalent. One 
area, though, is youth homelessness. Nevada is third in the 
Nation for the total number of unaccompanied youth experiencing 
homelessness, and the highest rate of unsheltered, 
unaccompanied homeless youth. And I know this is an area that 
is important for you as well. What ideas do you have to work 
with other agencies to reduce youth homelessness? And what can 
HUD be doing as well?
    Ms. Fudge. Thank you very much, Senator, and I did enjoy 
our conversation. Thank you.
    Certainly if I am confirmed, one of the things that we need 
to address right away is youth who are aging out of the foster 
care system. As soon as they age out, they have no place to go. 
So HUD has to start to put in place programs to allow them to 
stay in public housing at least until we can get them on their 
feet. But right now it is a very difficult situation with the 
numbers of young people who are, as you say, unattended, but 
the majority of them are foster children. So we need a program 
for foster youth, and that is something that I would be happy 
to work with you on, should I be confirmed.
    Senator Cortez Masto. I look forward to it. Thank you 
again.
    Senator Toomey. Thank you, Senator Cortez Masto.
    Senator Smith.
    Senator Smith. Well, thank you so much, Chair Toomey and 
Chair-to-be Brown. And welcome to our nominees. You both bring 
such distinguished records and, I know, a true spirit of public 
service. So I am really grateful for the conversations that I 
was able to have with both of you over the last couple of 
weeks, and I very much look forward to supporting you.
    We are in the midst of the worst public health crisis and 
economic crisis together colliding in our country that we have, 
in my knowledge, ever lived through. But I really appreciate 
how both of you are talking about how we need to navigate 
through this crisis, but also focus on how we can expand on the 
ingenuity and the innovation and the amazing work of American 
workers to be able to build our economy forward.
    Dr. Rouse, I want to start with you. I really appreciated 
our conversation and your thoughtfulness and your 
reasonableness, and I appreciate especially how you talk about 
following the data, not just the averages but the entire scope 
of data that will help us understand how people are doing at 
the extremes of our economy as well as how people on the 
average are doing. And this gets to a question that Senator 
Warren was raising that I think is so important. It is the cost 
of inequality to our economy. And Elizabeth touched on this 
with regard to home ownership, but I want to ask you about the 
challenges to our economy because of lack of access to capital 
for communities of color, Black, Brown, and indigenous 
communities, and especially the role that CDFIs and Native 
CDFIs can play in expanding access to capital, the impact that 
could have on inequality and getting our economy really moving 
again.
    Ms. Rouse. Thank you, Senator. You are raising a very 
important issue. As we think about having a shared recovery and 
ensuring that it is not just the average that does well but 
everywhere, and the diversity, it is not--I want to just 
emphasize the geographic diversity and what happens in our 
rural areas in particular and for our hardest-hit areas is an 
important part of that mosaic.
    We know that stimulating economic activity is the best way 
to generate employment for rural areas and, therefore, economic 
security and livelihood, and to ensure that the young people 
want to stay in those areas--not that people have to be forced 
to stay where they do not want to stay, but that they have an 
incentive to stay and not to flee to urban areas in order to 
find a job.
    So if we want to bring back vibrancy to all of the areas of 
the U.S., we have to ensure that the businesses and the smaller 
businesses have access to capital so they can get started; and, 
importantly, during a downturn such as this, that they have 
access to capital so they can thrive during economic activity 
and a bridge to make sure that they ensure and they survive to 
the other side. So I believe this is an important part of our 
strategy.
    Senator Smith. I appreciate that. And when you and I met, 
we talked about what this could look like in Indian country and 
the United States, and I want to reextend my invitation to have 
you come to Minnesota, either virtually or in person, so that 
we can have some conversations about what that would mean in 
terms of access to capital and economic development in tribal 
lands.
    Let me turn to Representative Fudge just to carry on this 
theme. I so appreciate you and your leadership, and I also just 
want to note that as a mayor, I think that mayors--I know a 
little bit about mayors. No problem is too big or too small for 
a mayor to focus on, and, also, most problems, when you are a 
mayor, are not Republican or Democratic problems. They are 
problems about whether people's lives work or not. I believe 
that you will bring that same spirit to housing and urban 
development, so I want to thank you.
    I want to ask a follow-up specifically on the conversation 
that you and I also had about the shortage of housing on tribal 
lands. I would ask if you could just comment briefly on 
NAHASDA, which is the most important housing program for Indian 
country and what role you see that can play in addressing the 
housing shortage in tribal communities.
    Ms. Fudge. Well, thank you very, very much, and thank you 
for taking the time to speak with me. NAHASDA is something that 
was brought up to me by most of the Native American 
stakeholders that I have already spoken with. It is something 
that I have guaranteed them that I am going to look into as 
quickly as possible. And if I am confirmed, as soon as I can 
get in the office and talk to the staff and figure out what is 
going on with it, I promise that I will get back with you as 
well as I promised them that I would get back with them, and I 
intend to do just that.
    Senator Smith. Thank you very much.
    And, Mr. Chairman, I have a question for the record which I 
will submit for Representative Fudge about the importance of 
maintenance and safety needs in public housing. This relates to 
the tragic event in Minnesota with a terrible fire and the lack 
of sprinkler systems. You can get back to me on that, 
Representative Fudge.
    Ms. Fudge. Thank you.
    Senator Toomey. Thank you, Senator Smith.
    It is my understanding that Senator Van Hollen may be 
attempting to log on, but he has not been able to do so yet.
    Senator Brown, if you had a closing comment you wanted to 
make, maybe you could make that statement now, and we could 
give a little bit more time for Senator Van Hollen to join us 
in case he is able to do so.
    Senator Brown. I would. Thank you, Mr. Chairman, and thank 
you again to my friend Congresswoman Fudge, and, Dr. Rouse, 
thank you.
    Let me say in response to the questions from a number of my 
colleagues that it is pretty tough--to Congresswoman Fudge, it 
is pretty tough to take a lecture on political speech from 
Members of a party whose leader just 3 weeks ago literally 
incited a violent insurrection with his words. The real 
rhetoric we should be worried about are the lies and the 
conspiracy theories that do more than hurt feelings. They 
incite violence, they undermine our democracy.
    I know Senator Toomey at least has pushed back against the 
former President's dangerous lies about our election. I 
appreciate his candor and his courage. I wish others of our 
colleagues on this Committee and in the Senate would show the 
same kind of courage.
    Thanks to Congresswoman Fudge, thanks to Dean Rouse, Dr. 
Rouse, for your thoughtful answers. I am excited to work with 
you. This hearing today made me even more excited about 
assuming the chairmanship of this Committee. I appreciated 
Congresswoman Fudge's comments that these are extraordinary 
times that require extraordinary action. What you two will do 
in the next several years, I would assume, will be the most 
important things you have ever done in your lives. I consider 
my job to be that in the few years ahead. Your service to our 
country is both admirable and absolutely crucial.
    So thank you, Chairman Toomey, and thanks to our two 
witnesses.
    Senator Toomey. Thank you, Senator Brown. Let me just 
briefly observe I appreciate the conversation today. I am 
grateful to the two witnesses for their willingness to serve 
our country. I will say I think I heard bipartisan discussion 
about the fact that we are in a different place in our economy 
today than we were back in March, and today we have got people 
who are certainly suffering from very terrible circumstances. 
But it is a much more targeted group of folks than the sort of 
universal catastrophe we faced in March, and so I hope that as 
we develop further responses, it will reflect that reality.
    So this concludes the question-and-answer portion of 
today's hearing. Prior to adjourning, I do have some final 
housekeeping announcements. Before I do that, again, let me 
thank both of our witnesses, our nominees, for your testimony 
and for your willingness to serve.
    For Senators, all follow-on questions for the record must 
be submitted by 5 p.m. Saturday, January 30th. That is 5 p.m. 
Saturday, January 30th. And for our witnesses, I do ask you to 
respond to written questions that you receive by noon Monday, 
February 1st. I know that is a very tight timeframe, but your 
prompt responses will facilitate this Committee quickly 
processing your nominations.
    With that, this hearing is adjourned.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]
    [Prepared statements, biographical sketches of nominees, 
responses to written questions, and additional material 
supplied for the record follow:]
              PREPARED STATEMENT OF SENATOR SHERROD BROWN
    Today we consider the nominations of two distinguished public 
servants, my Congresswoman--Marcia Fudge to lead the Department of 
Housing and Urban Development--and Dr. Cecilia Rouse to lead the 
Council of Economic Advisors.
    Most of us have met with them. We are impressed with their 
knowledge, their commitment, and their passion to serve, especially 
during the current public health and economic crisis. Thank you, 
Congresswoman Fudge and Dr. Rouse.
    Our economy is at a crossroads. COVID-19 infections are up, new 
unemployment claims continue to rise, and millions of families are 
behind on their bills--on rent, on utilities, on mortgage payments.
    We face a choice: Will we finally marshal all of our country's vast 
resources and talent to meet this moment? Will we help all the families 
that desperately need it, help our struggling small businesses survive, 
and get Americans vaccinated and back to school and back to work and 
back to seeing their grandparents and grandchildren?
    Or, will we sit back and watch as millions of families face the 
threat of eviction, as people drain meager savings account or head to 
payday lenders, as job losses become permanent, and racial and economic 
inequality get worse?
    President Biden nominated Congresswoman Fudge and Dr. Rouse to 
positions that will be essential to determining which path we take, 
during this pandemic and in the years ahead.
    And I can think of no one better to lead us out of this pandemic 
and into the future than the two women before us today.
    After a year when Black Americans have endured so many painful 
reminders of the yawning gap between the promise of our founding 
ideals, and our failure to make that promise real for everyone, two 
Black women will take leading roles in our economic recovery.
    This matters on so many levels. It's important for our future that 
little girls, including Black and brown girls, see themselves in our 
leaders, from the Vice President to our economic leaders.
    And it matters because of the perspectives and the life experiences 
these two women--these two Black women--bring to these jobs.
    They both have ties to Ohio--one a daughter of Cleveland, of the 
industrial Midwest, and the other with roots deep into the Mahoning 
Valley and Youngstown.
    And Congresswoman Fudge and Dr. Rouse bring a real understanding of 
the people who make this country work--all people--to these jobs.
    If confirmed, Congresswoman Fudge will lead an agency that supports 
families and communities, provides housing and safety to people 
experiencing homelessness from this pandemic, and helps communities 
rebuild.
    Today, HUD is grappling with a housing market where millions of 
families find it harder and harder to afford a decent home. The cost of 
housing is up, wages are flat, and so many workers have trouble making 
rent every month without crippling stress, or turning to predatory 
loans. And the dream of home ownership is increasingly out of reach.
    None of this started with COVID-19. The affordable housing crisis 
is the product of decades of conscious policy decisions--by both 
Government and corporations. This pandemic has exposed what millions of 
families in this country already knew--that too many people are 
struggling to get by.
    Before the U.S. had its first case of COVID-19, a quarter of all 
renters were already paying more than half their income for housing, 
and the Black home ownership rate was nearly as low as it was in 1968, 
when housing discrimination was legal.
    HUD should play an essential role in fixing that--in expanding 
opportunity to every zip code, and allowing more families to have the 
peace of mind and the economic security of a safe home they can afford.
    Congresswoman Fudge will work to help protect our kids from lead 
poisoning, to restore the promise of fair housing, and to give 
communities the help and resources they need to thrive.
    All of this is a tall order, but it is one I know she is poised to 
meet. And she brings to the job the unique and critical experience of 
serving as mayor for the kind of community that is either overlooked, 
or outright preyed upon, by Wall Street and big investors.
    We cannot write off entire swaths of the country--whether it's a 
coal town or an historic industrial city, whether it's farm country or 
an urban neighborhood. This champion of Cleveland understands that.
    The Council of Economic Advisors will also play an integral role 
both in helping our economy recover and in building a better system out 
of this pandemic. And Dr. Rouse is exactly who we need at the helm. If 
confirmed, she will help direct our Nation's economic policy to put 
Americans back to work, at better jobs with higher wages.
    Millions of people are still out of work, and those job losses have 
disproportionately fallen on low-wage workers, Black and brown workers, 
and women. At the same time, essential workers are risking their health 
to go to work, while corporations still refuse to pay them a living 
wage.
    It's all part of the corporate business model that treats American 
workers as expendable, instead of as essential to our country's 
success. For decades, workers' wages have remained stagnant while CEO 
pay has skyrocketed. ``Building Back Better'' means taking on that 
system, and creating an economy with a growing, thriving middle class.
    This won't be the first time Dr. Rouse has helped us weather a 
crisis--she served on the Council of Economic Advisors in 2009, during 
the Great Recession.
    Dr. Rouse, has spent her career focusing on workers and ensuring 
that this economy works for everyone. Her expertise and leadership will 
guide this Administration and Congress in formulating the policies that 
can help revive our economy so that it works for all Americans.
    And both she and Congresswoman Fudge will look at how we can 
protect families from climate change, while seizing opportunities to 
create new jobs, advance environmental justice, and grow new 
industries. Making our homes and communities more energy efficient 
isn't just necessary for our future--it's the kind of investment that 
will put people to work at jobs that can't be outsourced, and will spur 
new economic growth.
    We know we face great challenges. These are extraordinary times 
that call for us to aim higher and think bigger, to deliver real 
results that make a difference in people's lives.
    I look forward to hearing how each of you will help chart the 
course out of this pandemic and build a brighter future in the years 
ahead.
    I have a number of letters of support that I would ask unanimous 
support to submit for the record.
                                 ______
                                 
                 PREPARED STATEMENT OF MARCIA L. FUDGE
      To Be Secretary, Department of Housing and Urban Development
                            January 28, 2021
    I thank President Biden for nominating me to serve as the 18th 
Secretary of Housing and Urban Development and will do everything 
possible to ensure that every American has a roof over their head.
    The housing issues our Nation faces are real, varied, and touch all 
of us. I am a strong believer in the Department's programs and its 
mission--especially with regard to serving those who face the greatest 
need.
    Senators, I have dedicated my entire life to public service and to 
working to help low-income families, seniors, and communities. I 
believe I am up to the challenge that is before me.
    As mayor of Warrensville Heights, Ohio I saw firsthand the need for 
economic development and affordable housing. We improved the city's tax 
base and expanded affordable housing opportunities. As a Member of 
Congress, I tackled the unique challenges of my district, working with 
my delegation and across the aisle.
    Our housing issues do not fit into a cookie-cutter mold--and I know 
that the same is true in each of your States. We need policies and 
programs that can adapt to meet your unique housing challenges, and I 
would very much like to work with each of you to find the right answers 
for your States.
    It bears mentioning, particularly in this moment of crisis, that 
HUD--perhaps more than any other department--exists to serve the most 
vulnerable people in America. That mandate matters a great deal to me. 
It is consistent with my own values, and it is precisely what has 
always motivated me to service.
    It's estimated that, on any given night in 2019, more than half a 
million people experienced homelessness in America. That's a 
devastating statistic--even before you consider the reality of what 
COVID-19 has done to exacerbate the crisis.
    According to one study, 21 million Americans currently pay more 
than 30 percent of their income on housing. Because of lost income and 
unemployment due to COVID, 1 in 5 renters and 1 in 10 homeowners with a 
mortgage are behind on their housing payments.
    Native housing is also in a crisis, with far too many families 
living in substandard and crowded housing conditions on reservations.
    Although Congress provided $25 billion in rental assistance and the 
CDC extended the eviction moratorium, this is not enough at a time when 
tens of millions of Americans are behind on rent; almost 3 million 
homeowners are currently in forbearance; and another 800,000 borrowers 
are delinquent.
    Much like COVID-19, the housing crisis isn't isolated by geography. 
It is the daily reality for tens of millions of our fellow Americans--
people in blue States and red States, in cities and small towns.
    My first priority as Secretary would be to alleviate that crisis 
and get people the support they need to come back from the edge.
    We need to expand resources for HUD's programs to people who are 
eligible. Today, according to a 2017 study, only 1 out of 5 eligible 
households receive housing assistance.
    We need to deliver on the Administration's commitments on improving 
the quality, safety, and accessibility of affordable housing and 
building 1.5 million new affordable homes.
    We need to make the dream of home ownership--and the security and 
wealth creation that comes with it--a reality for more Americans. That 
will require us to end discriminatory practices in the housing market, 
and ensure that our fair housing rules are doing what they are supposed 
to do: opening the door for families, especially families of color who 
have been systematically kept out in the cold across generations, to 
buy homes and punch their ticket to the middle class.
    There are so many issues we need to come together to address--
everything from bringing capital back to disinvested communities, to 
increasing energy efficiency in housing, to dealing with the dangers of 
lead-based paint, to taking on our crisis of homelessness with 
compassion and resolve.
    These are only some of the challenges--and I know that many of you 
have additional priorities as well. These problems are urgent, but they 
are not beyond our capacity to solve.
    The only way we will meet them is by working together. And to that 
end, I pledge this: if I have the honor of being confirmed, I will be 
accessible to you, I will listen to you, and I will be a partner to you 
to solve the housing challenges your constituents are facing back home.
    I expect you to hold me accountable along the way--I welcome that 
accountability.
    And I will always strive to be a transparent and good-faith partner 
as we work together to do the vitally important work we're all here to 
do: helping families in need.
    Thank you, and I look forward to your questions.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                 PREPARED STATEMENT OF CECILIA E. ROUSE
               To Be Chair, Council of Economic Advisers
                            January 28, 2021
    Chairman Crapo, incoming Chairman Brown, incoming Ranking Member 
Toomey, and Members of the Committee, it is an honor to appear before 
you.
    My path here today began in the early 1980s, during what was--at 
the time--one of the worst spikes in unemployment our country had 
experienced since the 1930s.
    I was a freshman in college, taking my first economics class. I was 
there because my wise mother had told me to take an econ class. But it 
was really unemployment that piqued my interest, when I could see how 
classroom material could be applied to the world outside and the 
millions who were experiencing in real time the effects of a struggling 
economy.
    I was drawn to the discipline because I wanted to know why this was 
happening. Why had jobs disappeared--and what could be done to bring 
them back? I focused my work on the labor market, and in particular on 
the impact of education on people's job prospects, ways to tear down 
barriers to job growth, and policies to make it possible for more 
people to achieve long-lasting economic security. Since then, I have 
had the honor of working on these important issues in academia and the 
public sector.
    Today our country is living through the worst economic crisis since 
the Great Depression. Millions of families have had their lives turned 
upside down, the economic security they've worked so hard to build 
eroded almost overnight by the economic impact of the pandemic. Far too 
many have slipped through our frayed safety net into hardship and 
hopelessness. And structural inequities that have always existed within 
our economy have not just been exposed, but exacerbated, their impact 
more devastating than ever before.
    We must take action to shepherd our Nation's economy back onto 
solid footing. But as deeply distressing as this pandemic and economic 
fallout have been, it is also an opportunity to rebuild the economy 
better than it was before--making it work for everyone by increasing 
the availability of fulfilling jobs and leaving no one vulnerable to 
falling through the cracks.
    President Biden and Vice President Harris have made these the core 
values of their Build Back Better agenda. If confirmed, my job will be 
to provide them with objective economic guidance--recommendations 
rooted in fact and evidence--to help them achieve those important 
goals.
    As important as it is for the CEA to interpret and translate data 
and academic research, it is also vital that we utilize the right data. 
Too often economists focus on average outcomes, instead of examining a 
range of outcomes. As a result, our analyses tell us about average 
economic growth and the middle of the distribution--but as our economy 
grows more and more unequal, that analysis fails to capture the 
experience of the many people who are left behind, particularly people 
of color. Therefore, one of my priorities as Chair will be to try to 
understand how policies will impact all those in our country as we 
strive to ensure the economy works for everyone.
    Equally important is having analysis conducted by economists who 
specialize in a variety of fields. If confirmed, I will staff the CEA 
with a well-rounded team ready to address the incredible breadth of 
challenges we face.
    To close, I am honored to be nominated for this position. It would 
allow me to work on issues close to my heart and so critical in this 
current crisis. A good-paying, fulfilling job has always been the key 
to building economic security. Today, we are seeing the immense pain 
caused when our economy fails to fulfill that promise. But I believe 
there is much we can do to strengthen the position of everyone across 
this incredible country of ours.
    If confirmed I will work closely with you on these important 
priorities. And I will do so regardless of your party affiliation, your 
approach to various policies, or your opinion of the Administration's 
efforts. Economists are trained to gather and analyze information and 
consider innovative perspectives. That is how I will approach this job. 
And my door will always be open.
    With that, I am happy to take your questions.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN CRAPO
                      FROM MARCIA L. FUDGE

Q.1. The Trump administration recognized that land-use 
restrictions and other regulatory barriers reduce and delay 
development, increase construction costs, and limit the supply 
of affordable homes. They launched an interagency council to 
assess and eliminate such barriers--the most recent in many 
efforts over the years, by both Democratic and Republican 
administrations, to identify and reduce restrictive zoning and 
unnecessary housing regulations. More recently, HUD published a 
final report laying out ways in which the Federal Government 
can encourage and support jurisdictions to increase housing 
supply across income levels.
    To break down barriers to affordable housing development, 
will you continue this work to address land-use restrictions 
and other regulatory barriers?

A.1. As a former Mayor, I know that land-use regulations and 
most regulatory barriers are a matter of State and local 
policy. HUD and other Federal agencies can play a role in 
providing research and best practices for State and local 
governments to consider when they are exploring ways to reduce 
the costs and barriers that prevent the development of 
affordable housing. We can also look at how Federal programs 
and requirements contribute to increasing the costs or 
preventing the development of affordable housing and see if 
there are better ways to balance the goals of those other 
programs and rules against the need for affordable housing. If 
confirmed, I look forward to learning more about the work HUD 
has supported in the past and building off that work.

Q.2. The HUD-Veterans Affairs Supportive Housing (HUD-VASH) 
program combines HUD Housing Choice Voucher (HCV) rental 
assistance with clinical services and case management provided 
by the Veterans Affairs Department. The HUD-VASH program plays 
a significant role in our Nation's efforts to end veterans' 
homelessness.
    If confirmed, will you continue to support this program and 
work with members to assist the unique needs of our veterans?

A.2. Yes. The HUD-VASH program's success is rooted in a strong 
HUD and VA partnership both in Washington, DC, and through 
local collaborative efforts throughout the Nation. If 
confirmed, I will work with the VA to continue to support this 
program and work with members to ensure that the program 
continues to meet the needs of our homeless veterans.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                      FROM MARCIA L. FUDGE

Q.1. Between 2009 and 2018, HUD staffing fell by 19 percent. 
For the Office of Fair Housing and Equal Opportunity--the 
office charged with overseeing Fair Housing Act compliance--
staff has declined more than 30 percent. How will you work to 
rebuild HUD's workforce so that it can fulfill its mission?

A.1. Recruiting and retaining the best talent is imperative to 
rebuilding HUD's workforce and fulfilling its mission. The 
Office of Administration has taken immediate steps to increase 
HUD's hiring capacity, almost doubling hiring from 2019 to 
2020.
    Simultaneously, the Office of Administration has also begun 
to redesign the hiring process, developing a new hiring 
blueprint that reduced the number of steps to hire a new 
employee by up to 75 percent. This blueprint provides the 
roadmap for HUD to create the best-in-class hiring process and 
outcomes in the Federal Government. The Office of 
Administration is focused on continuing these efforts to 
improve not only the Department's hiring capability, but the 
capability to recruit, train, and retain a strong, stable 
workforce. The Office of Administration will also closely 
assess, and support staffing needs in important HUD offices 
like the Office of Fair Housing and Equal Opportunity, where 
the historical data shows above average staffing attrition.

Q.2. Where have you excelled in hiring and promoting people of 
color in your Congressional office and in previous jobs?

A.2. Something I pride myself on is not just hiring a diverse 
staff but elevating and promoting them accordingly. 
Understanding that I represent a diverse community, it has 
always been important to me that my staff reflects the 
demographic of my constituents. In addition to diverse hiring 
practices, I have been able to cultivate teams where diversity 
is reflected amongst leadership positions in my offices. Each 
of my Chiefs of Staff over the last 12 years have been Black 
women. Three of my six Legislative Directors have been people 
of color, and four of my Legislative Assistants were people of 
color that began their service as interns in my office and were 
promoted over time. I not only look forward to promoting staff 
internally, but, when the time comes, assisting them to the 
best of my ability in their next venture.

Q.3. In August 2011, President Obama issued an Executive order 
establishing a coordinated, governmentwide initiative to 
promote diversity, equity, and inclusion (DEI) in the Federal 
workforce. The Executive order reads, in part, that ``Attaining 
a diverse, qualified workforce is one of the cornerstones of 
the merit-based civil service . . . To realize more fully the 
goal of using the talents of all segments of society, the 
Federal Government must continue to challenge itself to enhance 
its ability to recruit, hire, promote, and retain a more 
diverse workforce. Further, the Federal Government must create 
a culture that encourages collaboration, flexibility, and 
fairness to enable individuals to participate to their full 
potential.'' The order required each agency to establish an 
agency-specific diversity, equity, and inclusion strategic plan 
with specific objectives.
    Please describe your commitment to diverse hiring at HUD. 
Will you establish a HUD-specific diversity, equity, and 
inclusion strategic plan with specific objectives?

A.3. I am fully committed to establishing a diverse workforce 
at HUD. I will work with HUD's Office of Departmental Equal 
Employment Opportunity and the Office of Administration to 
promote equal opportunity and identify and eliminate any 
discriminatory practices and policies. I will ensure that we 
have a diversified workforce through systematic training of HUD 
employees, monitoring our employment policies for any 
discriminatory impact, and ensuring that our senior leadership 
are evaluated in terms of their commitments to diversity, 
equity, and inclusion. I will also work diligently in 
furtherance of President Biden's instructions to the head of 
each agency, including Executive Order 13985 on ``Advancing 
Racial Equity and Support for Underserved Communities Through 
the Federal Government'' and Executive Order 13988 on 
``Preventing and Combating Discrimination on the Basis of 
Gender Identity or Sexual Orientation''.

Q.4. Will you commit to establishing a system for reporting 
regularly on HUD's progress in implementing an agency-specific 
diversity, equity, and inclusion strategic plan and in meeting 
the objectives under the plan?

A.4. I will ensure HUD employment practices are monitored and 
evaluated on the basis of diversity, equity, and inclusion, and 
I will direct HUD's Director of the Office of Departmental 
Equal Employment Opportunity and HUD's head of Administration 
to meet regularly with my office to report on our diversity, 
equity, and inclusion strategic plan. I will review HUD's 
current Inclusive Diversity Strategic plan and ask HUD's Office 
of Diversity and Inclusion to revise it to align with the 
vision laid out by President Biden and my track record.

Q.5. Will you commit to implementing and requiring diversity, 
equity, and inclusion training for all employees within your 
purview? What is your plan for implementing these trainings?

A.5. I will direct leadership of the Office of Departmental 
Equal Employment Opportunity, the Office of Administration, and 
the Office of General Counsel to work with HUD's Office of 
Diversity & Inclusion to deliver diversity-oriented events and 
activities, specifically, DEI trainings and cross-cultural 
workshops for the entire workforce.

Q.6. Will you commit to implementing and requiring implicit 
bias training for managers within your purview? What is your 
plan for implementing these trainings?

A.6. Yes, I will. And it is my understanding that HUD has begun 
these trainings and plans to virtually host implicit bias 
training to staff throughout headquarters and field offices. I 
will direct leadership of the Office of Departmental Equal 
Employment Opportunity, the Office of Administration, and the 
Office of General Counsel to analyze the content of these 
trainings and continue to strengthen them during my tenure at 
HUD.

Q.7. Please list at least 3 specific priorities for advancing 
racial equity, diversity, and inclusion at HUD. What specific 
measures will you use to evaluate success in these areas, and 
over what period of time?

A.7. As I stated in my testimony, advancing racial equity, 
diversity, and inclusion is a top priority for me in all things 
including as, if confirmed, HUD secretary.
    First, I will help reenergize staff morale and internal 
dedication to DEI efforts. This will begin immediately through 
my senior leadership team and will continue throughout my 
tenure as I evaluate what is currently in place and work with 
HUD staff to strengthen these efforts.
    Second, I will reinvigorate HUD's enforcement of the Fair 
Housing Act to combat discriminatory practices that prevent too 
many people from having equal access to housing. This will 
include addressing the previous Administration's rules 
regarding Affirmatively Furthering Fair Housing and disparate 
impact. President Biden's Executive orders direct HUD to 
evaluate the impact of both rules and the appropriate measures 
to take in response as swiftly as is practicable, and I would 
take immediate steps to do so. I will also direct HUD's Office 
of Fair Housing and Equal Opportunity to enforce the Fair 
Housing Act in a manner consistent with the President's 
directive to eliminate bias in the housing market and ensure 
equal housing opportunities for all.
    Finally, we know that there are a disproportionate number 
of people of color, people with disabilities, and LGBTQ people 
among those experiencing homelessness. I am committed to 
advancing policies and practices that reduce homelessness among 
this population in all aspects of our work over the course of 
my tenure at HUD.
    It will take both an internal and external approach to 
advancing DEI related to HUD's mission and I am committed to 
both.

Q.8. Please describe how you plan to work with and engage the 
housing and financial services industries to serve Black, 
Indigenous, and People of Color (BIPOC) and dismantle systemic 
racism's impact in those sectors. How, specifically, will you 
hold the industry accountable on these issues? How will you 
accelerate private sector efforts to achieve more inclusive 
leadership?

A.8. The dismantling of decades of racist housing policy and 
business practices will require intention, coordination, and 
serious commitment from inside the Federal Government and from 
the financial services and real estate industries. During my 
hearing I said that this Nation has ``failed to have a holistic 
approach to housing.'' I recognize that housing is a necessity 
for every single American and a critical part of our Nation's 
infrastructure, and HUD is central to that. We have seen 
decades of disinvestment in our housing stock, including in our 
State of Ohio and the 44105 Zip code, and a direct connection 
of that disinvestment to formerly redlined and highly 
segregated areas where Black people live and where poverty is 
concentrated. I plan to work with key housing agencies inside 
the Government on a unified strategy to ensure lenders and 
financial institutions are not leaving BIPOC communities behind 
because of the legacy of racist business practices that have 
excluded these groups for generations. HUD should be included 
in the housing finance reform debate, because we have one 
housing finance system that should be serving all the people 
and the FHA insurance program is the largest provider of 
mortgage credit for BIPOC communities, first time homebuyers, 
and LMI households. I will also work with State and local 
housing agencies who play a critical role in delivering housing 
programs and services, as well as with mayors and governors 
with focus on those communities we know have been inadequately 
invested in. Private industry must be a part of the solution 
because they have been deeply involved in creating the problem. 
After George Floyd was killed this past summer many industry 
leaders, including the Business Roundtable, made strong 
statements and commitments about dismantling racism, changing 
business practices and valuing diversity, equity, and 
inclusion. I intend to hold them accountable to their words 
through their actions.

Q.9. How do you plan on incorporating the views and work of the 
Office of Diversity and Inclusion across the Department?

A.9. I will work with my senior leadership team to explore ways 
to reenergize the Office of Diversity and Inclusion and ensure 
that its mission is embedded in all offices and at all levels 
of the agency. It is important that all staff understand that 
HUD leadership is committed to a healthy work environment that 
values diverse life experiences and viewpoints. My team and I 
will work with ODI to deliver innovative trainings, strengthen 
recruitment practices, and implement best practices for overall 
staff management, which includes creating an open work 
environment where people at every level have a voice in the 
development of HUD programs and policies. My approach is to 
hear from everyone--that's what makes us all grow stronger, 
together, and I intend to bring that approach to HUD.

Q.10. HUD has advisory councils and committees comprised of 
industry leaders, academics, nonprofits, and other 
stakeholders. They serve as volunteers but have significant 
influence being appointed by and working closely with you. How 
will HUD include more diverse advisors on these councils and 
committees, and over what period of time?

A.10. If confirmed, I will work diligently to seek out diverse 
participants in HUD's councils and committees, and will do so 
in light of President Biden's instructions to the head of each 
agency, including Executive Order 13985 on ``Advancing Racial 
Equity and Support for Underserved Communities Through the 
Federal Government'' and Executive Order 13988 on ``Preventing 
and Combating Discrimination on the Basis of Gender Identity or 
Sexual Orientation''.

Q.11. A department's budget reflects its values and goals. How 
do you plan to allocate and sufficiently resource internal and 
external efforts to advance DEI as part of the agency's annual 
budget process? How will you ensure sufficient financial 
support for the agency-specific diversity, equity, and 
inclusion strategic plan to ensure you are able to meet the 
objectives established under that plan in a reasonable time 
period?

A.11. Diversity, equity, and inclusion are at the core of HUD's 
mission--to create strong, sustainable, inclusive communities 
and quality affordable homes for all. If confirmed, I will 
request sufficient staff resources so that the Department can 
fully execute its mission and partner with our grantees to 
enhance their capacity. I will have a DEI plan for the 
Department and hold leaders across the agency accountable for 
meeting it. Without adequate resources, for example, the 
Department cannot effectively enforce fair housing law and 
ensure that tenants are in safe, sanitary, and decent housing. 
As I said in my testimony, we need to expand resources for 
HUD's rental assistance and home ownership programs to all 
people who are eligible. Too often those who experience the 
worst outcomes from housing instability are people of color. 
Black, Latino, Native American, and Asian people are all over-
represented among people experiencing homelessness. For 
example, HUD data indicates that 40 percent of people 
experiencing homelessness are Black, when Black people only 
make up 13 percent of the general population. Deepening the 
resources available to serve more eligible people is an 
investment in diverse, equitable, and inclusive communities. 
And within the resources that Congress provides, I look forward 
to working with you and other partners to find ways that we can 
prioritize and expand diversity, equity, and inclusion. And 
finally, if confirmed, if there are statutory improvements 
required to advance these aims, I will rely on your partnership 
to change the laws where appropriate.

Q.12. Please describe how you view the role of the Secretary of 
the Department of Housing and Urban Development in 
appropriately serving BIPOC. How do you view HUD's role in 
furthering racial equity?

A.12. As I stated in my testimony, HUD and its programs are 
central to furthering racial equity, particularly for people 
with low- and moderate-incomes. Home ownership is a key ticket 
to the middle class but has historically been denied to BIPOC 
because of racism and discrimination. I plan to evaluate new 
ways HUD can help BIPOC and other marginalized populations 
afford to purchase a home and build family wealth, including 
through encouraging lenders to expand their reach into BIPOC 
communities.
    Renters should also have the opportunity to grow their 
incomes and build savings. I, like the President, am committed 
to expanding access to Federal rental assistance and improving 
program implementation so that people have true choice in where 
they live. Too often BIPOC who receive assistance are 
segregated into communities that have experienced under or 
disinvestment by local leaders. I am committed to investing in 
local communities so that all people have access to strong 
schools, healthy housing, and strong community support 
services.

Q.13. What are some short- and long-term strategies for 
addressing housing inequality and the racial and ethnic home 
ownership gap that you will pursue at HUD?

A.13. Reducing the racial home ownership and wealth gaps that 
have persisted for decades will be a priority if I am 
confirmed. Facts will be our guide, and I will collect and 
review the evidence and work to remove harmful legacy policies 
that have contributed to the gaps. Short term, I will ensure 
that the FHA continues to be a consistent source of credit 
supporting home ownership for BIPOC households, and work across 
the housing system to promote and advocate for policy changes 
that help break down barriers to help more families purchase 
their first home. I also want to see a healthier flow of 
financing to low-cost housing markets, like those in and around 
Cleveland, where smaller mortgage loans could help families get 
started on the path to home ownership. One way to do that will 
be to expand the footprint of lending institutions that do FHA 
lending, especially large national and regional banks that have 
pulled back in recent years. Strengthening HUD's housing 
counseling network and programs to help renters who are ready 
to become homeowners prepare will be a key focus, as will 
making sure our counseling services are reaching the 
communities that need it most. We will take a comprehensive 
approach to creating and improving downpayment assistance 
programs to help those families who need Federal support in 
order to buy their first home because they do not have access 
to savings or parents whose wealth can transfer to help. I will 
also work to broaden and improve our Nation's affordable 
housing stock, including finding ways to expand factory built 
and manufactured housing as an affordable housing solution for 
suburban and rural areas.

Q.14. What specific measures will you use to evaluate HUD's 
success in understanding and addressing the needs of BIPOC? 
Will you regularly report to Congress on the progress being 
made on these measures?

A.14. Yes, I look forward to working with Congress on this 
particular issue and welcome an ongoing conversation on HUD's 
progress. As stated in my testimony, first and foremost we must 
prevent evictions, foreclosures, and homelessness due to the 
pandemic and economic crisis which has disproportionately 
impacted BIPOC. We also need to improve home ownership for 
BIPOC. I plan to look for ways to implement downpayment 
assistance for families and apply an equity lens to loan 
qualification criteria and appraisals, among other strategies. 
I also believe expanding access to rental assistance given the 
role it can play in reducing poverty among BIPOC should be a 
high priority and will be a measure of HUD's success. There are 
a myriad of additional ways HUD's policies and programs can 
address the needs of BIPOC, such as redoubling efforts to 
advance fair housing policy. I plan to work with HUD staff and 
my leadership team to lift up these opportunities and work with 
HUD's Office of Policy Development and Research to measure our 
success.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TOOMEY
                      FROM MARCIA L. FUDGE

Q.1. Disparate Impact--I appreciate hearing you commit during 
your hearing to following the law in any potential revisions to 
HUD's disparate impact regulations, including the Supreme 
Court's 2015 decision Texas Department of Housing and Community 
Affairs v. Inclusive Communities. Will you commit that any 
revisions to HUD's disparate impact rule will follow the 
Supreme Court's dictate in Inclusive Communities that 
``disparate-impact liability [should not] be so expansive as to 
inject racial considerations into every housing decision'' or 
cause courts ``to second-guess'' between ``two reasonable 
approaches?''

A.1. As I testified during my hearing, I am fully committed to 
ensuring that any actions HUD takes related to disparate impact 
are consistent with the Supreme Court's ruling in Texas 
Department of Housing and Community Affairs v. Inclusive 
Communities. I understand that businesses subject to Fair 
Housing Act requirements are concerned about potential 
liability and potentially meritless litigation, just as 
individuals protected by the Fair Housing Act need meaningful 
access to the courts to ensure they are protected from 
intentional and unintentional discrimination.

Q.2. Will you commit that any revisions to HUD's disparate 
impact rule will follow the Supreme Court's dictate in 
Inclusive Communities that ``disparate impact liability must be 
limited so employers [can] make . . . practical business 
choices and profit-related decisions [to] sustain a vibrant and 
dynamic free-enterprise system?''

A.2. As noted in my answer to Question 1 above, I am committed 
to ensuring that any revisions to HUD's disparate impact rule 
will be consistent with the Supreme Court's ruling in Texas 
Department of Housing and Community Affairs v. Inclusive 
Communities. I will commit to considering all aspects of the 
Supreme Court's opinion during any rulemaking process.

Q.3. Will you commit that any revisions to HUD's disparate 
impact rule will follow the Supreme Court's dictate in 
Inclusive Communities to have ``adequate safeguards'' for 
defendants at the prima facie (pleading) stage so ``race [is 
not] used and considered in a pervasive way [that] would almost 
inexorably lead governmental or private entities to use 
numerical quotas . . . ?''

A.3. As noted in my answers to Questions 1 and 2 above, I am 
committed to ensuring that any revisions to HUD's disparate 
impact rule will be consistent with the Supreme Court's ruling 
in Texas Department of Housing and Community Affairs v. 
Inclusive Communities. I will commit to considering all aspects 
of the Supreme Court's opinion during any rulemaking process.

Q.4. Will you commit that any revisions to HUD's disparate 
impact rule will follow the Supreme Court's dictate in 
Inclusive Communities to have ``robust causality'' between the 
defendant's actions and the harm to a protected class so that 
defendants will not be held liable for racial disparities they 
did not create?

A.4. As noted in my answer to Questions 1, 2, and 3 above, I am 
committed to ensuring that any revisions to HUD's disparate 
impact rule will be consistent with the Supreme Court's ruling 
in Texas Department of Housing and Community Affairs v. 
Inclusive Communities. I will commit to considering all aspects 
of Supreme Court's opinion during any rulemaking process.

Q.5. Will you commit that any revisions to HUD's disparate 
impact rule will follow the Supreme Court's dictate in 
Inclusive Communities to focus on removing ``artificial, 
arbitrary, and unnecessary barrier[s]'' to housing?

A.5. As noted in my answer to Questions 1 through 4 above, I am 
committed to ensuring that any revisions to HUD's disparate 
impact rule will be consistent with the Supreme Court's ruling 
in Texas Department of Housing and Community Affairs v. 
Inclusive Communities. I will commit to considering all aspects 
of the Supreme Court's opinion during any rulemaking process.

Q.6. AFFH--Is ever it appropriate for HUD to tell localities 
how to conduct their education, transportation, or 
environmental policy? If so, under what circumstances?

A.6. HUD-administered funds, particularly Community Development 
Block Grant Funds, are often used by localities to fund many 
activities in a community. Those activities may relate in some 
respect to education, transportation, or environmental justice. 
If a locality is covered by any of the laws that HUD 
administers, I understand that it is HUD's duty to work with 
the locality to achieve compliance with any applicable 
statutes. Given my experience working in local government, I 
understand and respect localities' legitimate desire for 
flexibility in how they comply with Federal law.

Q.7. Is it ever appropriate for HUD to tell localities 
precisely where to place new housing? If so, under what 
circumstances?

A.7. Based on my understanding of the Fair Housing Act, a 
locality may not refuse to permit housing to be built in a 
particular location for a discriminatory reason. If the 
evidence showed that such discrimination had occurred, it would 
be appropriate for HUD or the Department of Justice to seek a 
remedy for the discrimination, either through voluntary means 
or through a lawsuit.

Q.8. We may disagree about what the content of a final AFFH 
rulemaking should look like, but I hope we agree that the 
outcome should come from a process that maximized stakeholder 
input. Will you commit that before making any revisions to 
HUD's AFFH regulations, you will receive extensive community 
and stakeholder input on any potential revisions, including how 
HUD's AFFH rule can respect local autonomy and avoid overly 
burdening localities?

A.8. HUD will seek community and stakeholder input in the 
development of any revision to the AFFH rule.

Q.9. Will you consider the possibility of tailoring the AFFH 
process to meet the unique nature of public housing agencies 
(PHAs), including by exempting PHAs altogether from having to 
undergo a separate AFFH process?

A.9. I will commit to giving very careful consideration to all 
options relating to the AFFH process and will carefully 
consider the burdens that an AFFH process may place on public 
housing agencies.

Q.10. Barriers to Affordable Housing--HUD just released a 
report ``Eliminating Regulatory Barriers to Affordable Housing: 
Federal, State, Local, and Tribal Opportunities'', which 
``identifies many Federal regulations and practices that could 
be revised to eliminate unnecessary burdens to providing 
Americans with affordable, safe, quality places to live, 
including opportunities to make sustainable home ownership more 
achievable.'' \1\ Which of the report's recommendations do you 
agree with?
---------------------------------------------------------------------------
     \1\ https://www.huduser.gov/portal/portal/sites/default/files/pdf/
eliminating-regulatory-barriers-to-affordable-housing.pdf at ix.

A.10. As you noted, this report was just published on January 
19th. I understand that there is also forthcoming research on 
this same topic in HUD's Research Journal Cityscape. If 
confirmed, I look forward to discussing the breadth of the 
recent research on this topic with Congress, other Federal 
agency leaders, HUD staff, the research community, and those 
most impacted by these regulatory barriers to determine an 
---------------------------------------------------------------------------
appropriate role for HUD and the Federal Government.

Q.11. Pilot Projects--In recent years, HUD has started some 
important pilot programs to study the effectiveness of Housing 
Choice Vouchers and to try to improve them for beneficiaries. 
Would you be open to additional pilots? If so, what kinds of 
pilots?

A.11. Yes, I am open to conducting pilots on the HCV program 
especially as we also work to increase access to vouchers for 
low-income families. The HCV program is the Nation's largest 
rental assistance program serving over two million families. 
However, as stated in my testimony, it only reaches 1 in 5 
eligible households due to funding limitations. It is critical 
that HUD continues to study the effectiveness of the program to 
make improvements for our families, landlords, and public 
housing agencies. Some of the pilots may include activities 
such as improving safety inspections and housing modifications; 
promoting interventions that reduce segregation of families 
receiving assistance in disinvested communities and improve 
housing choice; developing innovative practices that assist 
disabled families, homeless families, youth aging out of foster 
care, and other people who face additional barriers to 
accessing housing; and implementing strategies that increase 
landlords' willingness to accept voucher recipients.

Q.12. Ensuring That HUD Assistance Is Not for a ``Lifetime''--I 
appreciated your comment that ``public housing or low income 
housing should not be [for] a lifetime'' but ``just a stopping 
point.'' What do you intend to do during your time as HUD 
Secretary to advance that goal?

A.12. Shortening tenancy requires a two-part strategy: 
increasing the supply of affordable housing and helping people 
increase their incomes. We need to produce more housing in 
every community that is affordable for people with low incomes. 
Housing affordability studies show that no State in the country 
has an adequate supply of affordable housing. HUD plays a key 
role in affordable housing supply along with the Treasury 
Department and USDA. If confirmed, I will work with Secretaries 
Yellen and Vilsack to increase the number of affordable housing 
units.
    Second, we need to increase tenant incomes by raising wages 
and helping people connect to education, training, and other 
services that can help improve their economic circumstances. 
While these issues are outside of HUD's direct 
responsibilities, I will partner with my colleagues to examine 
all the ways we can increase people's incomes to help them 
afford a safe place to call home.

Q.13. Do you support expanding the number of Moving to Work 
(MTW) jurisdictions to allow more communities to experiment on 
how to make that a reality?

A.13. As you know, the Fiscal Year 2016 Appropriations Act 
authorized HUD to expand the MTW demonstration program from the 
39 PHAs in the program to an additional 100 PHAs over a period 
of 7 years. In 2020, HUD finalized the Operations Notice for 
the MTW demonstration program expansion, which established 
requirements for the implementation and operations of the MTW 
expansion pursuant to the 2016 statute. HUD added 30 new PHAs 
to the MTW Program in January 2021, with plans to increase to 
the full 100 expansion MTW agencies through 2022. If confirmed, 
I am committed to working with the Congress as HUD follows 
through on its requirements under the 2016 Act.

Q.14. Would you consider expanding MTW to allow defined-stay 
tenancy for new tenants (time limits) in exchange for a set 
rent that won't increase with income?

A.14. One of the key aspects of the MTW Expansion is HUD's 
commitment to engage in structured research and analysis on 
specific flexibilities offered to PHAs under the original 
authorizing statute, including but not limited to tenancy 
issues such as those your question suggests, in order to 
provide HUD sound basis for future policy decisions. I am 
committed to working with Congress as we study MTW 
flexibilities going forward and work to determine policy and 
practices that best serve residents of federally assisted 
housing with the resources available to us.

Q.15. CDBG Reforms--Will you commit to evaluating whether the 
CDBG program formula allocates too much money to wealthier 
areas, at the expense of funding poorer and more rural areas? 
If so, will you consider CDBG reforms that could address this 
issue?

A.15. If confirmed, I will review past efforts to make changes 
to the CDBG funding formula. I look forward to discussing with 
members of Congress what further evaluation efforts are needed 
to inform improvements to the formula targeting.

Q.16. Will you commit to evaluating whether the CDBG program 
insufficiently prioritizes the building of affordable housing 
because of other allowable uses for CDBG dollars? If so, will 
you consider CDBG reforms that could address this issue?

A.16. If confirmed, I look forward to working with the HUD 
staff and CDBG grantees to better understand how and why 
grantees prioritize different community development activities 
to meet their local program objectives. As a former mayor, I 
appreciated that CDBG was not focused solely on housing. The 
CDBG program has a community development approach, with a 
broad, statutory goal of providing decent housing, a suitable 
living environment, and economic opportunity, principally for 
low- and moderate-income persons. HUD, as you know, has other 
programs, like the HOME program, that are specifically targeted 
to housing. I am committed to reviewing how the Department's 
programs work together to produce affordable housing.

Q.17. Will you consider the possibility of supporting reforms 
that could leverage existing CDBG dollars to reward grantees 
that increase their housing stock, in order to improve housing 
affordability?

A.17. With just 1 in 5 renters who qualify for HUD rental 
assistance receiving it, and millions of very low-income 
renters paying more than half their income for rent, there is a 
pressing need to ensure that, in addition to housing subsidies, 
there is an adequate supply of affordable housing. CDBG plays 
an important role in preserving housing stock through 
rehabilitation while the HOME program, Low Income Housing Tax 
Credit, Public Housing, the Housing Choice Voucher, and Project 
Based Rental Assistance programs support creation and long-term 
subsidy needed for creating and preserving affordable housing. 
If confirmed, I look forward to identifying local challenges 
with creating affordable housing and discussing with the 
Congress what policy tools, including incentives such as how 
much CDBG funding a community receives, might be used to 
support the creation of decent, safe, and affordable housing 
for all Americans.

Q.18. CDBG-DR Reforms--What are appropriate guardrails to enact 
in any potential permanent authorization to HUD's CDBG-DR 
program to ensure that disaster relief reaches a community 
swiftly but in a manner that minimizes fraud?

A.18. HUD has and will continue to provide technical drafting 
services for the various CDBG-DR authorization proposals under 
consideration. As I said during my testimony, I support a 
permanent authorization and look forward to working with 
Congress to ensure that HUD is a good steward of Federal funds 
by expediting recovery activities while ensuring appropriate 
oversight.

Q.19. What are appropriate guardrails to enact in any potential 
permanent authorization to HUD's CDBG-DR program to eliminate 
any potential duplication of benefit?

A.19. HUD has and will continue to provide technical drafting 
services for the various CDBG-DR authorization proposals under 
consideration. As I said during my testimony, I support a 
permanent authorization and look forward to working with 
Congress to ensure that HUD's role in disaster recovery is 
complimentary of SBA, FEMA, and other programs and fills 
critical gaps in recovery, especially by focusing on the most 
vulnerable.

Q.20. Environmental Regulations--Regarding HUD's environmental 
regulations that govern assisted programs, how will you balance 
the need to protect the environment with the need to limit the 
cost of building new affordable housing?

A.20. The history of redlining, urban renewal, and other 
policies have forced too many families, especially poor people 
of color, to live in undesirable areas. Many studies have shown 
the disproportionate impact that our country's contaminated 
sites have had on low-income housing. Having a roof over your 
head and being safe from harm should not be competing choices. 
That's why it's absolutely critical that HUD's mission is to 
create safe, decent, and affordable homes for all.

Q.21. DPA--Downpayments for homes increase a lender's 
confidence that the borrower is a good credit risk. They also 
ensure the borrower has ``skin in the game.'' That's why 
lenders often require a 20 percent downpayment. Put another 
way, the downpayment protects both the lender and the borrower. 
But as recently noted by HUD in its FY20 Report on the Mutual 
Mortgage Insurance (MMI) Fund, when FHA borrowers secure 
downpayment assistance (DPA)--in effect undermining the reason 
for requiring even a minimal downpayment--serious delinquency 
rates are over 25 percent higher than FHA loans where no DPA 
was provided. \2\ Early payment default rates for DPA loans 
exceeded non-DPA loans by about 60 percent prior to FY20. \3\
---------------------------------------------------------------------------
     \2\ See FY20 MMI Report at 30.
     \3\ See id. at 39.
---------------------------------------------------------------------------
    You testified that you will explore ways to increase DPA 
for more borrowers. How do you intend to do that?

A.21. There are hundreds of downpayment assistance programs 
available nationwide and all DPA programs are not created 
equal. If confirmed, I intend to review the current DPA 
programs primarily used with FHA loans, and assess the 
viability, risks, and benefits of each, as well as performance 
data. We will work together with the Administration to find 
ways to streamline, improve, and expand DPA programs to help 
credit worthy households that need assistance to get over the 
downpayment hurdle have options to buy their first home.

Q.22. Only 3 years after HUD's establishment, Congress 
authorized FHA to insure loans with nominal downpayment 
requirements and substantially below-market interest rates 
through the decidedly unsuccessful 235 program, which cost 
taxpayers billions in losses and led to many foreclosures. 
Should you decide to support more DPA programs where borrowers 
may have little or no money down for their home purchases, what 
will you do differently to prevent FHA from insuring borrowers 
not ready for home ownership?

A.22. If confirmed, I intend to find ways to bring more 
efficiency to DPA programs and low-downpayment lending, and I 
will work to ensure that people are given safe, appropriately 
priced loans and they have the ability to repay. I will always 
stand behind making sure loans are sustainable and homeowners 
are put in the best position to succeed and build wealth.

Q.23. How will you concurrently make sure borrowers with DPA do 
not perform significantly worse than borrowers without DPA?

A.23. Certainly, FHA will need to look at the performance of 
mortgages by downpayment assistance type, the risk to the 
Mutual Mortgage Insurance Fund, credit qualifications of 
borrowers, and other factors when exploring options for the use 
of downpayment assistance with FHA-insured mortgages.

Q.24. As you consider DPA for borrowers, will you examine and 
report performance metrics of loans with DPA by individual DPA 
providers to ensure they do not perform worse than loans 
without DPA and commit to identifying any corrective measures?

A.24. Yes. As part of FHA's annual report to Congress on the 
MMIF, I plan to continue to review and assess downpayment 
assistance program performance and will make recommendations or 
take corrective action, as appropriate.

Q.25. In what ways can HUD ensure taxpayers do not foot the 
bill for bad credit risks?

A.25. I can assure you that any policy actions we propose will 
only promote insuring safely underwritten mortgages for 
borrowers who are otherwise unable to achieve home ownership 
and will also take into account the risks and costs to the 
Mutual Mortgage Insurance Fund.

Q.26. MIPs--Although the MMI Fund Capital Ratio remained above 
the statutory minimum in FY20 at 6.10 percent (but still below 
that of many private-market lenders), this was primarily due to 
continued and strong house price appreciation (HPA). However, 
as the 2008 economic recession demonstrated, strong HPA is not 
sufficient to shield the MMI Fund from a sudden and severe 
reversal in home prices. If home prices declined again, FHA 
could require another taxpayer bailout. Delinquency rates 
remain alarmingly elevated and Dave Stevens, the former FHA 
Commissioner in the Obama administration, recently admitted 
that ``forbearance numbers in the FHA program are the worst of 
any program in mortgages . . . .'' \4\ A premium reduction 
would sharply reduce the capital buffer and threaten FHA's 
ability to withstand stress caused by potential losses 
resulting from the COVID-19 pandemic and slower growth from 
Government-imposed economic shutdowns. Moreover, few market 
observers think a cut in the MIP would do much to stimulate 
homebuying in a market with tight supply. \5\
---------------------------------------------------------------------------
     \4\ Hanna Lang, ``Biden Administration Likely To Cut FHA Premiums 
Despite Credit Risks'', American Banker (Jan. 28, 2021), https://
www.americanbanker.com/news/biden-administration-likely-to-cut-fha-
premiums-despite-credit-risks.
     \5\ Id.

    Because the health of the MMI Fund continues to be at-risk, 
will you commit to not lowering MIPs during COVID-19 public 
---------------------------------------------------------------------------
health emergency?

A.26. People have lost their incomes and in some cases their 
lives during COVID, and we are prioritizing helping families 
remain safely housed through the pandemic. FHA plays a critical 
role in times of crises such as this, and a priority will be to 
ensure the fund is safe, stable, and sound and that we continue 
to make access to credit available to populations seeking home 
ownership. We have taken actions to keep families housed 
through the pandemic using forbearance, a streamlined loss 
mitigation program, and a foreclosure moratorium in line with 
Federal law. Ultimately, I am fully committed to finding ways 
to make home ownership more affordable and sustainable and to 
advance equity in home ownership opportunity under my watch, 
and we will use facts to drive our decisions and act when it's 
safe to do so.

Q.27. If you do lower MIPs, how will you ensure borrowers will 
see the benefits of such reductions?

A.27. Any considerations relative to changing FHA Mortgage 
Insurance Premiums will need to be in concert with evaluating 
the risk to the Mutual Mortgage Insurance Fund and ensuring 
that there is a quantifiable benefit to the borrower. Interest 
rates remain at historic lows, which naturally help borrower 
mortgage affordability.

Q.28. Do you disagree with Ted Tozer, the former president of 
Ginnie Mae in the Obama administration, that borrowers will not 
``benefit much at all'' as any reduction will be reflected in 
the sale price of homes? \6\
---------------------------------------------------------------------------
     \6\ Id.

A.28. I believe we have to look at the entirety of the 
situation, including market factors, and I will take steps that 
both benefit homebuyers and protect the safety and soundness of 
---------------------------------------------------------------------------
the FHA insurance program.

Q.29. The FY20 Report on the MMI Fund shows that subjecting the 
FY20 portfolio to the same macroeconomic conditions faced 
during the housing crisis would create losses in excess of MMI 
Fund Capital, resulting in the MMI Fund Capital Ratio of -0.63 
percent, below the statutory 2 percent minimum, and requiring a 
bailout.
    Would you consider it a failure if FHA draws funds from the 
Treasury to cover losses, or put more simply, requires a 
bailout?

A.29. I will consider my fiduciary responsibility to prudently 
manage the financial soundness of the Mutual Mortgage Insurance 
Fund as equal to my duty to achieve the statutory goals of the 
National Housing Act to remove home ownership inequities and 
support the housing needs of the Nation's most vulnerable 
populations. However, we are in an unprecedented economic 
disaster as a result of COVID-19, and thus far Congress has not 
provided assurances that it will pass the larger economic 
stimulus proposed by President Biden. While still currently 
unlikely that FHA's capital ratio will dip below the 2 percent 
mandated by Congress, if confirmed, I will direct my staff to 
analyze FHA's current use of its loss mitigation authorities 
and take any actions necessary to ensure those authorities are 
utilized effectively. After taking those steps, should the 
capital ratio fall below 2 percent, will be a temporary 
circumstance incurred by the Federal Government to ensure the 
MMIF remains available to support the individuals and families 
that it is supposed to serve while we endeavor to return the 
ratio to above the statutorily mandated 2 percent.

Q.30. Do you think the MMI Fund as of FY20 has sufficient 
capital reserves?

A.30. The MMIF is currently 3 times above the statutory minimum 
required reserve ratio.

Q.31. Do you think it is inappropriate to build a capital 
buffer able to withstand a shock of the kind experienced during 
the 2008 housing crisis?

A.31. This crisis is very different than the 2008 housing 
crisis thus far, as home prices have not dipped nor do 
borrowers have unsafe or exotic high priced loan types like 
what we saw in the last crisis. Looking at natural disasters as 
a comparison is more appropriate as we think about the capital 
buffer we need to endure future crises.

Q.32. Do you have plans to impose the same climate stress tests 
and climate change regulatory standards on FHA's lending 
portfolio as several Biden administration officials have 
discussed doing for private sector market participants?

A.32. I do believe it is important that FHA's Mutual Mortgage 
Insurance Fund is managed using appropriate modeling and 
``stress testing'' to have an appropriate capital buffer to 
withstand significant economic shock events. Certainly, we will 
continue to evaluate the stress testing we are using and will 
analyze climate change stress testing outcomes for the FHA 
program.

Q.33. Manufactured Housing--The Manufactured Housing Consensus 
Committee (MHCC) is a Federal Advisory Committee statutorily 
authorized to develop and submit to the HUD Secretary 
manufactured home construction and safety standards. The law 
requires the MHCC to ``submit proposed revised standards . . . 
to the [HUD] Secretary in the form of a proposed rule, 
including an economic analysis.'' 42 U.S.C. 5403(a)(4)(A)(ii). 
Accordingly, the MHCC must have resources devoted to developing 
these required economic analyses.
    Will you provide resources that are necessary for the MHCC 
to develop economic analyses to accompany the construction and 
safety standards being considered by the MHCC so that the 
standards are revised to keep up with innovations in the 
market?

A.33. Manufactured Housing is a critical source of unsubsidized 
affordable housing, and as I mentioned in my testimony, I will 
explore more ways to further its use as an affordable housing 
option. As mandated by statute, the Manufactured Housing 
Consensus Committee (MHCC) assists HUD in formulating and 
evaluating its oversight functions of the Manufactured Home 
Construction and Safety Standards. HUD agrees the MHCC should 
have adequate resources necessary to achieve its purpose. HUD 
program office and research staffing resources provide economic 
analysis assistance and HUD's Office of Manufactured Housing 
Programs maintains sufficient contracted resources that conduct 
economic analyses for MHCC recommendations.

Q.34. Rental Assistance--Dean Rouse testified that to put the 
economy on strong economic footing, money appropriated by 
Congress needs to be targeted, smart, and in areas where we 
know the economic benefit outweighs the cost.
    Do you agree that Congressional support needs to be 
targeted so that benefits outweigh costs?
    Is providing housing assistance without confirming 
household need a smart or targeted method of spending 
appropriated dollars?

A.34. If we are both confirmed, I look forward to working with 
Dean Rouse on how we can target the resources Congress provides 
to ensure a solid economic footing for all Americans. As you 
know, HUD plays a critical role by providing rental assistance 
that not only prevents homelessness for millions of Americans. 
HUD's programs have been shown to help families with low 
incomes afford other basic needs like food, health care, and 
childcare. HUD's rental assistance program rules are already 
designed to target those with the lowest incomes, and local 
programs can institute additional targeting preferences as 
permitted by law. The challenge for HUD programs isn't that 
they aren't targeted, it is that funding levels are inadequate 
to meet the need. Millions of very low-income families pay more 
than half their income for rent each month because they do not 
receive Federal assistance due to lack of funding. Similarly, 
the Federal Housing Administration plays a critical role making 
affordable mortgage credit available to first time homebuyers 
and underserved populations. During economic crises, we must 
use all of the tools at our disposal to ensure that all people 
remain safely and stably housed. Targeting assistance to 
prioritize the places and people who are most in need is always 
the goal, as is ensuring equity in allocations and getting 
funds in hands of struggling households expeditiously.

Q.35. Delinquent Federal Tax Debt--Borrowers with delinquent 
Federal tax debt are ineligible for FHA loans but HUD OIG 
discovered that FHA fails to verify with the IRS whether 
borrowers have such debt. \7\ In FY18 alone, FHA insured over 
56,000 loans to borrowers with delinquent Federal tax debt 
worth $13 billion. OIG also found that for FY18, the serious 
delinquency rate was almost 89 percent higher for those loans 
than that of the general population.
---------------------------------------------------------------------------
     \7\ https://www.hudoig.gov/sites/default/files/2019-10/2019-KC-
0003.pdf
---------------------------------------------------------------------------
    How can FHA realistically protect taxpayers if it insures 
loans for people who fail to pay their own taxes?
    Can you commit to work with the Department of the Treasury 
to ensure FHA can verify prospective borrowers do not have 
delinquent Federal tax debt?

A.35. While I would be unable to comment on the exact scenario 
that led to the previous Administration's insurance of 
mortgages to individuals with delinquent tax debt, HUD is 
required to comply with the Debt Collection Improvement Act of 
1996 (DCIA). This law requires that Federal agencies refer 
delinquent debtors to the Department of the Treasury's Treasury 
Offset Program (TOP), for withholding of any eligible Federal 
payments, including Social Security benefit payments. I will 
ensure that this process continues.

Q.36. Depository Institution Participation--Many depository 
institutions lend in their communities and banks' participation 
in FHA is critically important for FHA's first-time homebuyers 
and minority borrowers. Will you commit to working to bring 
banks into FHA so that first-time homebuyers and minority 
borrowers continue to have access to credit?

A.36. Robust participation in FHA programs by quality lending 
institutions, regardless of their structure, is something that 
I will continue to encourage. To date, the majority of FHA 
lender participants are nondepository institutions. It would be 
beneficial for FHA to have greater participation by 
depositories to make FHA-insured mortgage financing more easily 
available to borrowers, and to better balance counterparty 
risk. Bringing large bank lenders and regional banks back to 
the FHA program will be one of my priorities. It means more 
people have access to credit and a shot at home ownership and 
will help us meet goals for equity and support more communities 
that have historically not been served by these financial 
institutions.

Q.37. Rental Assistance Programs--In December, Congress enacted 
a new $25 billion rental assistance program to help renters who 
have fallen behind on their bills.
    Even though that program will be run through the Treasury 
Department and not HUD, do you support that program?
    The National Low Income Housing Coalition claims that 
renters may owe $57 billion in back rent. Do you think that 
Congress should prioritize funding to address that backlog, 
which would help to remove the treat of eviction from landlords 
who, in some cases, may not have received their past-due rent 
for nine or more months?
    Do you support making sure that any future funding 
appropriated to the emergency COVID rental assistance program 
is used exclusively to retire those arrears and get those 
renters out from under the threat of eviction?

A.37. I understand that HUD has been providing answers to 
Treasury's questions as they have been working to implement the 
new $25 billion Emergency Rental Assistance program. If 
confirmed, it will be one of my highest priorities to continue 
whatever HUD can legally do to support Secretary Yellen's 
implementation of this important program.
    I agree that Congress should provide funding to help people 
pay back rent owed due to the health and economic crises. 
Rental housing depends on responsible landlords providing safe, 
decent housing. To do that effectively, landlords need to 
receive the rent. Many landlords have mortgages that need to be 
paid, all have taxes, insurance, utilities, and maintenance 
costs to be paid. The growing rent arrearages is certainly 
negatively impacting landlords and their tenants.
    Treasury's Emergency Rental Assistance program will play an 
important role at helping not only prevent eviction but 
ensuring landlords get the funding they need to continue to 
provide safe and decent housing. I look forward to working with 
the Congress to craft effective policies that keep Americans 
housed as this crisis continues to evolve.

Q.38. Homelessness--In 2020, HUD estimated that the homeless 
population of the United States exceeded 560,000, driven in 
large part by substantial increases in California and New York, 
which have four of the top five cities in terms of homeless 
populations. As the homeless population continues to increase 
in places like New York City, Los Angles, San Diego, and San 
Jose, it is clear that the strategies those places are using to 
reduce homelessness are simply not working.
    Can you explain what the permanent supportive housing 
method known as Housing First entails?
    Are you aware that the Housing First model prohibits, as a 
condition of receiving funding, homeless services providers 
from creating safe spaces free from drugs and alcohol use for 
chronically homeless individuals in need of sobriety services, 
or that it prohibits requiring individuals suffering from 
severe mental illness from having to take psychiatric 
medications?
    By awarding Federal funding through a Housing First model, 
HUD is essentially locking out successful homeless services 
providers with long track records of both sheltering 
chronically homeless individuals and treating their alcohol, 
drug, or mental illness issues to increase their chances to 
remain permanently housed. As Secretary, will you commit to 
reviewing HUD's Housing First formula bias and working to 
ensure that all providers of successful homeless services have 
equal access to Federal funding, even those with programs that 
feature sobriety or mental health treatment requirements?

A.38. Housing First is an approach that is applied to a variety 
of different types of programs, including permanent supportive 
housing, rapid rehousing, and transitional housing. The 
techniques used as part of a Housing First approach are 
tailored to the specific needs of each person being served. 
However, all projects that use a Housing First approach share 
three elements:

  <bullet>  There are low barriers to entry, meaning that 
        people can be served by programs using a Housing First 
        approach, regardless of the barriers they face.

  <bullet>  Housing First programs focus first on helping 
        people move into safe and stable housing as quickly as 
        possible. One of the reasons Housing First approaches 
        are effective is that when people are in safe and 
        stable housing, they are much better able to address 
        the challenges that led to their homelessness.

  <bullet>  A Housing First approach involves providing 
        customized and client-driven supports, which may 
        include primary health, behavioral health, employment, 
        and education.

    If confirmed, a primary goal will be to ensure that HUD 
provides the most effective assistance possible. I support 
using a Housing First approach because numerous studies have 
shown it is the most effective strategy for reducing 
homelessness. If confirmed, during my tenure, HUD will continue 
to look at all different approaches and promote ones that 
evidence shows will most help us achieve our goal of ending 
homelessness.

Q.39. In August, GAO reported that HUD may be misstating the 
size of the U.S. homeless population because of flawed data 
collection and monitoring processes. One factor in that flawed 
data collection is the use of different definitions of the term 
``homeless'' by different Federal agencies, like the Department 
of Education. For example, GAO stated: ``The definition of 
homeless that Education uses is broader than HUD's.[and] 
includes children and youth who are sharing the housing of 
other persons due to loss of housing, economic hardship, or a 
similar reason (that is, are doubled up); living in motels, 
hotels, trailer parks, or camping grounds due to the lack of 
alternative adequate accommodations; or living in substandard 
housing.'' The result of that disparity is that over one 
million children who qualify as homeless by part of the Federal 
Government are omitted and cut off from assistance by HUD under 
its more restricted definition.
    Do you support the inclusion of all children who are 
homeless within the HUD definition of homeless so that they can 
access HUD funding along with adults?

A.39. I look forward to discussing the issues you raise. With 
respect to the definition of homelessness, any expansion of the 
definition of homelessness should also be coupled with 
additional resources. The challenge is that we don't have 
enough resources to serve those who currently meet HUD's 
homelessness definition, and I think we need to ensure families 
living in crowded shelters or on the street receive the housing 
and services they need. I recognize that many families live on 
the edge of homelessness and need help finding and maintaining 
affordable housing.
    Therefore, I am interested in ways to expand housing 
assistance so that all people who are eligible for assistance 
receive it. As I said in my testimony, only 1 in 5 households 
who are eligible for rental assistance receive it. Increasing 
access to HUD assistance is essential not only to ending 
homelessness but to ensuring families on the edge of 
homelessness stay housed. Finally, increasing access to 
affordable housing also includes partnering with communities to 
accelerate the development of affordable housing and ensuring 
homeless families and youth are prioritized for health care, 
education, employment, and other needed services.

Q.40. As Secretary, would you support the harmonizing of the 
definition of homeless across all Federal agencies?

A.40. I will reenergize HUD's efforts to partner with other 
Federal agencies to ensure that Federal programs across the 
board are doing as much as possible to prevent and end 
homelessness.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR COTTON
                      FROM MARCIA L. FUDGE

Q.1. An issue that has garnered bipartisan support on this 
Committee has been the regulation of Property Assessed Clean 
Energy loans. An important part of these efforts was a decision 
issued by HUD in 2017 to stop issuing FHA insurance on homes 
that carry PACE liens. The rationale behind this decision was 
two-fold. First, by placing PACE loans in a first-lien 
position, this program put the Federal Government--and the 
taxpayers who stand behind FHA--in a second loss position. And 
second, the lack of consumer protections associated with PACE 
lending led to documented abuses at the hands of predatory 
lenders.
    Fannie Mae, Freddie Mac, and the VA all ban PACE lending, 
just like FHA. If confirmed to lead HUD, will you continue to 
protect both homeowners and taxpayers by maintaining a strong 
ban on FHA insuring mortgages with PACE liens?

A.1. Yes. I am committed to protecting homeowners and taxpayers 
and maintaining this policy. I agree that the current FHA 
policy on Property Assessed Clean Energy (PACE) loans is 
consistent and prudent for the housing finance industry, and 
the current PACE structure that subordinates FHA to second lien 
position puts the FHA insurance program and taxpayers at risk. 
As you know, energy efficiency and climate are key priorities 
for the Administration, and I believe that housing has a role 
to play in that. If I am confirmed, I hope that progress can be 
made to improve and expand sustainable and equitable clean 
energy housing programs, and I commit to working across 
agencies, with the White House Climate Council, and with 
Congress to determine affordable ways to ensure safe and 
efficient home construction, manufacturing and financing 
options for homeowners who wish to make energy efficient 
improvements to their homes. This is an area we will continue 
to evaluate.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR KENNEDY
                      FROM MARCIA L. FUDGE

Q.1. In 2020, five categorized storms struck Louisiana, 
affecting all 64 parishes across the State. The most powerful 
of these storms, Hurricane Laura, hit Southwest Louisiana as a 
Category 4 storm and is one of the strongest storms to make 
landfall in American history. Because of the previous 
Administration's decision to issue major disaster declarations 
prior to landfall for both Hurricanes Laura and Delta, many 
lives were saved across Louisiana. However, the physical 
damages to homes, businesses, and infrastructure were 
extensive. Hurricane Laura alone caused an estimated $14 
billion in damages. Hurricane Delta further compounded the 
damage when it made landfall in the same area just 42 days 
later. The Louisiana Governor, and the Louisiana Congressional 
delegation have called for disaster relief appropriations that 
would focus primarily on HUD's Community Development Block 
Grants for Disaster Relief. This funding is imperative to fill 
the gap between available funds.
    Louisiana's citizens are resilient, but our State and local 
resources cannot cope with these hurricanes' severity and 
frequency without emergency supplemental assistance. As 
Secretary of HUD, will you urge the President to make this 
request to Congress for these funds?

A.1. Over the past decade, communities across the country have 
witnessed a historic number of deadly and destructive weather 
and climate events. In 2020 alone, there were 22 weather and 
climate disaster events with losses exceeding $1 billion each 
to affect the United States--a new record. If confirmed, I will 
work with HUD and FEMA to estimate unmet recovery needs and 
work with the President to implement his historic vision for 
building back better.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
             SENATOR MENENDEZ FROM MARCIA L. FUDGE

Q.1. Healthy Housing--Last Congress, Senator Scott and I 
introduced and passed into law our CO Alerts Act, which 
requires carbon monoxide alarms in federally assisted housing 
units that have potential carbon monoxide sources like gas-
fired appliances, fireplaces, forced air furnaces, and attached 
garages. Since carbon monoxide is a silent killer, carbon 
monoxide alarms are the only way to safely detect the poison's 
presence.
    How will you prioritize implementing this bill to ensure 
public housing residents' exposure to danger from carbon 
monoxide is reduced each successive winter?

A.1. I was very pleased to see that the CO Alerts Act was 
enacted as part of the FY2021 Consolidated Appropriations Act. 
The CO Alerts Act aligns with my commitment to ensure that 
public housing offers safe homes for all residents. And even 
though the Act allows up to 2 years to implement, if confirmed 
as Secretary, I will pursue implementation of the Act as 
quickly as possible. I hope that Congress will follow up on the 
authorization of funds with a specific appropriation. This 
would allow the Department to build on steps already taken to 
eliminate carbon monoxide exposure risks over the past 2 years, 
including the Department having provided in the past 12 months 
nearly $10 million in funding for 117 public housing agencies 
to install carbon monoxide detectors in thousands of 
residential units across the Nation.

Q.2. Another poison present in Federal housing is lead. Senator 
Scott and I also have a bill on this issue, the Lead-Safe 
Housing for Kids Act.
    Will you consider reevaluating how HUD currently conducts 
risk assessments and how current evaluation tools are used to 
identify lead hazards in federally assisted housing before a 
family moves in?

A.2. First, I want to thank you and Senators Durbin and Scott 
for introducing the Lead-Safe Housing for Kids Act in 2019. 
Every child, regardless of their zip code, deserves a safe and 
healthy place to lay their head at night. The Centers for 
Disease Control and Prevention consistently cautions that no 
level of lead exposure is safe. As I am sure you know, based on 
Title X, HUD already requires, with only a few exceptions, all 
older HUD-assisted public housing and project-based rental 
housing to have a risk assessment followed by control of any 
lead-based paint hazards identified. However, Title X does not 
authorize HUD to require the same risk assessments in the 
Housing Choice Voucher program. It is my understanding that in 
an effort to address the problem, HUD conducts visual 
assessments for deteriorating paint, followed by stabilization 
of the area identified.
    If confirmed, I will explore how HUD currently conducts 
risk assessments and how visual assessments are used to 
identify lead hazards in tenant-based housing before a family 
moves into pre-1978 housing. HUD's Real Estate Assessment 
Center developed a lead inspection methodology and performed a 
pilot test in FFY20 as a prototype inspection for public 
housing agencies that received funding for lead abatement. In 
addition, a recent Government Accountability Office (GAO) 
report recommended that HUD take definitive actions to address 
lead hazards in its project-based rental assistance properties. 
If confirmed, I will ensure that HUD develops an action plan to 
address the findings in the GAO report, which is a start to 
reevaluating this issue on a larger scale.

Q.3. Puerto Rico--In September 2017, Puerto Rico was nearly 
destroyed after being hit by two back-to-back category 5 
hurricanes. Under the Trump administration, HUD wrapped 
financial aid in so much red tape, that 3 years after the 
hurricanes the island has only received $3.2 billion of the 
nearly $20 billion that Congress appropriated in CDBG-DR funds 
between 2017 and 2018.
    Congresswoman Fudge, can you commit to working with the 
people of Puerto Rico to ensure that they get all of the 
congressionally appropriated funding as expediently as 
possible?

A.3. Yes. We will work to ensure that Puerto Rico receives the 
Federal disaster reconstruction funding that it urgently needs 
to support the long-term recovery of Puerto Rico and increase 
its ability to withstand any future storms.

Q.4. Elderly Housing--HUD rental housing programs bring 
affordable housing to more than 1.9 million older adults, a 
population ravaged by COVID-19.
    Under your leadership, how will HUD ensure the federally 
assisted senior housing communities have the tools and 
resources they need to protect residents and staff?

A.4. Safeguarding the welfare of older adults across the 
Department is, and must remain, one of our highest priorities. 
While older adults are the focus of the Section 202 Supportive 
Housing for the Elderly program, older Americans are supported 
by nearly all HUD programs including public housing, tenant-
based rental assistance, and project-based rental assistance. 
The Department will continue to Administer supplemental funding 
provided by Congress and to protect residents and staff. 
Supplemental funding appropriated by Congress is being used to 
support a variety of resident safety measures, such as personal 
protective equipment, extra cleaning and disinfecting, 
equipment to facilitate social distancing, and temporary 
staffing increases to maintain or enhance ongoing service 
coordination for residents. HUD should also strengthen its 
partnerships with HHS and State and local public health 
agencies to ensure that older Americans are vaccinated. If 
confirmed, I look forward to working with you to ensure older 
adults are protected in HUD-assisted housing.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                      FROM MARCIA L. FUDGE

Q.1. Eviction poses a severe threat to families and to public 
health, and new research shows that a strong eviction 
moratorium can save lives during this pandemic. While the CDC 
eviction moratorium has been a critical intervention, it must 
be strengthened. The Trump administration made the moratorium 
as weak as possible--the order allows landlords to file 
eviction proceedings, requires renters to sign a declaration 
under penalty of perjury that could be intimidating, and allows 
landlords to evict renters who do not know their rights. The 
Administration also failed to conduct public outreach--
particularly troubling because eligible renters do not 
automatically receive eviction protection--and did not enforce 
the ban.
    Will you work with the CDC to strengthen the moratorium?

A.1. If confirmed, I will direct my staff to work with CDC to 
look for ways to strengthen their moratorium.

Q.2. Will you conduct public outreach to renters and landlords 
regarding the moratorium, including in multiple languages?

A.2. The Limited English Proficiency Initiative provides 
funding for the creation and promotion of translated materials 
and other programs that support the assistance of persons with 
limited English proficiency in utilizing the services provided 
by the Department of Housing and Urban Development. If 
confirmed, I will direct my staff to work with CDC staff to 
provide public outreach regarding the moratorium to renters and 
housing providers, which would include sharing information in 
multiple languages.

Q.3. Will you work with other agencies to ensure there is 
meaningful enforcement of the moratorium?

A.3. The U.S. Department of Justice (DOJ) prosecutes violations 
of the moratorium. If confirmed and asked for guidance on 
enforcement, I will direct my staff to work with DOJ staff to 
find ways to more meaningfully enforce the moratorium, based on 
HUD's experiences enforcing regulations for our own housing 
programs.

Q.4. Will you work with housing advocacy organizations and low-
income renters to determine necessary changes to strengthen the 
order?

A.4. If confirmed, I will ensure that we listen to the concerns 
of housing advocacy organizations and low-income renters before 
making determinations about our consultations with the CDC on 
the future of their eviction moratorium.

Q.5. In 2016, HUD found that ``transgender and gender 
nonconforming persons continue to experience significant 
violence, harassment, and discrimination in attempting to 
access programs, benefits, services, and accommodations'' and 
reported that ``transgender persons are often discriminatorily 
excluded from shelters or face dangerous conditions in the 
shelters that correspond to their sex assigned at birth.''
    Will HUD abandon the Trump administration's proposed rule 
undermining the 2016 Equal Access rule protections?

A.5. Yes, HUD will withdraw the proposed rule. Transgender and 
gender nonconforming persons experience extremely high rates of 
homelessness, and historically, emergency shelters have not 
appropriately and consistently met the needs of these 
communities. The 2016 rule helps protect transgender persons 
from discrimination in emergency shelters, and I am committed 
to enforcing it. Furthermore, HUD will republish training 
materials that help communities effectively implement the 2016 
rule.

Q.6. We face a worsening affordable housing crisis that is 
hitting families of color the hardest. Today, there are only 36 
affordable rental homes available for every 100 extremely low-
income families, and a housing shortage exists for all families 
making below the area median income. Tackling this crisis will 
require significant, targeted investments in building 
affordable housing for the lowest-income Americans, like the 
Housing Trust Fund.
    Will you advocate for investments in the Housing Trust Fund 
in the HUD budget and in an infrastructure package or other 
legislation?

A.6. I support President Biden's plan for investing in our 
communities through housing, including his call for increased 
investment in the Housing Trust Fund.

Q.7. Amidst an ongoing affordable housing crisis, it is 
critical to preserve and maintain existing affordable housing, 
including 1.2 million public housing units. Years of chronic 
underfunding have resulted in an estimated $70 billion backlog 
of repairs to the existing public housing stock.
    Will you advocate for investments in the Public Housing 
Capital Fund in the HUD budget and in an infrastructure package 
or other legislation?

A.7. In the opening statement of my testimony, I voiced my 
conviction that we must work together to improve the quality, 
safety, and accessibility of affordable housing throughout the 
Nation. Many communities suffer from disinvestment; and 
unfortunately, given the age of much of the public housing 
stock, the level of funding for public housing has been 
insufficient to address the backlog of repairs.
    Modernization of HUD's housing stock would allow us to 
accomplish multiple objectives: strengthening our economy 
through energy retrofitting which will generate green jobs, 
addressing health hazards, and, most importantly, creating 
high-quality living conditions for some of our most vulnerable 
communities. If confirmed, I welcome the opportunity to work 
with you on significant capital investment in our public 
housing portfolio.

Q.8. As of October 2020, HUD had still not established 
conditions for using CDBG-DR funds to implement long-term 
repairs to Puerto Rico's energy grids following the 2017 
hurricanes, or approved any long-term grid recovery projects.
    Will you prioritize getting appropriated disaster relief 
money to Puerto Rico, and addressing administrative roadblocks 
that have prevented Puerto Rico from using that funding?

A.8. Yes. We will work to ensure that Puerto Rico receives the 
Federal disaster reconstruction funding that it urgently needs 
to support the long-term recovery of Puerto Rico and increase 
its ability to withstand any future storms. In addition, I will 
work with HUD to take additional administrative steps to remove 
unnecessary barriers to distributing much-needed housing 
recovery funds.

Q.9. President Biden has committed to take a ``housing first'' 
approach to ending homelessness, and to conduct a review of 
Federal housing programs to ensure they pursue and incentivize 
this approach. Will you encourage the U.S. Interagency Council 
on Homelessness to appoint an Executive Director who has a 
demonstrated commitment to a ``housing first'' approach?

A.9. Yes. I agree that the Executive Director of USICH serves a 
critical role in shaping the Nation's homelessness response. 
That role must be filled by a person who understands and 
follows the evidence. Numerous studies and the experiences of 
communities across the country show that Housing First 
approaches are the most effective way to address homelessness 
for the vast majority of people. I will ensure that it is the 
primary strategy promoted by HUD and I will advocate for a new 
USICH Executive Director who understands and supports Housing 
First strategies.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SMITH
                      FROM MARCIA L. FUDGE

Q.1. On November 27, 2019, a fire broke out on the upper floors 
of Cedar High Apartments, a public housing building in 
Minneapolis, Minnesota. Five residents tragically lost their 
lives in the fire. In the wake of this tragedy, I learned that 
Cedar High Apartments, like so many other multifamily public 
housing buildings around the country, was built long before 
1992, when Congress passed a law requiring new public housing 
to be equipped with automatic sprinkler systems.
    As a result, the Federal sprinkler requirement does not 
apply to Cedar High Apartments, and any efforts to voluntarily 
upgrade fire safety in that building have to be funded by the 
Minneapolis Public Housing Authority's limited capital funds.
    Improving fire safety in public housing should be a core 
part of fulfilling HUD's mission to provide safe, stable 
housing to low-income families. I also see this as an issue of 
equity, since public housing residents are disproportionately 
people of color and people with disabilities. We must do 
everything we can to ensure that these individuals are safe in 
their own homes.
    I authored a bill, the Public Housing Fire Safety Act, to 
help public housing agencies fund efforts to improve fire 
safety in older public housing buildings. Rep. Fudge, if 
confirmed, will you commit to working with me to get this 
effort across the finish line and provide funding for efforts 
to retrofit older public housing buildings with sprinkler 
systems?

A.1. I am committed to working with you to ensure that the 
Nation's public housing properties meet high standards for 
safety and security. Fire safety is one of a number of critical 
issues that must be addressed in order to ensure that the homes 
of public housing residents are safe places to live. As 
referenced in your question, the Federal Fire Safety Act of 
1992 required the installation of sprinklers in all new 
Government-owned high-rise buildings, but not in the thousands 
of public housing developments around the country built before 
that date. Given the age of the public housing portfolio and 
the backlog of capital needs faced by many public housing 
agencies, additional capital funds are necessary to quickly 
address health and safety risks, including fire safety. If 
confirmed, I look forward to working with you and Congress on 
this important issue.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SINEMA
                      FROM MARCIA L. FUDGE

Q.1. As you know, rental assistance dollars are administered by 
the Treasury Department. However, if confirmed, you will have 
an important role as HUD Secretary in advising the president on 
how he should engage on relief disbursement. Arizona struggled 
to allocate the rental assistance dollars provided by the CARES 
Act. Much of the backlog seems to have been attributed to 
onerous requirements at the State level, which require renters 
to go to great lengths and provide excessive paperwork to prove 
financial damage due to the coronavirus outbreak. While it is 
vital we prevent fraud in all Federal coronavirus relief 
programs, we also need the relief to get to Americans who are 
hurting. If confirmed, how will you help streamline rental 
assistance programs, including those in Arizona, so that 
dollars get to those in need in a timely manner?

A.1. I understand that HUD staff are providing technical 
support and participating in stakeholder listening sessions as 
the Treasury Department revises guidance published by the 
previous Administration on the recently funded Emergency Rental 
Assistance program. It is a top priority to provide whatever 
assistance HUD may legally provide to Treasury Secretary 
Yellen, as her team seeks to implement this important program 
quickly and effectively. I am also committed to learning more 
about what barriers are slowing the expenditure of HUD CARES 
funded programs in order to take actions that will speed up the 
effective expenditure of those funds. We must do whatever we 
can with the resources we have to quickly support people who 
are housing insecure due to the health and economic crises.

Q.2. As you know, HUD's definition of homelessness excludes 
children and youth living in motels or staying with other 
people temporarily, effectively and systematically preventing 
many families and children from receiving any HUD assistance. 
Every year, there are efforts to broad and align HUD's 
definition of homelessness with those of other Federal 
agencies, such as the Department of Education and the 
Department of Health and Human Services. The coronavirus 
outbreak has led to record-breaking homelessness levels, 
including homeless children.
    How do you feel about aligning HUD's definition with other 
agencies?
    Would you be willing to waive any HUD regulation or 
practice that restricts access to housing and homeless 
assistance for children, youth, and families who are 
experiencing homelessness as a result of the coronavirus 
outbreak?
    How else do you plan to combat families and youth 
experiencing homelessness?

A.2. I look forward to discussing the issues you raise. With 
respect to the definition of homelessness, any expansion of the 
definition of homelessness should also be coupled with 
additional resources. The challenge is that we do not have 
enough resources to serve those who currently meet the 
homelessness definition, and we must ensure families living in 
crowded shelters or on the street receive the housing and 
services they need. I recognize that many families live on the 
edge of homelessness and need help finding and maintaining 
affordable housing. I will reenergize HUD's efforts to partner 
with other Federal agencies to ensure that Federal programs 
across the board are doing as much to prevent and end 
homelessness as possible. I will also explore every waiver and 
authority available to ensure that HUD's programs are assisting 
as many people as possible during the pandemic.
    I am also interested in ways to expand housing assistance 
so that all people who are eligible for assistance receive it. 
As I said in my testimony, only 1 in 5 households who are 
eligible for Federal rental assistance receive it. Increasing 
access to HUD assistance is essential not only to ending 
homelessness but to ensuring families on the edge of 
homelessness stay housed. Finally, increasing access to 
affordable housing also includes partnering with communities to 
accelerate the development of affordable housing and ensuring 
homeless families and youth are prioritized for health care, 
education, employment, and other needed services.

Q.3. In addition to our families and children, I am concerned 
about homelessness levels for Arizona seniors and veterans. How 
do you plan to combat homelessness in these demographics?

A.3. I am very troubled by the rise in homelessness among 
seniors. We need to ensure that there is enough affordable and 
accessible housing to ensure that seniors do not fall into 
homelessness. For those seniors who are homeless now or become 
homeless in the future, we need to ensure that we help them 
move quickly into housing and connect them with the health care 
and other services they need. I will work closely with my 
counterparts at HHS and with communities to coordinate housing 
and health care, and I will advocate for more affordable 
housing opportunities for seniors.
    HUD's partnership with VA is crucial for ending 
homelessness among our Nation's veterans. The HUD-VA Supportive 
Housing (HUD-VASH) program has helped reduce veteran 
homelessness by half since 2010 and several communities report 
ending homelessness for veterans. However, HUD-VASH is facing 
new challenges, particularly in communities where housing costs 
have skyrocketed. I will work to reenergize this partnership, 
increase the impact of HUD-VASH, and look for opportunities to 
direct housing assistance to more veterans with low incomes who 
need housing subsidies but do not need intensive supportive 
services.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                     FROM CECILIA E. ROUSE

Q.1. Last year women lost the most jobs in our economy--in fact 
in December, women accounted for all 140,000 of the net job 
losses that month. And that doesn't even account for all the 
women who've been forced out of the labor market altogether. 
You were on the CEA during the height of the Great Recession, 
and you've spent your career studying racial and gender gaps in 
the labor force. How do we address the job losses 
disproportionately hurting women and Black and brown workers?

A.1. This pandemic has disproportionately hurt women and Black 
and brown workers, but it was able to do so because of long-
standing inequities in our society. This is a moment of urgency 
but also of opportunity unlike anything we've faced in modern 
times: the urgency of ending a devastating crisis, and the 
opportunity to build a better economy that works for everyone. 
As we work to build that better economy, the CEA will always 
take into account the impacts of policies on disadvantaged and 
underrepresented communities.

Q.2. Even before this pandemic, workers' economic security was 
eroding and the middle class was shrinking. For decades, we've 
been losing many well-paying, middle class, union jobs--like 
the manufacturing jobs in my home State of Ohio. The cost of 
everything from child care to housing to education has gone up. 
Meanwhile, we've seen a rise in the so-called ``gig economy,'' 
which we know is just another way to cut costs and exploit 
workers. Long term, how do we build an economy that honors the 
dignity of all work?

A.2. We need to start by not thinking that the average outcome 
is what everyone in America is experiencing. We need to look at 
unemployment rates for all groups, at wage growth for different 
wage levels, and economic outcomes in communities across the 
country. As part of that effort, we will need to carefully 
examine the ways in which our institutions may need updating to 
fit the modern labor market. An economy that works for everyone 
is an economy that will grow faster and provide more economic 
benefits to all of us.

Q.3. Where have you excelled in past positions in hiring and 
promoting people of color in your previous jobs?

A.3. I served three terms as chair of the American Economic 
Association's Committee on the Status of Minority Groups in the 
Economics Professions, established to increase the 
representation of minorities in the economics profession. In 
addition, as dean of the Princeton School of Public and 
International Affairs (SPIA), I have made it a priority to 
diversify our faculty, staff, and student body. This included 
shoring up programs to ensure that students of color were in 
the policymaker pipeline.

Q.4. In August 2011, President Obama issued an Executive order 
establishing a coordinated, governmentwide initiative to 
promote diversity, equity, and inclusion (DEI) in the Federal 
workforce. The Executive order reads, in part, that ``Attaining 
a diverse, qualified workforce is one of the cornerstones of 
the merit-based civil service . . . To realize more fully the 
goal of using the talents of all segments of society, the 
Federal Government must continue to challenge itself to enhance 
its ability to recruit, hire, promote, and retain a more 
diverse workforce. Further, the Federal Government must create 
a culture that encourages collaboration, flexibility, and 
fairness to enable individuals to participate to their full 
potential.'' The order required each agency to establish an 
agency-specific diversity, equity, and inclusion strategic plan 
with specific objectives.
    Please describe your commitment to diverse hiring at the 
Council of Economic Advisers (CEA). Will you establish an 
agency-specific diversity, equity, and inclusion strategic plan 
with specific objectives?

A.4. I am deeply committed to creating a more diverse CEA than 
has existed in the past. I am ready to work with my team to 
make this a reality.

Q.5. What are some short- and long-term strategies for 
addressing wealth disparities, income disparities, and 
employment and unemployment disparities?

A.5. In the short-term, we must address the economic fallout 
from the pandemic, which has had a disproportionate effect on 
communities of color. As we build back better, we must look for 
policies that not only address income and wealth disparities, 
but must also ensure that programs built to shore up the 
economy do not leave out Black and brown workers. In order to 
pay for some of these strategic investments, the President is 
committed to ensuring that everyone pays their fair share--
which suggests that tax policy will be a potential tool for 
addressing inequality.

Q.6. Have you previously implemented and required diversity, 
equity, and inclusion training for all employees and implicit 
bias training for managers within your purview?

A.6. As dean of the Princeton School of Public and 
International Affairs (SPIA), I offered DEI training for 
faculty, staff, and students and strongly encouraged them all 
to participate. However, I did not require participation, as 
evidence shows that voluntary participation is more successful 
than mandatory.

Q.7. Will you commit to implementing and requiring diversity, 
equity, and inclusion training for all employees within your 
purview? What is your plan for implementing these trainings?

A.7. At CEA, as I did at SPIA, I will strongly encourage 
participation in such programs.

Q.8. Will you commit to implementing and requiring implicit 
bias training for managers within your purview? What is your 
plan for implementing these trainings?

A.8. At CEA, as I did at SPIA, I will strongly encourage 
participation in such programs.

Q.9. Please describe how you view the role of Chair of the CEA 
in appropriately serving Black, Indigenous, and People of Color 
(BIPOC)? How do you view the CEA's role in furthering racial 
equity?

A.9. The most important role I can play as Chair of CEA is to 
help build an economy that works for everybody.

Q.10. Please list at least 3 specific priorities for advancing 
racial equity, diversity, and inclusion at CEA. What specific 
measures will you use to evaluate success in these areas, and 
over what period of time?

A.10. Three priorities that will go a long way in advancing DEI 
are: (1) promoting data collection that includes adequate 
samples of all parts of our population so that we can get a 
clear picture of their circumstances; (2) shoring up the safety 
net; and (3) advocating that strategic investments in Build 
Back Better include workers of color and other underrepresented 
populations. The CEA will work with Congress to design 
appropriate measures to evaluate success.

Q.11. Please describe how you plan to work with the 
Administration and engage all sectors of our economy to serve 
Black, Indigenous, and People of Color (BIPOC) and dismantle 
systemic racism's impact on the economy? How will you 
accelerate private sector efforts to achieve more inclusive 
leadership?

A.11. The CEA will work with the Administration to identify 
ways that systemic racism has been an obstacle to Black, 
Indigenous, and People of Color's ability to participate fully 
in the economy.

Q.12. Will you establish an office or position committed to 
advancing DEI?

A.12. We will hire staff committed to examining economic policy 
that can advance DEI. Importantly DEI should be a lens through 
which all economic policies are analyzed.

Q.13. What specific measures will you use to evaluate CEA's 
success in understanding and addressing the needs of BIPOC? 
Will you regularly report to Congress on the progress being 
made on these measures?

A.13. At the heart of understanding and addressing the needs of 
BIPOC is making sure that the data we use do not leave them 
out. We have to improve the data we utilize to ensure that we 
have a clear picture of how the economy affects Black, 
Indigenous, People of Color, and other underrepresented 
populations.

Q.14. An agency's budget reflects its values and goals. How do 
you plan to allocate and sufficiently resource internal and 
external efforts to advance DEI as part of CEA's annual budget 
process? How will you ensure sufficient financial support for 
the agency-specific diversity, equity, and inclusion strategic 
plan to ensure you are able to meet the objectives established 
under that plan in a reasonable time period?

A.14. I completely agree that an agency's budget reflects a 
plan of action. Once at the CEA, it will be a priority of mine 
to allocate resources in a way that advances our commitment to 
DEI.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TOOMEY
                     FROM CECILIA E. ROUSE

Q.1. Increasing National Debt--The U.S. Government would have 
to engage in significant borrowing to cover the cost of the 
Biden administration's stimulus spending plan. The Nation's 
debt already exceeds its annual output at 100.1 percent of 
gross domestic product. What are the costs that can be 
inflicted by rising national debt, and how much debt is too 
much?

A.1. With COVID-19 raging, we must provide sufficient support 
to households and businesses so they can survive this pandemic-
induced recession. We are still down more jobs than we were at 
the peak of the Great Recession. The best thing we can do for 
national debt at the moment is ensure that we have a strong 
economy on the other side of this crisis. More generally, 
borrowing--particularly with record low interest rates--and 
making strategic investments in our future can help boost 
growth and ensure it is more inclusive over the longrun.

Q.2. School Closures--You have focused much of your economic 
research on education, and have published several studies on K-
12 education in particular. During the COVID-19 pandemic, we 
have seen an increase in educational inequality, in large part 
due to widespread persistent closures of public schools to in-
person learning despite substantial evidence that schools could 
safely remain open. Long-term school lockdowns have reduced 
students' learning time, and hence, worsened student 
performance.
    Do you believe that reopening schools for in-person 
learning is urgently necessary for students?

A.2. Every student should have access to a high quality, safe 
learning environment. Reopening schools safely will require 
careful work, and I look forward to engaging productively in 
conversations about how to ensure that all students have access 
to the learning environments they need so that educational 
inequality does not increase further.

Q.3. Should policy makers facilitate opportunities for parents 
to send their children to schools offering in-person learning 
while their local schools are closed?

A.3. We need to ensure that children are learning in safe 
environments. I look forward to working with the Administration 
on ensuring that students are able to get the education they 
need while keeping themselves and their families safe.

Q.4. Unemployment Insurance--You have expressed concern for 
those who have fallen through the social safety net, 
particularly those who have experienced extended unemployment. 
During your hearing you noted that today's unemployment 
insurance system doesn't provide the safety net it used to, 
arguing that it was designed for short-term unemployment, but 
not the kind of longer-term unemployment that we may be seeing 
with the Government-imposed shutdowns of the economy.
    What changes do you think should be made to the UI system 
that would result in these individuals returning to the labor 
market?

A.4. We must design a UI system that works for everyone. One of 
the most immediate changes we should make is to ensure the UI 
system functions properly so that workers do not wait months to 
receive checks to which they are entitled. I also strongly 
support the President's focus on short-time compensation, a 
program that has worked well in other countries, but that has 
been underutilized in this country.

Q.5. What do you believe is an appropriate duration for 
providing unemployment insurance benefits to an individual?

A.5. Long-term unemployment has been an increasing problem in 
this country. It is also a particular problem in this pandemic 
as certain industries have struggled, and will likely continue 
to struggle, until the public health crisis is resolved. In a 
typical recession, unemployment insurance is supposed to 
support workers actively looking for work until they are able 
to find another job; in this crisis, which is caused by a 
pandemic, we need to help workers provide for themselves and 
their families until the health crisis has been addressed and 
job opportunities return. I look forward to working with 
Congress on how we can best design the program to meet that 
need.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                     FROM CECILIA E. ROUSE

Q.1. Multiple experts have described the economic trajectory 
resulting from the COVID-19 recession as ``K-shaped,'' meaning 
that the recovery has occurred at an uneven pace for different 
income levels.
    Describe the long-term consequences of this K-shaped 
recovery, particularly as it relates to the risk that millions 
of Americans are becoming detached from the labor force. What 
impact will this have on the productive capacity of our economy 
in the future?

A.1. The K-shaped recovery reflects that millions of Americans 
are currently suffering. Around 24 million adults say their 
household sometimes or often didn't have enough to eat in the 
last 7 days, which impacts between 9 and 12 million children. 
One in five adult renters are behind on rent. Women are 
dropping out of the labor force partly because of increased 
domestic burdens. We know that economic insecurity, hunger, 
rent insecurity, and labor force detachment all have long-term 
impacts not just for workers and their families, but our 
economy overall. It is too soon to know the long-term economic 
implications of the pandemic, but if we do not find a way to 
include all productive workers in our recovery, we will not be 
fully utilizing all of the talent we have in this country to 
get us back on a path of robust economic growth.

Q.2. How will you measure the success of our recovery going 
forward?

A.2. Too often we measure the success of our economy in average 
outcomes or headline numbers. We need to look at how outcomes 
vary for different types of workers, households, and geographic 
areas (among others) as well.

Q.3. What structural changes do you believe should be made to 
our economic system to ensure equitable recoveries in future 
recessions?
A.3. Our frayed safety net means that millions of people were 
suffering economically even before the pandemic-induced 
recession. One change we should consider is making more of our 
safety net ``automatic'' in the sense that programs (such as 
extended/enhanced UI) dial on during times of recession and 
dial off as the economy recovers. In addition, we need to make 
sure our economy works for everyone by increasing the 
availability of fulfilling jobs and ensuring that no one falls 
through the cracks.

Q.4. Do you believe the current structure of our financial 
system has contributed to economic inequality?
A.4. As a member of President Obama's Council of Economic 
Advisers, I saw what can happen when our financial system 
fails. Good financial regulations level the playing field while 
supporting a forward-looking economy. A well-functioning and 
well-regulated financial system is an integral part of a market 
economy. We need financial regulations that ensure that 
problems on Wall street do not become problems for Main Street.

Q.5. If so, what are some ways that financial regulation can be 
used to address these inequalities?
A.5. I want to be mindful of the independence of our financial 
regulators. But I share the goals of addressing economic 
inequality and ensuring that our economic system is working for 
everyone, not just those at the top of the income ladder. If 
confirmed, I would look forward to working with you on these 
issues, which are priorities for this Administration.

Q.6. Millions of Americans lack access to traditional financial 
service products. What options should policymakers explore to 
foster a more inclusive banking system?
A.6. This year we have seen how lack of access to traditional 
financial service products can hurt families, and also how it 
can make it harder for the Federal Government to get aid to 
them in times of need. I look forward to engaging on the 
barriers to accessing traditional financial service products if 
confirmed as Chair.

Q.7. What do you believe are the greatest risks to financial 
stability?
A.7. Increased inequality and an uneven playing field create an 
environment in which economic risks can emerge that threaten 
our entire economy. One way to ensure that we leave the 
pandemic behind with a stable financial system is to support 
the Federal Reserve in its efforts to protect the vital sources 
of credit that allow small businesses and local governments to 
pay their day-to-day bills.

Q.8. How do you view the problem of ``Too Big To Fail'' and the 
risks posed by consolidation in the banking industry?
A.8. As a member of President Obama's Council of Economic 
Advisers during the financial crisis, I saw the U.S. economy 
come close to ruin following the failures and near-failures of 
large, interconnected bank holding companies and nonbank 
financial companies. It is important that we do not allow such 
risks to emerge in our financial system again.

Q.9. More than half of hourly workers get their schedules with 
less than a week's notice, making it hard for workers to figure 
out child care, go back to school, or have some financial 
security. Would addressing unstable, unpredictable, and rigid 
scheduling practices--especially for low-wage workers--benefit 
workers and families?
A.9. We have seen increasing evidence in recent years of the 
difficulties that unpredictable schedules cause for workers and 
families. In particular, when companies impose erratic 
schedules, it can make it hard for workers to get ahead while 
also taking care of themselves and their families. If 
confirmed, I look forward to working with you on this important 
issue.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
            SENATOR VAN HOLLEN FROM CECILIA E. ROUSE

Q.1. There are now 4 million long-term unemployed workers, and 
long-term unemployment increased more in October of 2020 than 
in any other month on record. The longer someone is unemployed, 
the harder it is for them to ever find a job, and the lower 
their wages will be if they do find a job. Long-term 
unemployment is devastating to workers and their families, and 
it causes permanent scarring on our entire economy if these 
workers drop out of the workforce permanently.
    You have been a leader in recognizing the terrible costs of 
long-term unemployment for both jobless workers and the overall 
economy. Austan Goolsbee, who chaired President Obama's Council 
of Economic Advisers, said you were, ``way ahead of everyone on 
the issues of the longterm unemployed.''
    As you know, long-term unemployment was a chronic problem 
for our economy even before the pandemic, which is why I 
introduced the Long-Term Unemployment Elimination Act. The bill 
would create good-paying, year-long jobs for long-term 
unemployed workers, and fund training and supportive services 
to address the barriers keeping people out of the workforce.
    When the pandemic made long-term unemployment an even more 
urgent crisis, I joined forces with other Senators who have 
also been leading the charge to create jobs for disadvantaged 
workers--Senators Ron Wyden, Tammy Baldwin, Michael Bennet, and 
Cory Booker--to introduce the Jobs for Economic Recovery Act. 
This bill combines our ideas and includes provisions to respond 
to the specific nature of the pandemic, when health and safety 
are of paramount importance.
    Dr. Rouse, we have already had very productive 
conversations about the subject of long-term unemployment. As 
chair of the Council of Economic Advisers, will you continue 
working with us on a plan to ensure that these 4 million long-
term unemployed workers are able to get jobs as part of our 
effort to not only help the economy recover, but to build back 
better than we were before?
A.1. I very much look forward to working with you on the issue 
of long-term unemployment. As you note, I have been concerned 
for a long time about the long-term unemployed and scarring. 
Creating good jobs that pay well has to be a priority as has 
building a system for workers who cannot secure a good job.
              Additional Material Supplied for the Record
              
        LETTERS SUBMITTED IN SUPPORT OF NOMINEE MARCIA L. FUDGE
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        LETTERS SUBMITTED IN SUPPORT OF NOMINEE CECILIA E. ROUSE
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
